<html>
<title> - DEFENSE STRATEGY REVIEW</title>
<body><pre>[Senate Hearing 107-726]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-726
 
                        DEFENSE STRATEGY REVIEW 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 21, 2001

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-316 PDF                       WASHINGTON : 2002

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  



















                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

                Les Brownlee, Republican Staff Director

                                  (ii)

  



















                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                        Defense Strategy Review

                             june 21, 2001

                                                                   Page

Rumsfeld, Hon. Donald H., Secretary of Defense...................     3
Shelton, Gen. Henry H., USA, Chairman, Joint Chiefs of Staff.....    20

                                 (iii)


                        DEFENSE STRATEGY REVIEW

                              ----------                              


                        THURSDAY, JUNE 21, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:04 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Byrd, Lieberman, 
Cleland, Landrieu, Reed, Akaka, Bill Nelson, E. Benjamin 
Nelson, Warner, Smith, Inhofe, Roberts, Allard, Sessions, 
Collins, and Bunning.
    Committee staff members present: David S. Lyles, staff 
director; Christine E. Cowart, chief clerk; and Anita R. 
Raiford, deputy chief clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Madelyn R. Creedon, counsel; Richard 
D. DeBobes, counsel; Evelyn N. Farkas, professional staff 
member; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; and Gerald J. 
Leeling, counsel.
    Minority staff members present: Romie L. Brownlee, minority 
staff director; Judith A. Ansley, deputy staff director for the 
minority; Charles W. Alsup, professional staff member; Edward 
H. Edens IV, professional staff member; Brian R. Green, 
professional staff member; William C. Greenwalt, professional 
staff member; Gary M. Hall, professional staff member; Mary 
Alice A. Hayward, professional staff member; Ambrose R. Hock, 
professional staff member; George W. Lauffer, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Cord A. Sterling, professional staff member; and Scott W. 
Stucky, minority counsel.
    Staff assistants present: Thomas C. Moore, Jennifer L. 
Naccari, and Michele A. Traficante.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Christina Evans and Terrence E. 
Sauvain, assistants to Senator Byrd; Frederick M. Downey, 
assistant to Senator Lieberman; Andrew Vanlandingham, assistant 
to Senator Cleland; Marshall A. Hevron, assistant to Senator 
Landrieu; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi, assistant to Senator Akaka; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; Neal Orringer, assistant to Senator 
Carnahan; Brady King, assistant to Senator Dayton; Christopher 
J. Paul, assistant to Senator McCain; Margaret Hemenway, 
assistant to Senator Smith; George M. Bernier III, assistant to 
Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders, assistant to Senator Allard; Arch 
Galloway II, assistant to Senator Sessions; Kristine Fauser, 
assistant to Senator Collins; and David Young, assistant to 
Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The committee will come to order. We meet 
this morning to receive testimony on the Defense Strategy 
Review from Secretary of Defense Donald Rumsfeld and Chairman 
of the Joint Chiefs of Staff General Hugh Shelton. This is the 
first time Secretary Rumsfeld has testified before Congress 
since his confirmation, and I want to welcome him and General 
Shelton to our committee.
    Secretary Rumsfeld has indicated that his ongoing defense 
strategy review is designed to think through critical questions 
that shape our Armed Forces, including the types of threats 
that our military forces need to be prepared to face today and 
in the future, and about how our military forces should be 
organized and equipped to meet those threats.
    As stated, the results of this review will be folded into 
the Quadrennial Defense Review (QDR), which will shape our 
national defense strategy as well as the administration's plans 
for force structure, force modernization, and infrastructure. 
The QDR in turn will play a major role in shaping the 
administration's defense budget decisions, beginning with 
fiscal year 2003.
    I agree with the Secretary's view that we need to engage 
our brains before we open our wallets. Our defense budget 
should surely be driven by a realistic strategy, and not the 
other way around. Today, we embark on the first step in our 
committee's dialogue with the Secretary on the national defense 
strategy.
    The Secretary has emphasized his views remain preliminary 
at this point, and that he is not yet ready to address all of 
the force structure, acquisition, and infrastructure decisions 
that will eventually shape the administration's proposed 
defense budget, but nonetheless these are important issues for 
us to discuss.
    For some time, I have felt that the so-called two major 
theater war (MTW) requirement is outdated. Something is awfully 
wrong when that requirement results in an Army division being 
declared unready simply because it is engaged in a real-life 
peacekeeping mission in the Balkans.
    I am also concerned that we may not be putting enough 
emphasis on countering the most likely threats to our national 
security and to the security of our forces deployed around the 
world, those asymmetric threats like terrorist attacks on 
U.S.S. Cole, on our barracks and our embassies around the 
world, and the World Trade Center, including possible attacks 
using weapons of mass destruction and cyber threats to our 
national security and even to our economic infrastructure.
    Two years ago, Senator Warner established a new 
subcommittee called the Subcommittee on Emerging Threats and 
Capabilities to focus our attention on these new asymmetric 
threats and ways to counter them. Senator Roberts has chaired 
that subcommittee, and Senator Landrieu now chairs it. Both 
have done an outstanding job for this subcommittee for the past 
2 years. I know that they will continue their good work with 
their roles reversed as the new chair and the new ranking 
member of this important subcommittee.
    Senator Warner and I have asked the General Accounting 
Office (GAO) to conduct a study of the Quadrennial Defense 
Review in the coming months. Mr. Secretary, I know that you and 
your staff will cooperate with the GAO in its effort to review 
the QDR process as it unfolds, and to analyze the QDR product 
for the committee once it is concluded.
    Finally, I just want to emphasize to you, Mr. Secretary, 
that it is critically important for the Defense Department to 
provide the budget documents for your fiscal year 2002 budget 
amendment to Congress by June 27. I understand that this budget 
will not reflect the results of the defense strategy review to 
any great extent, so I see no reason for a delay beyond that. 
If it gets in by June 27 and if, as hoped for, you testify on 
June 28, we will then have 3 months to mark up the National 
Defense Authorization Bill in committee, get it passed by the 
Senate, complete conference with the House and the Senate, and 
send it to the President by the end of the fiscal year.
    Historically, it has taken us an average of almost 5 months 
to get the bill past the Senate, so doing the entire process in 
3 months will be a monumental task. It cannot be done without 
the cooperation of everyone involved.
    I know that Senator Warner is on his way. He has been 
briefly delayed. I would ordinarily turn to him for his opening 
comments. Instead, I will now ask you, Secretary Rumsfeld, to 
open up, and then when Senator Warner gets here we will turn to 
him for his opening statement. Welcome.

   STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE

    Secretary Rumsfeld. Thank you very much, Mr. Chairman, and 
I thank you and the committee for calling this hearing on what 
I consider to be a very important subject indeed, the driving 
aspect of defense policy, the strategy.
    I would like to present a portion of my remarks and request 
that the entire written testimony be made a part of the record.
    Chairman Levin. It will be made a part of the record.
    Secretary Rumsfeld. Since coming into office 5 months ago, 
I have been asking a great many questions and discussing a 
number of key issues regarding how our Armed Forces might best 
arrange to meet the new security challenges of the 21st 
century, and I do appreciate this opportunity to report on our 
progress.
    Later this month, I hope to be available to discuss the 
2002 budget amendment, but before we get to that budget I do 
think today it is best to discuss a larger strategic framework 
and our efforts to draft a defense strategy that is appropriate 
to the threats and challenges we surely will face in the period 
ahead.
    We have conducted a number of studies, most of which have 
been briefed to you and the staff, including missile defense, 
transformation, conventional forces, morale, and quality of 
life. We have just completed about a month of consultations 
with our friends and allies around the world on the various 
security challenges we will face. We have also begun an 
interesting and somewhat unusual process with the Defense 
Department over the past several weeks.
    The Chairman of the Joint Chiefs, General Shelton on my 
right, the Vice Chairman, each of the Service Chiefs, and the 
CINCs on occasion, plus the few senior civilian officials who 
are confirmed, have held a series of meetings to discuss the 
subject of defense strategy. We have met for about 3 or 4 weeks 
now, almost three or four times a week for 3 or 4 hours a day, 
to produce detailed strategy guidance or terms of reference for 
the congressionally-mandated Quadrennial Defense Review.
    That senior group of military and civilian officials have 
come to some understandings and agreements that we are 
considering as a new strategy and a force-sizing approach. Over 
the next 6 to 8 weeks we will test those ideas through the QDR 
process against different scenarios and models and we will 
discuss our ideas and findings with the members of this 
committee. Later this summer or early fall we will know whether 
or not we believe we have something that we can confidently 
recommend to the President and Congress, and which we could 
then use to help us prepare the fiscal year 2003 budget in the 
fall.
    In approaching these discussions, we began with the fact 
that at present we are enjoying the benefits of the 
unprecedented global economic expansion, but we really cannot 
have a prosperous world unless we first have a peaceful world, 
and the security and stability that the United States Armed 
Forces provide to the global economy is a critical underpinning 
of that peace and prosperity.
    If we are to extend this period of peace and prosperity, we 
need to prepare now for the new and different threats we will 
face in the decades ahead, and not wait until they fully 
emerge. Our challenge, it seems to me, in so doing is 
complicated by the fact that we really cannot know precisely 
who will threaten us in the decades ahead. The only thing we 
know for certain is that it is unlikely that any of us know 
what is likely.
    Consider the track record of my lifetime. Born in 1932, the 
Great Depression was underway, and the defense planning 
assumption of the 1930s was no war for 10 years. By 1939, war 
had begun in Europe, and in 1941 the fleet that the United 
States constructed to deter war became the first target of a 
naval war of aggression in the Pacific.
    Airplanes did not exist at the start of the century, but by 
World War II, bombers, fighters, transports, and other aircraft 
had become common military instruments that critically affected 
the outcome of the war, and in the Battle of Britain a nation's 
fate was decided in the sky.
    Soon thereafter, the atomic age shocked the world. It was a 
surprise. By the 1950s, our World War II ally, the Soviet 
Union, had become our Cold War adversary, and then with little 
warning we were, to our surprise, at war in Korea.
    In the early 1960s, few had focused on Vietnam, but by the 
end of the decade, the U.S. was embroiled in a long and costly 
war there.
    In the mid-1970s, Iran was a key U.S. ally, and a regional 
power. A few years later, Iran was in the throes of an anti-
Western revolution and was the champion of Islamic 
fundamentalism. In March 1989, when Vice President Cheney 
appeared before this committee for his confirmation hearings, 
not one person uttered the word Iraq, and within a year he was 
preparing for war in Iraq.
    That recent history should make us humble. It certainly 
tells me that the world of 2015 will almost certainly be very 
little like today, and without doubt, notably different from 
what today's experts are confidently forecasting. But while it 
is difficult to know precisely who will threaten us, or where 
or when in the coming decades, it is less difficult to 
anticipate how we might be threatened.
    We know, for example, that our open borders and open 
society make it very easy for terrorists to strike at our 
people where they live and work. As you suggested in your 
opening remarks, our dependence on computer-based information 
networks today makes those networks attractive targets for new 
forms of cyber attack.
    The ease with which potential adversaries can acquire 
advanced conventional weapons will present us with new 
challenges in conventional war and force projection, and may 
give them new capabilities to deny U.S. access to forward 
bases. Our lack of defenses against ballistic missiles creates 
incentives for missile proliferation, which, combined with the 
development of nuclear, chemical, and biological weapons of 
mass destruction, could give future adversaries the incentive 
to try to hold our populations hostage to terror and blackmail.
    There are some important facts which are not debatable. The 
number of countries developing nuclear, chemical, and 
biological weapons of mass destruction is growing. The number 
of ballistic missiles on the face of the earth, and the number 
of countries possessing them, is growing as well.
    Consider this. In 1972, the number of countries pursuing 
biological weapons was unknown. Today, there are at least 13 
that we know of, and there are most certainly some that we 
don't know of, and these programs are of increasing 
sophistication and lethality.
    In 1972, 10 countries had chemical programs that we knew 
of. Today, there are 16. Four countries ended their chemical 
weapons programs, but 10 more jumped in to replace them.
    In 1972, we knew of only five countries that had nuclear 
weapons. Today, we know of 12.
    In 1972, we assessed a total of nine countries as having 
ballistic missiles. Today, we know of 28 countries that have 
them, and we know that those are only the cases we know of. 
There are dangerous capabilities being developed at this moment 
that we do not know about, and may not know about for years, in 
some cases until after they're deployed.
    What all this means is that soon, for the first time in 
history, individuals who have no structure around them to serve 
as a buffer on their decisionmaking will possess nuclear, 
chemical, and biological weapons and the means to deliver them. 
This presents a very different challenge from the Cold War.
    Even in the old Soviet Union, the General Secretary of the 
Communist Party, dictator though he was, had the Politburo to 
provide some checks and balances that might have kept him from 
using those weapons at his whim alone. What checks and balances 
are there on a Saddam Hussein or a Kim Jong-Il? None that we 
know of, and certainly none that we believe we can influence.
    While this trend in proliferation is taking place, we are 
also seeing another trend unfold that is both negative and 
positive, and that is the increasing power, range, and 
sophistication of advanced conventional weapons. If harnessed 
by us, these advanced weapons can help us extend our current 
peace and security into the new century. If harnessed by our 
adversaries, however, those technologies could lead to 
unpleasant surprises in the years ahead, and could allow 
hostile powers to undermine our current prosperity and peace.
    Future adversaries may use advanced conventional 
capabilities to deny us access to distant theaters of operation 
as they gain access to a range of new weapons that will allow 
them to expand the deadly zone to include our territory, 
infrastructure, space assets, population, friends, and allies. 
We may find future conflicts are no longer restricted to their 
regions of origin.
    For all these reasons, a new approach to deterrence is 
needed. We are living in a unique period in history when the 
Cold War threats have receded, but the dangerous new threats of 
the 21st century have not yet fully emerged. We need to take 
advantage of this period to ensure that we are prepared for the 
challenges we will certainly face in the decades ahead.
    The new threats are on the horizon, and with the speed of 
change today, where technology is advancing not in decades but 
in months and years, we cannot afford to wait until they have 
emerged before we prepare to meet them.
    With this security situation in mind, our team at the 
Pentagon has been working to develop an appropriate defense 
strategy for the coming decade. Our goal was to provide clear, 
strategic guidance and ideas for the congressionally-mandated 
Quadrennial Defense Review.
    Working with the Chairman of the Joint Chiefs of Staff, the 
Vice Chairman, and the Service Chiefs, we have had extensive 
discussions and worked through some complex issues. We have now 
provided guidance to test some preliminary conclusions over the 
next 2 months before making any recommendations to the 
President or to Congress.
    One of the key questions before us is whether to keep the 
two nearly-simultaneous MTW force-sizing construct. The two-MTW 
approach was an innovation at the end of the Cold War. It was 
based on the proposition that the U.S. should prepare for the 
possibility that two regional conflicts could arise at the same 
time, and if the U.S. were engaged in a conflict in one 
theater, an adversary in a second theater might try to gain his 
objectives before the U.S. could react, and prudence dictated 
that the U.S. take this possibility into account.
    The two-MTW approach identified both Southwest Asia and 
Northeast Asia as areas of high national interest to the U.S. 
In both regions, regimes hostile to the U.S. and its allies and 
friends possessed the capabilities and had exhibited the intent 
to gain their objectives by threat or force.
    The approach identified the force packages that would be 
needed for the U.S. to achieve its wartime objectives should 
two nearly-simultaneous conflicts erupt. These force packages 
were based on an assessment of combat capabilities and likely 
operations of an adversary on the one hand, and the 
capabilities and doctrine of U.S. forces so recently displayed 
in Operation Desert Storm on the other hand.
    The two-MTW approach served well in that period. It 
provided a guidepost for reshaping and resizing the force from 
one oriented to global war with a nuclear superpower to a 
smaller force focused on smaller regional contingencies.
    But when one examines that approach today, several things 
stand out. First, because we have underfunded and overused our 
forces, we find that to meet acceptable levels of risk we are 
short a division, we are short of airlift, we have been 
underfunding aging infrastructure and facilities, we are short 
on high-demand/low-density (HD/LD) assets, the aircraft fleet 
is aging at growing cost to maintain, the Navy is declining in 
numbers of ships, and we're steadily falling below acceptable 
readiness standards.
    I have no doubt, should two nearly-simultaneous conflicts 
occur, that we would prevail, but the erosion in the capability 
of the force means that the risks that we would face today and 
tomorrow are notably higher than they would have been when the 
two-MTW standard was established.
    Second, during this period we have skimped on our people, 
doing harm to their trust and confidence, as well as to the 
stability of our forces. Without the ability to attract and 
retain the best men and women, the United States Armed Forces 
will not be able to do their job.
    Third, we have underinvested in dealing with future risks. 
We have failed to invest adequately in the advanced military 
technologies we will need to meet the emerging threats of the 
new century. Given the long lead times in development and 
deployment of new capabilities, waiting further into the 21st 
century to invest in those capabilities poses a risk.
    Fourth, we have really not addressed the growing 
institutional risks, that is to say, the way the Department of 
Defense operates. The waste, the inefficiency, the distrust 
that results from the way it functions will over time, I fear, 
erode public support, to the detriment of the country.
    Fifth, an approach that prepares for two major wars focuses 
military planners on the near-term, to the detriment of 
preparing for the longer-term threats. Too much of today's 
military planning is dominated by what one scholar of Pearl 
Harbor called a poverty of expectations, a routine obsession 
with a few dangers that may be familiar, rather than likely.
    But the likely dangers of this new century may be quite 
different from the familiar dangers of the past century. A new 
construct may be appropriate to help us plan for the unfamiliar 
and increasingly likely threats that we believe we will face in 
the decades ahead.
    All of this led our team to the conclusion that we owed it 
to the President, to the country, to ask the question whether 
the two nearly-simultaneous major regional theater war approach 
remains the best for the period ahead, so we set in motion a 
process that has not been tried before.
    Knowing that any change would unquestionably require the 
military advice and commitment of the Chairman of the Joint 
Chiefs, the Vice Chairman, the Service Chiefs, and the regional 
and functional CINCs, we asked them to see if together we could 
not fashion a proposal that we believe might better serve the 
country than the current two-MTW approach. The QDR process 
could then test that alternative against the two-MTW approach 
to see whether or not we believed we had found something that 
we might want to recommend to the President and to Congress as 
a way ahead for the future.
    The approach we will test will balance the current risks to 
the men and women in the Armed Forces, the risks to meeting 
current operational requirements and war plans, and the risks 
of failing to invest for the future, by using this period of 
distinct U.S. advantage to: set us on a path to recover from 
the investment shortfalls in people, morale, infrastructure, 
and equipment so we are able to attract and retain the people 
we need; and invest in future capabilities that will be needed 
if the U.S. is to be able to reassure our allies and friends 
and deter and defeat potential adversaries armed with advanced 
technologies, vastly more lethal weapons, and a range of 
methods of threatening their use.
    While doing so, the U.S. must assure its ability to do 
these following things: First, defend the United States; and 
second, maintain deployed forces forward to reassure our 
friends and allies, to pursue security cooperation, to deter 
conflict and to be capable of defeating the efforts of any 
adversary to achieve its objectives by force or coercion, 
repelling attacks in a number of critical areas, and also be 
capable of conducting a limited number of smaller-scale 
contingencies while assuring the capability to win decisively 
against an adversary threatening U.S. vital interests anywhere 
in the world.
    This approach we think takes account of the following: the 
threat to the U.S. has increased. Terrorist attack, including 
the use of nuclear, chemical, and biological weapons, is 
clearly a growing concern. Cyber attacks are increasing. The 
threat of ballistic and cruise missile attacks is increasing. 
Allied and friendly nations are also at increased risk. A new 
defense strategy would need to take this growing and 
increasingly complex threat into account.
    Within the areas of critical concern to the U.S., the 
threat is evolving as well. Nations are arming themselves with 
a variety of advanced technology systems, from quiet submarines 
armed with high-speed torpedoes and cruise missiles, to air 
defense radars, to satellite jamming capabilities. The 
development and integration of these capabilities are clearly 
designed to counter those military capabilities which provide 
the U.S. with its current military advantage.
    Moreover, warfare is now conducted on shorter time lines. 
Adversaries understand that their success may turn on the 
ability to achieve their objectives before the U.S. and its 
allies and friends can react.
    Given these developments, we believe there is reason to 
explore enhancing the capabilities of our forward-deployed 
forces in different regions to defeat our adversaries' military 
efforts with only minimal reinforcement. We believe this would 
pose a stronger deterrent in peacetime, allow us to tailor 
forces to each region, and provide a capability to engage and 
defeat adversaries' military objectives whenever and wherever 
they might challenge the interests of the U.S., our allies, and 
friends.
    In the end, however, the U.S. must have the capacity to win 
decisively against an adversary. The U.S. must be able to 
impose terms on an adversary that assure regional peace and 
stability, including, if necessary, the occupation of an 
adversary's territory and change of its regime.
    This strategy and approach has been designed to assure that 
we invest in the force for the future, to assure that we have 
the margin of safety that we'll need in the future, while at 
the same time assuring the ability to deal with likely threats 
over the near term.
    Because contending with uncertainty must be a centerpiece 
of U.S. defense planning, this strategy would combine both so-
called threat-based as well as capability-based planning, using 
threat-based planning to address nearer-term threats, while 
turning increasingly to a capabilities-based approach to make 
certain that we develop forces prepared for the longer-term 
threats that are less easily understood.
    Under such an approach, we would work to select, develop, 
and sustain a portfolio of U.S. military capabilities, 
capabilities that could not only help us prevail against 
current threats, but because we possess them, hopefully 
dissuade potential adversaries from developing new capabilities 
themselves.
    Some of the investment options we have discussed include, 
obviously, an investment in: people; experimentation; 
intelligence; space; missile defense; information operations; 
pre-conflict management tools--which are not what they ought to 
be today, in my view; precision strike capability; rapidly 
deployable standing joint forces; unmanned systems; command, 
control, communications, and information management; strategic 
mobility; research and development base; and infrastructure and 
logistics.
    The portfolio of capabilities, in combination with a new 
strategy, could help us meet four important defense policy 
goals. First, to assure our friends and allies that we can 
respond to unexpected dangers and the emergence of new threats, 
and that we will meet our commitments to them, and that it is 
both safe and beneficial to cooperate with the United States.
    Second, to the extent possible, dissuade potential 
adversaries from developing threatening capabilities by 
developing and deploying capabilities that reduce their 
incentive to compete.
    Third, to deter potential adversaries from hostile acts and 
counter coercion against the U.S., its forces, or allies.
    Fourth, should deterrence and dissuasion fail, defend the 
United States, our forces abroad, and our friends and allies 
against any adversary and, if so instructed, decisively win at 
a time, place, and manner of our choosing.
    These are some of the issues we have put in the QDR process 
to examine and test. As the process moves forward, we will 
continue to consult with Congress and expect, by late summer, 
to make some recommendations to the President.
    Let me underscore that we have not decided on a new 
strategy. We are considering and testing this concept, and 
variants of that strategy, against the current one. We will 
continue to consult with you as the QDR process approaches 
completion in September, and we will then come to conclusions 
about the desirability of the possible new defense strategy.
    I must add, however, that the current strategy cannot be 
said to be working because of the shortfalls which I describe, 
so it seems to me we owe it to ourselves to ask the question, 
``What might be better?'' Preparing for the 21st century will 
not require immediately transforming the United States 
military, just a portion, a fraction of the force. As has been 
said, the Blitzkrieg was an enormous success, but it was 
accomplished by only a 10- or 15-percent transformed German 
army.
    Change is difficult, but the greatest threat to our 
position today, I would submit, is complacency. Thankfully, 
Americans no longer wake up each morning and fret about the 
possibility of a thermonuclear exchange with the old Soviet 
Union. The Soviet Union is gone. They look at the world and 
they see peace, prosperity, and opportunity.
    We need the wisdom and sense of history and humility to 
recognize that, while America does have capabilities, we are 
not invulnerable, and that our current situation is not a 
permanent condition. If we do not act now, new threats will 
emerge to surprise us, as they have repeatedly in the past. The 
difference is that today's weapons are vastly more powerful.
    My hope is to work with you, Mr. Chairman, and the members 
of the House and Senate. That is why I am here today to discuss 
these matters. That is why we have undertaken these 
consultations with our allies, and the intensive discussions 
with our senior military leaders, but let us begin with the 
understanding that the task is worth doing. A window of 
opportunity is open, but the world is changing, and unless we 
change we will find ourselves facing new and daunting threats 
we did not expect, and which we will be unprepared to meet.
    Thank you.
    [The prepared statement of Secretary Rumsfeld follows:]
                Prepared Statement by Donald H. Rumsfeld
                              introduction
    Mr. Chairman, thank you for calling this hearing. Since coming into 
office 5 months ago, I have been asking a great many questions and 
discussing a number of key issues regarding how our Armed Forces might 
be best arranged to meet the new security challenges of the 21st 
century. I appreciate the opportunity to report to you on our progress.
    Later this month, I will be available to discuss the 2002 budget 
amendment. But before we get to budgets, I think it would be useful to 
discuss the larger strategic framework, and our efforts to craft a 
defense strategy appropriate to the threats and challenges we will 
surely face in the 21st century.

        <bullet> We have conducted a number of studies, many of which 
        have been briefed to you, including missile defense, space, 
        transformation, conventional forces, and morale and quality of 
        life.
        <bullet> We have just completed a month of consultations with 
        our friends and allies on the new and different security 
        challenges we will face in the 21st century. President Bush has 
        returned from a successful tour of Europe. His trip was 
        preceded by visits to NATO and Western capitals by Secretary 
        Powell, myself, and other administration officials, during 
        which we discussed how best to move beyond the Cold War, and 
        prepare together for the emerging threats we will all face in 
        this new and still dangerous century.

    We have also begun a notable process within the Defense Department. 
Over the past several weeks, the Chairman of the Joint Chiefs of Staff, 
the Vice Chairman, each of the Service Chiefs of Staff, on occasion the 
CINCs, and the few senior civilian officials in the Department who have 
been confirmed, held a series of meetings to discuss U.S. defense 
strategy. We did not include staff, and met daily, 2 to 3 hours at a 
time, often on weekends--for a total of some 20-25 hours--to produce 
detailed strategy guidance for the execution of the congressionally-
mandated Quadrennial Defense Review (QDR).
    That senior group of military and civilian officials has agreed on 
some ideas that could become a new strategy and a force-sizing 
approach. Over the next 6 to 8 weeks, we will test those ideas through 
the QDR process against different scenarios and models, and we will 
discuss our ideas and findings with the members of this committee. By 
later this summer and early fall, we will know whether we have 
something we can confidently recommend to the President, the National 
Security Council, and Congress, and which will help us prepare the 2003 
budget.
                         strategic environment
    In approaching these discussions, we began with the fact that at 
present we are enjoying the benefits of the unprecedented global 
economic expansion--an expansion driven by information technology, 
innovative entrepreneurs, the spread of democracy, free economic 
systems, and the growth of societies that respect individual liberty 
and reward individual initiative.
    But we cannot have a prosperous world unless we first have a 
peaceful world. The security and stability that the U.S. Armed Forces 
provide is the critical underpinning of that peace and prosperity. If 
we cannot defend against aggression, and contribute to stability, we 
put at risk our current favorable circumstance.
    Imagine, for a moment, what might happen if a rogue state 
demonstrated the capability to attack U.S. or European populations with 
nuclear, chemical, or biological weapons of mass destruction? A policy 
of intentional vulnerability by the Western nations could give rogue 
states the power to hold our people hostage to nuclear blackmail--in an 
effort to prevent us from projecting force to stop aggression.
    In the event of a hostile threat by one of these states, we would 
have three unpleasant choices: acquiesce and allow it to invade its 
neighbors (as Iraq invaded Kuwait); oppose the threat and put Western 
population centers at risk; or be forced to take pre-emptive action.
    Intentional vulnerability could make building coalitions against 
aggression next to impossible. At worst, it could lead to a rise in 
isolationism--something that would surely damage economic progress in 
our still dangerous world.
    So if we are to extend this period of peace and prosperity, we need 
to prepare now for the new and different threats we will face in the 
decades ahead--not wait until they fully emerge. Only if we act now 
will we be able to live in peace in that quite different world.
    Our challenge in doing so is complicated by the fact that we cannot 
know precisely who will threaten us in the decades ahead. As I 
discussed with the defense ministers at NATO, the only thing we know 
for certain is that it is unlikely that any of us know what is likely. 
Consider the track record during my lifetime:

        <bullet> I was born in 1932, the Great Depression was underway, 
        and the defense planning assumption of the mid-1930s was ``No 
        war for 10 years.''
        <bullet> By 1939, World War II had begun in Europe, and in 1941 
        the fleet the U.S. constructed to deter war became the first 
        target of a naval war of aggression in the Pacific. Airplanes 
        did not exist at the start of the century, but by World War II, 
        bombers, fighters, transports, and other aircraft had become 
        common military instruments that critically affected the 
        outcome of the war, and, in the Battle of Britain, a nation's 
        fate was decided in the skies.
        <bullet> Soon thereafter, the Atomic Age had shocked the world. 
        By the 1950s our World War II ally, the Soviet Union, had 
        become our Cold War adversary, and, with little warning, we 
        were, to our surprise, at war in Korea.
        <bullet> In the early 1960s few had focused on Vietnam; by the 
        end of the decade the U.S. was embroiled in a long and costly 
        war there.
        <bullet> In the mid-1970s Iran was a key U.S. ally and the 
        regional power; a few years later, Iran was in the throes of 
        anti-Western revolution and the champion of Islamic 
        fundamentalism.
        <bullet> In March 1989, when Vice President Cheney appeared 
        before the U.S. Senate for his confirmation hearings as 
        Secretary of Defense, not one person uttered the word ``Iraq.'' 
        Within a year, he was preparing the U.S. for war in the Persian 
        Gulf.

    That recent history should make us humble. It tells me that the 
world of 2015 will almost certainly be little like that of today and, 
without doubt, notably different from what today's experts are 
confidently forecasting.
    But while it is difficult to know precisely who will threaten us, 
or where, or when in the coming decades, it is less difficult to 
anticipate how we will be threatened. We know, for example, that:

        <bullet> Our open borders and open societies make it easy and 
        inviting for terrorists to strike at our people where they live 
        and work.
        <bullet> Our dependence on computer-based information networks 
        make those networks attractive targets for new forms of cyber-
        attack.
        <bullet> The ease with which potential adversaries can acquire 
        advanced conventional weapons will present us with new 
        challenges in conventional war and force projection, and may 
        give them new capabilities to deny the U.S. access to forward 
        bases.
        <bullet> Our lack of defenses against ballistic missiles 
        creates incentives for missile proliferation which--combined 
        with the development of nuclear, chemical, and particularly 
        biological weapons of mass destruction--could give future 
        adversaries the incentive to try to hold our populations 
        hostage to terror and blackmail.

    There are some important facts which are not debatable: The number 
of countries that are developing nuclear, chemical, and biological 
weapons of mass destruction is growing. The number of ballistic 
missiles on the face of the earth, and the number of countries 
possessing them is growing as well.
    Consider that:

        <bullet> In 1972, the number of countries pursuing biological 
        weapons was unknown; today there are at least 13 we know of, 
        and they are of increasing sophistication and lethality;
        <bullet> In 1972, 10 countries had chemical programs we knew 
        of; today there are 16 (4 countries ended their chemical 
        weapons programs, but 10 more jumped in to replace them);
        <bullet> In 1972, we knew of only 5 countries that had nuclear 
        weapons programs; today we know of 12;
        <bullet> In 1972, we assessed a total of 9 countries as having 
        had ballistic missiles; today we know of 28.
        <bullet> Note that those are only the cases we know of. There 
        are dangerous capabilities being developed at this moment that 
        we do not know about, and may not know about for years, in some 
        cases until after they are deployed. That has been the case in 
        the past, and despite our best efforts, we must understand that 
        it is the case today.

    This proliferation of dangerous technologies is aided by the same 
globalization that is helping to fuel our current prosperity. Just as 
we see growing interdependence within the free world, there is also a 
growing interdependence among the world's rogue states. Those states 
are sharing information, technology, weapons material, and know-how at 
a rapid pace.
    What all this means is that soon, for the first time in history, 
individuals who have no structure around them to serve as a buffer on 
their decision-making will possess nuclear, chemical, and biological 
weapons, and the means to deliver them.
    This presents a very different challenge from that of the Cold War. 
Even in the old Soviet Union, the Secretary General of the Communist 
Party, dictator though he was, had the Politburo to provide some checks 
and balances that might have kept him from using those weapons at his 
whim. What checks and balances are there on Saddam Hussein or Kim Jong 
Il? None that we know of or can influence. No one can be certain how 
they would behave in a crisis, but we know they lack the constraints of 
a democracy.
    We know from experience that they have already demonstrated a 
willingness to use these weapons. Saddam Hussein used gas on his own 
people, fired ballistic missiles against Israel and Saudi Arabia during 
the Gulf War, and has an aggressive nuclear program. Iran has recently 
used ballistic missiles to strike opposition bases in Iraq. So using 
these kinds of weapons does not seem to offend their sensibilities.
    But we must remind ourselves that these weapons do not have to be 
used to alter behavior. The regimes seeking ballistic missiles and 
nuclear, chemical, and biological weapons see them not only as weapons 
to use in war, but as tools of coercion--means by which they can 
intimidate their neighbors and prevent others from projecting force to 
defend against aggression.
    The countries pursuing these technologies are often poor--in the 
case of North Korea, starving--but they are determined. They are taking 
funds that could provide basic sustenance to their people in some 
cases, and improve the quality of life in others, and investing those 
funds in ballistic missile technology and weapons of mass destruction. 
They are doing it for a purpose: because they have decided it is very 
much in their interest, and strengthens their influence in the world. 
They are doing it because they believe that they can use these weapons 
to deter us from acting in ways contrary to their interests.
    That is why they are not constrained by diplomatic efforts to halt 
their programs; they are not constrained by international ``norms'' and 
arms control regimes; and we cannot rely on them being deterred by the 
threat that we would use nuclear retaliation against the people of 
their countries they in effect hold hostage--the Mutually Assured 
Destruction concept that contributed to stability with the Soviet Union 
during the Cold War. These are very different regimes.
    While this trend in proliferation is taking place, we are also 
seeing another trend unfold that has both negative and positive 
aspects: the increasing power, range, and sophistication of advanced 
conventional weapons.
    If harnessed by us, these advanced weapons can help us to extend 
our current peace and security well into the new century. If harnessed 
by our adversaries, however, these technologies could lead to 
unpleasant surprises in the years ahead--and could allow hostile powers 
to undermine our current prosperity and our ability to contribute to 
peace.
    Future adversaries may use these advanced conventional capabilities 
to deny us access to distant theaters of operation. As they gain access 
to a range of new weapons that allow them to expand the ``deadly zone'' 
to include our territory, infrastructure, space assets, population, 
friends, and allies, we may find future conflicts are no longer 
restricted to their region of origin.
    For all these reasons, a new approach to deterrence is needed. We 
are living in a unique period in history, when the Cold War threats 
have receded, but the dangerous new threats of the 21st century have 
not yet fully emerged. We need to take advantage of this period to 
ensure that we are prepared for the challenges we will certainly face 
in the decades ahead.
    The new threats are on the horizon. With the speed of change 
today--where technology is advancing not in decades but in months and 
years--we cannot afford to wait until they have emerged before we 
prepare to meet them.
    After the new threats emerge, this opportunity may not be 
available. The risks of transformation could be much greater then--
perhaps unacceptably so.
                    quadrennial defense review (qdr)
    With this security situation in mind, our team at the Pentagon has 
been working to develop the appropriate defense strategy for the coming 
decades. Our goal was to provide clear strategic guidance and ideas for 
the congressionally-mandated QDR.
    Working with the Chairman of the Joint Chiefs of Staff, the Vice 
Chairman, and the Service Chiefs, we have had extensive discussions and 
worked through some complex issues. We have now provided guidance to 
test some preliminary conclusions over the next 2 months, before making 
any recommendations to the President or Congress.
    As we began our review, I asked the members of our group to think 
about and answer a series questions. These included:

        <bullet> How do we measure and balance the various risks?
        <bullet> How can we best size and organize the force?
        <bullet> What key capabilities does the U.S. currently lack or 
        not have in sufficient maturity that are essential?
        <bullet> What should DOD be doing with respect to homeland 
        defense?
        <bullet> What types of small-scale contingency operations are 
        we likely to face, and how many?
        <bullet> How can readiness measurements be improved?

    One of the key questions before us is whether to keep the two 
nearly-simultaneous Major Theater War (MTW) force-sizing construct.
    I must say at the outset that suggestions that the two nearly-
simultaneous MTW approach has been scrapped are not correct. I am a 
careful person and believe you don't replace what is until you have 
something better--and we do not yet know whether the construct the QDR 
will examine will be better. It will be after the QDR before we will be 
in a position to make a recommendation.
    The two-MTW approach was an innovation at the end of the Cold War. 
It was based on the proposition that the U.S. should prepare for the 
possibility that two regional conflicts could arise at the same time. 
If the U.S. were engaged in a conflict in one theater, an adversary in 
a second theater might try to gain his objectives before the U.S. could 
react. Prudence dictated that the U.S. take this possibility into 
account.
    Based on this proposition, the two-MTW approach served as a basis 
for sizing the force, that is, each of the Services, to include their 
Active and Reserve components. The two-MTW approach identified both 
Southwest Asia and Northeast Asia as areas of high national interest to 
the U.S. In both regions, regimes hostile to the U.S. and its allies 
and friends possessed the capability and had exhibited the intent to 
gain their objectives by the threat or use of force.
    The approach identified the ``force packages'' that would be needed 
for the U.S. to achieve its wartime objectives should two nearly-
simultaneous conflicts erupt. These force packages were based on an 
assessment of the combat capabilities and likely operations of an 
adversary, on the one hand, and the capabilities and doctrine of U.S. 
forces--so recently displayed in Operation Desert Storm--on the other.
    The two-MTW approach served well in that period. It provided a 
guidepost for reshaping and resizing the force from one oriented to a 
global war with a nuclear superpower, to a smaller force focused on 
smaller regional contingencies.
    But when one examines that approach today, several things stand 
out:

        <bullet> First, because we have underfunded and overused our 
        forces, we find we are short a division, we are short of 
        airlift, we have been underfunding aging infrastructure and 
        facilities, we are short on high-demand/low-density assets, the 
        aircraft fleet is aging at considerable and growing cost to 
        maintain, Navy ships are declining in numbers, and we are 
        steadily falling below acceptable readiness standards. I have 
        no doubt that should two nearly-simultaneous conflicts occur 
        that we would prevail in both. But the erosion in the 
        capability of the force means that the risks we would face 
        today and tomorrow are notably higher than they would have been 
        when the two-MTW standard was established.
        <bullet> Second, we have skimped on our people, doing harm to 
        their trust and confidence, as well as to the stability of our 
        force. Without the ability to attract, train, and retain the 
        best men and women, the U.S. Armed Forces will not be able to 
        do their job. We cannot continue to skimp on our people if we 
        are to have a first-class force for the 21st century.
        <bullet> Third, we have underinvested in dealing with future 
        risks. We have failed to invest adequately in the advanced 
        military technologies we will need to meet the emerging threats 
        of the new century. Given the long lead-times in development 
        and deployment of new capabilities, waiting further to invest 
        in 21st century capabilities will pose an unacceptable risk. We 
        are, in essence, risking our future security.
        <bullet> Fourth, we have not addressed the growing 
        institutional risks--the waste, inefficiency, and distrust--
        that result from the way DOD functions, and will over time 
        erode public support to the detriment of our Nation.
        <bullet> Fifth, an approach that prepares for two major wars, 
        by its very nature, focuses military planning on the near-term, 
        to the detriment of preparing for longer-term threats. Because 
        we can't predict threats of the future, we tend not to plan for 
        them. As a result, too much of today's military planning is 
        dominated by what one scholar of Pearl Harbor called ``a 
        poverty of expectations--a routine obsession with a few dangers 
        that may be familiar rather than likely.''

    But the likely dangers of this new century may be quite different 
from the familiar dangers of the past century. A new construct may be 
appropriate to help us plan for the unfamiliar and increasingly likely 
threats we will face in the decades ahead.
    We also know that in the decade since the two-MTW approach was 
fashioned, we have not had two major regional wars--which, of course, 
is good and may well be an indication of the success of the approach. 
On the other hand, we have done a host of other things, such as Haiti, 
Bosnia, Kosovo, non-combatant evacuations, humanitarian missions, etc.
    All of this led our team to the conclusion that we owed it to the 
President and the country to ask the question whether the two nearly-
simultaneous MTW approach remains the best one for the period ahead.
    That said, in deciding how to proceed, we recognized that, if we 
decided to move beyond the two-MTW strategy, we would need to 
substitute something better and not just undertake change for change's 
sake. To those who would tear down what is, falls the responsibility of 
recommending something better.
    So we set in motion a process that has not been tried before. 
Knowing that any change in our approach would unquestionably require 
the military advice and commitment of the Chairman of the Joint Chiefs, 
the Vice Chairman, the Service Chiefs of Staff, and the regional and 
functional CINCs, I asked them to see if we could, together, fashion a 
proposal that we believed might better serve the country than the two-
MTW approach. The QDR process could then test that alternative against 
the two-MTW approach to see whether we believed we had found something 
we might recommend to the President and Congress as a way ahead for the 
future.
    It has been an intensive process. I have learned a great deal. I 
don't suggest that we have yet found something better to recommend. 
What we have found is something that we at least think may be better, 
and we are offering for testing in the QDR process.
    The approach we will test will balance the current risks to the men 
and women in the Armed Forces, the risks to meeting current operational 
requirements, and the risks of failing to invest for the future, by 
using this period of distinct U.S. advantage to:

        <bullet> Set us on a path to recover from the investment 
        shortfalls in people, morale, infrastructure, equipment, 
        optempo, etc., so we are able to attract and retain the talents 
        needed for a modern force;
        <bullet> Invest in the future capabilities that will be 
        critical if the U.S. is to be able to reassure allies and 
        friends, and to deter and defeat potential adversaries armed 
        with advanced technologies, vastly more lethal weapons, and a 
        range of methods of threatening their use.

    While undertaking these overdue investments, the U.S. must assure 
its ability to:

        <bullet> Defend the United States;
        <bullet> Maintain deployed forces forward to reassure friends 
        and allies, to pursue security cooperation, to deter conflict 
        and to be capable of defeating the efforts of any adversary to 
        achieve its objectives by force or coercion, repelling attacks 
        in a number of critical areas, and also be capable of 
        conducting a limited number of smaller-scale contingencies; 
        while
        <bullet> Assuring the capability to win decisively against an 
        adversary threatening U.S. vital interests, anywhere in the 
        world.

    This approach takes account of the following:

        <bullet> The threat to the U.S. has increased. Terrorism and 
        attacks by special operations forces, including the use of 
        nuclear, chemical, and biological weapons, is a growing 
        concern. Cyber-attacks are increasing. The threat of ballistic 
        and cruise missile attack is increasing. Allied and friendly 
        nations are also at increased risk. A new defense strategy 
        would need to take this growing and increasingly complex threat 
        into account, and provide forces to address it.
        <bullet> Within the areas of critical concern to the U.S., the 
        threat is evolving as well. Nations are arming themselves with 
        a variety of advanced technology systems, from quiet submarines 
        armed with high-speed torpedoes and cruise missiles, to air 
        defense radars to satellite jamming capabilities. The 
        development and integration of these capabilities are clearly 
        designed to counter those military capabilities which provide 
        the U.S. its current military advantage.
        <bullet> Moreover, warfare is now conducted on short timelines. 
        Adversaries understand that their success may turn on their 
        ability to achieve their objectives before the U.S., and its 
        allies and friends, can react.
        <bullet> Given these developments, we believe there is reason 
        to explore enhancing the capabilities of our forward deployed 
        forces in different regions to defeat an adversary's military 
        efforts with only minimal reinforcement. We believe this would 
        pose a stronger deterrent in peacetime, allow us to tailor 
        forces for each region and provide capability to engage and 
        defeat adversaries' military objectives wherever and whenever 
        they might challenge the interests of the U.S. and its allies 
        and friends.
        <bullet> In the end, however, the U.S. must have the capacity 
        to win decisively against an adversary. The U.S. must be able 
        to impose terms on an adversary that assure regional peace and 
        stability--including, if necessary, the occupation of an 
        adversary's territory and change of its regime.

    This strategy and approach has been designed to assure that the 
U.S. invests in the force for the future to assure that we have the 
necessary margin of safety needed in the 21st century, while, at the 
same time, assuring the ability to deal with likely threats over the 
nearer term.
    Such a strategy may result in a change in our approach to smaller-
scale contingencies. It could also require some modifications in war 
plans as to timing and war termination goals. A range of options to 
address these issues and consider these questions is the task of the 
QDR.
    Contending with uncertainty must be a centerpiece of U.S. defense 
planning. Because of the uncertainty about the future strategic 
environment, this strategy would combine both ``threat-based'' and 
``capabilities-based'' planning, using ``threat-based'' planning to 
address near-term threats, while turning increasingly to a 
``capabilities-based'' approach to make certain we develop forces 
prepared for the longer-term threats that are less easily understood.
    Under such an approach we would work to select, develop, and 
sustain a portfolio of U.S. military capabilities--capabilities that 
could not only help us prevail against current threats, but, because we 
possess them, dissuade potential adversaries from developing dangerous 
new capabilities.
    Some of the investment options we have discussed include:

        <bullet>  People. No matter how advanced we become 
        technologically, people will always be the backbone of our 
        defense. Smart weapons require smart soldiers;
        <bullet> Experimentation, including the creation of innovative 
        military units;
        <bullet> Intelligence, to provide insight about the intentions 
        of potential adversaries and warning of impending attacks and 
        emerging capabilities;
        <bullet> Space, to provide nearly continuous space-based 
        coverage of critical areas of the world to support both 
        civilian and military decision-makers and operators, and to 
        develop and field capabilities to monitor objects in space and 
        protect U.S. space systems;
        <bullet> Missile Defense, to be able to defend the United 
        States, our friends and allies and forward deployed forces;
        <bullet> Information Operations, which need to be increasingly 
        integrated into operations in peacetime, crisis, and wartime;
        <bullet> Pre-conflict management tools, to mitigate the chance 
        of war by deterring conflict and influencing the choices of 
        decision-makers;
        <bullet> Precision strike, to enable the U.S. to strike targets 
        rapidly, on a global basis, carrying larger payloads of 
        weapons, with a higher-degree of discrimination;
        <bullet> Rapidly Deployable Standing Joint Forces, for forward 
        presence in peacetime and to permit and sustain operations 
        across the spectrum of military missions, including entry into 
        areas where adversaries seek to deny access;
        <bullet> Unmanned systems, including robotic ground, air, sea 
        and space sensors and vehicles;
        <bullet> Command, Control, Communications, and Information 
        Management, to rapidly transmit secure information in support 
        of joint forces;
        <bullet> Strategic mobility, to project U.S. combat power 
        rapidly;
        <bullet> Research and development base, to ensure the U.S. 
        military maintains an asymmetric advantage over adversaries and 
        to hedge against an uncertain future and the potential for 
        surprise; and
        <bullet> Infrastructure and logistics, to ensure DOD has 
        modern, ready and effective installations to support operations 
        and maintenance of U.S. forces.

    The portfolio of capabilities, in combination with a new strategy, 
could help us to meet four defense policy goals:

        <bullet> First, to assure our friends and allies that we can 
        respond to unexpected dangers and the emergence of new threats, 
        that we will meet our commitments to them, that it is both safe 
        and beneficial to cooperate with the United States, and, by the 
        same token, that it is possible to find ways to resist 
        intimidation and blackmail by others;
        <bullet> Second, to the extent possible, dissuade potential 
        adversaries from developing threatening capabilities, by 
        developing and deploying capabilities that reduce their 
        incentives to compete;
        <bullet> Third, deter potential adversaries from hostile acts, 
        and counter coercion against the U.S., its forces, its friends 
        and its allies; and
        <bullet> Fourth, should deterrence and dissuasion fail, defend 
        the United States, our forces abroad, our friends and allies 
        against any adversary, and, if so instructed, decisively defeat 
        an adversary at the time, place, and manner of our choosing.

    These are some of the issues we have put in the QDR process to 
examine and test. As the QDR process moves forward, we will continue to 
consult with Congress, and expect by late this summer to make 
recommendations to the President.
    At that point the President will make some decisions and 
recommendations that may involve balancing some near-term risks in 
order to secure long-term gains. They may involve forgoing certain 
advantages during his presidency, so that his successors--and 
succeeding generations of Americans--will have the new capabilities 
that will be needed to make America more secure in more dangerous 
times.
    We will likely present the President with a range of options. Once 
the President weighs those options, and makes decisions on changes to 
the current strategy, if any, those decisions will inform the 
development of the fiscal year 2003 budget, where decisions on weapons 
systems will have to be addressed in the context of the strategy 
selected. We will present that budget to Congress in January 2002.
    Let me underscore, once again, that we have not yet decided on a 
new strategy. We are considering and testing a different strategy, and 
variants of that strategy, against the current one. We will continue to 
consult with you as the QDR process approaches completion in September, 
and we will then come to conclusions about the desirability of a new 
defense strategy.
    But I must add: the current strategy is not working. So we owe it 
to ourselves to ask the question: what might be better?
    If and when we decide on something better, we then need to figure 
out how we get from where we are to where we need to go. Some of the 
questions we must address include: Do we simply modernize our current 
force to meet current threats? Or do we begin transforming our force 
for future threats? If so, what short-term risks are we willing to run, 
for the long-term gains?
    Preparing for the 21st century will not require immediately 
transforming the entire U.S. military--just a portion. The Blitzkrieg 
was an enormous success, but it was accomplished by only a 13 percent 
transformed German army. In some instances, transformation may not 
require new capabilities at all, but rather new ways of arranging, 
connecting, and using existing capabilities.
                               conclusion
    Change is difficult. Changing the Defense Department is like 
turning a great aircraft carrier--it does not turn on a dime.
    But the greatest threat to our position today is complacency. 
Thankfully, Americans no longer wake up each morning and fret about the 
possibility of a thermonuclear exchange with the old Soviet Union. They 
look at the world and see peace, prosperity, and opportunity ahead of 
them.
    We need the humility to recognize that, while America has 
capabilities, we are not invulnerable--and our current situation is not 
a permanent condition. If we don't act now, new threats will emerge to 
surprise us, as they have so often in the past. The difference is that 
today weapons are vastly more powerful.
    Mr. Chairman, I have spent the past 25 years in business. Any 
successful executive will confirm that the safest and best time for a 
business to adapt is when it is on top--and the most dangerous is to 
wait until an innovative competitor comes along and finds a way to 
attack your position.
    Today America is strong; we face no immediate threat to our 
existence as a Nation or our way of life; we live in an increasingly 
democratic world, where our military power--working in concert with 
friends and allies--helps contribute to peace, stability, and growing 
prosperity. Indeed, it is the underpinning of world economic 
prosperity.
    But simply hanging on and simply doing more of the same could be a 
serious mistake.
    My hope is to work with you, Mr. Chairman, and the members of the 
House and Senate. That is why I am here today to discuss these matters. 
That is why we have undertaken these consultations with our allies, and 
the intensive discussions with our senior military leaders.
    We are not here with all the answers. Getting the strategy right 
will require a dialogue. I look forward to working together with the 
members of this committee to find the right answers.
    But let's begin with the understanding that the task is worth 
doing. A window of opportunity is open to us. But the world is 
changing, and unless we change we will find ourselves facing new and 
daunting threats we did not expect and will be unprepared to meet.
    During the Civil War, a Union General named John Sedgewick stood 
surveying his Confederate adversary across the battlefield. Confident 
of his superior position, he turned to an aide and said, ``They 
couldn't hit an elephant at this distance.'' A moment later, a 
sharpshooter's bullet struck him under his left eye, killing him 
instantly.
    Complacency can kill. Thank you.

    Chairman Levin. Thank you, Mr. Secretary. The Secretary has 
to leave shortly after 11:00. We are going to need to limit 
each member to 5 minutes for questions, so every Senator has an 
opportunity to ask questions.
    I am not going to call on General Shelton to see if he has 
an opening statement, but rather, I am going to call on Senator 
Byrd, who, as Chairman of the Appropriations Committee, has a 
commitment that prevents him from being able to return after 
our vote which has just started, so I would yield to Senator 
Byrd at this time, and then we will recess for 10 minutes.
    Senator Byrd. Thank you, Mr. Chairman, for your courtesy, 
and I thank you, Secretary Rumsfeld, for your statement, and 
thank you, General Shelton, for appearing here today. I would 
say parenthetically that I favor the strategic review. I, of 
course, do not know what the results will be any more than any 
others of us, but the General Accounting Office released a 
report on Monday, June 11 on the Pentagon's use of $1.1 billion 
that was earmarked in the Fiscal Year 1999 Supplemental 
Appropriations Act to address the critical shortage of spare 
parts for the military. The GAO found that 8 percent of that 
money, or $88 million, was used by the Navy to purchase spare 
parts. The remaining 92 percent of the appropriation was 
transferred to the operation and maintenance (O&M) accounts of 
the military Services, and thus became indistinguishable from 
other O&M funds used for activities that include mobilization, 
training, and administration.
    While funds in the O&M accounts can be used to purchase 
spare parts, the GAO report states that the military Services, 
``could not readily provide information to show how the funds 
were used,'' therefore confounding the GAO's attempt to verify 
that the funds were actually used to purchase the spare parts 
that were urgently needed.
    Mr. Secretary, the reason I cannot come back here today is 
because I am chairing a markup of the Appropriations Committee 
on the Fiscal Year 2001 Supplemental Appropriations Bill, and 
so this question comes at a very important time. I find it 
shocking that the Pentagon requested funds to meet an urgent 
need and then is unable to show Congress that it used those 
funds to address the problem.
    While you are not responsible for the Department's use of 
appropriations before you assumed your current position, the 
Fiscal Year 2001 Supplemental Appropriations Bill that was 
submitted to Congress contains $2.9 billion that will go to the 
same O&M accounts that lost track of the $1 billion that was 
appropriated 2 years ago.
    How can Congress, how can my Appropriations Committee, how 
can this committee here have any confidence that these funds 
that are being requested in the Supplemental Appropriations 
Bill which we are marking up today will be used as Congress 
intends them to be?
    Secretary Rumsfeld. Senator Byrd, you know better than most 
anybody that the financial reporting systems of the Department 
of Defense are in disarray. That is to say, they are perfectly 
capable of reporting certain things, but they are not capable 
of providing the kinds of financial management information that 
any large organization would normally have.
    At your suggestion in my confirmation hearing, we had a 
team of people take a look at the financial reporting systems. 
They reported to the new Comptroller, Dr. Dov Zakheim. He has 
begun the process of finding ways to see that the ability to 
track transactions is improved.
    Needless to say, I do not know about the specific instance 
you are describing, but the problem insofar as it has been 
characterized to me is not that the money is necessarily going 
to something other than it should be; it is that the financial 
systems do not enable one to track the transactions 
sufficiently that we can go to Congress and say, in fact, of 
certain knowledge, they went where Congress indicated they 
should go.
    Senator Byrd. Mr. Secretary, I know that you are working on 
this. We have discussed this before in this committee. But here 
we have a request today before the Senate Appropriations 
Committee, and I am the chairman, and I am going to follow 
this, and as I say, you cannot be held accountable for what has 
happened before your watch began, but your watch is beginning.
    DOD has requested, as I say, $2.9 billion to go to the same 
O&M accounts that lost track of the $1 billion that was 
appropriated 2 years ago. If we appropriate that money in the 
appropriations bill which I am reporting out, and I am adding 
language in the committee report to tighten the screws on the 
Defense Department in this respect, what assurance can this 
committee have, and what assurance can the Appropriations 
Committee have, that that money is going to be trackable, and 
that the money that is being asked for spare parts will be used 
for spare parts, and that we can follow the tracks, that the 
GAO can follow those tracks, because, Mr. Secretary, you are 
going to come back next year and want more money. Now, what 
assurance can I have?
    Secretary Rumsfeld. Well, I tend to like to underpromise 
and overdeliver if I can, so I am going to be just brutally 
frank. I am told by the experts that it will take years to get 
the financial systems revised and adjusted to a point where 
they will be able to track in a real-time basis each of the 
transactions that takes place in the Department, so I cannot 
give you an assurance that the financial systems will be fixed 
in 5 minutes, or a year, or 2 years, because the estimates are 
multiple years.
    Senator Byrd. I understand that.
    Secretary Rumsfeld. What I can assure you is that in terms 
of this administration, we will do everything humanly possible 
to be absolutely certain that the instructions are very clear 
as to where funds should be spent, and to the extent there's 
going to be any shifting or reprogramming, that we come to 
Congress under the law and seek appropriate approval.
    Senator Byrd. I have every confidence you are going to do 
that, but specifically now, specifically with respect to the 
spare parts, this is what I am talking about, where $1.1 
billion was earmarked 2 years ago in the Fiscal Year 1999 
Supplemental Appropriations Bill, the GAO found 90 percent of 
those funds were transferred to O&M accounts. What assurance do 
we have that the $2.9 billion that is being requested in 
today's supplemental appropriation is going to be trackable?
    I know you are reviewing the systems, and I have great 
respect for your efforts. I know that is what you intend to do, 
but I am specifically upset because of the earmarking that went 
on here with respect to spare parts. The General Accounting 
Office is not able to track those. Now, what is going to happen 
with the $2.9 billion that I am going to mark up for your 
Department today, or may not? What is going to happen?
    I want some assurance that there will be some way to track 
this item, because I think, Mr. Secretary, you spoke about the 
erosion of confidence by the American people, and you are 
exactly right, but there is going to be an erosion of 
confidence in the Appropriations Committee.
    As I say, I do not expect you to be accountable for 
previous administrations, but we are being asked for $2.9 
billion here, and I want to be responsible to my constituents, 
and I want to hold the Department responsible for this money 
that is being asked for today, or else our confidence is going 
to erode pretty fast.
    Secretary Rumsfeld. I will look into what happened in the 
past and see if it is possible to see if there was some sort of 
a reprogramming authority that was presented to Congress. I 
just simply do not know, and if there was, I will be happy to 
have you briefed as to exactly what took place.
    As to the future, to the extent that we are asking for 
funds for a specific purpose, I can assure you that the money 
will be spent for that purpose or we will come before Congress 
and say the circumstances changed, which happens in life, and 
that we request permission to spend those funds for some other 
purpose, according to the law.
    Senator Byrd. Well, I thank you for that assurance, Mr. 
Secretary. Let me assure you that I am going to be watching 
this. I think it is indefensible not to be able to show the 
General Accounting Office, which is the arm of Congress, what 
happened to this money that we appropriated and earmarked 
specifically for spare parts.
    We are being asked for similar money, as I stated, again, 
and we need to know this problem is going to be taken care of, 
but I understand you to say in this specific area you are going 
to watch that closely, am I correct?
    Secretary Rumsfeld. You are.
    Senator Byrd. I hope, Mr. Secretary, that you will be able 
to do that. I have confidence that you intend to keep that 
promise, and the promise has to be kept, because if I'm still 
living a year from now, and that is up to the Good Lord, and 
the people of West Virginia have already signed my contract for 
5 years, I will be back. You will want more money next year, 
and I do not mean to be pointing my finger at you personally, 
but I will be asking this question. We need for Congress to 
mean it when we say it, and the Department needs to mean it 
when it says it needs that money and will spend that money for 
spare parts.
    I hope, General Shelton, that you will have something to 
say on this, because I have to go answer this roll call.

STATEMENT OF GEN. HENRY H. SHELTON, USA, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Shelton. Thank you, Senator Byrd, and let me say 
that I have not seen the report. However, I certainly agree 
that this is an extremely important issue. I want to have all 
of the facts laid out and make sure we have responded to your 
question in as accurate and timely a manner as we could.
    I also would say that we need to be able to make sure the 
funds that have been allocated are, in fact, accounted for in 
the proper manner.
    The one thing that I do see that indicates that the funds 
went to the intended purpose has been in the readiness rate 
since 1999, where they have--a lot of our readiness rates were 
suffering drastically.
    Senator Byrd. I am not complaining about that. If the O&M 
accounts were suffering, tell us about it, but do not tell us 
that this money will be spent for spare parts when it ends up 
that the General Accounting Office can only track 8 percent of 
the $1.1 billion for spare parts.
    General Shelton. Yes, sir. As you indicated, Senator Byrd, 
in your statement, the funds in the O&M account actually do 
provide for spare parts on a day-to-day basis, and I think that 
the readiness rates we have seen turn around would indicate 
that a large amount of that money went to O&M accounts.
    Senator Byrd. I do not have any question about that at all. 
We can go around and around on the head of a pin all day, but 
this ought not to happen. If Congress is going to be asked for 
money for spare parts, and we earmark it for that purpose, then 
it ought to be used for that purpose, and the Department ought 
to be able to show that it was used for that purpose.
    Now, we are up against a very tight budget here. Our 
domestic needs are being tightened and are not being met, and 
the President's budget for the most part, the supplemental is 
going to be defense, and not one thin dime is being added as 
far as I am concerned in that appropriation bill today, not one 
thin dime is being added to the President's request. I am going 
to do everything I can to help you get that money, but there 
has to be responsibility here. I guarantee you, you are going 
to be asked the question when you come here if you do not 
follow these earmarks for defense, when an agency requests this 
money for spare parts. There has to be better accounting.
    So if the President is going to narrow his budget down to 
where he is going to ask for a 7 percent increase for defense 
spending and less than 4 percent for non-defense, then I want 
the President and the administration to be sure it does its 
bookkeeping right.
    I want to help the Defense Department. I am as interested 
in the security of this country as anybody else, but we have to 
have better accountability, whether it is Democrat or 
Republican, it does not bother me. We are all in this together, 
and I thank you very much.
    Thank you, Mr. Secretary.
    Mr. Warner, I am going to go vote. Did you go vote?
    Senator Warner. Yes, my good friend from my neighboring 
State, I did vote early so that I could carry on here, and 
utilize our time with these two witnesses.
    Senator Byrd. Thank you very much.
    Senator Warner. I thank my colleague, and I welcome, Mr. 
Secretary, the opportunity to visit with you and General 
Shelton again this morning. I apologize I was not here earlier. 
I had a longstanding engagement to address the Mothers Against 
Drunk Driving, and I will tell you, I do not know of any 
organization that is trying harder to remedy a problem which, 
indeed, unfortunately afflicts some of those in uniform 
throughout this country.
    Mr. Secretary, I love military history, as do you, and we 
have talked many times together about days in the past that we 
have shared. I want to read you a quote from one of our great 
heroes who we respect greatly, General Eisenhower. He was asked 
shortly after World War II the following question about 
warfare.
    He was asked about when we might expect another engagement 
of some magnitude right on the heels of World War II, and he 
replied as follows: ``I hope there will be no more warfare. 
But, if and when such a tragedy as war visits us again, it is 
always going to happen under circumstances, at places, and 
under conditions different from those you expect or plan for.''
    You are trying, in my judgment, to do the right thing, and 
that is to make a very intensive review of this Nation's 
strategy, and match it to our current force structure. This may 
lead you to recommend drastic moves to restructure those forces 
to meet future contingencies. Clearly, you are doing so with 
the advice and counsel of the Chairman of the Joint Chiefs of 
Staff, the Service Chiefs, and other military leaders.
    You are embarked on a very courageous mission, my friend. 
We have known each other these many years, beginning with our 
service under a previous administration almost a quarter of a 
century ago. In the 23 years I have been on this committee, and 
I have had the privilege of hearing from and learning from many 
Secretaries of Defense, I think you have tackled the most 
arduous program of any Secretary who I have been privileged to 
know and work with during these years.
    So I wish you luck, and you are going to have my support. I 
think it is proper to address the two-MTW standard, and sizing 
the U.S. military forces has been a vigorous debate for many 
years. I have listened to military experts in and out of 
uniform during these many years, and the underlying predicate 
of that standard has been that it acted as a deterrent 
throughout the world.
    Now that we acknowledge that our force structure is going 
to change, have we lessened that underlying power of deterrence 
that has been projected by the United States for these many 
years?
    Secretary Rumsfeld. Senator Warner, I thank you for your 
generous comment. I would respond to that very important and 
difficult question this way. Sometimes, when people use the 
word deterrence, what comes to mind is mutually assured 
destruction in a narrow sense. That is to say, the ability of 
the United States and the Soviet Union to destroy each other 
through the use of nuclear weapons.
    But, of course, when you use it, you mean something much 
deeper and broader. You are looking at deterrence across the 
spectrum, and there are lots of things that deter. There is no 
question that having the capability to conduct two major 
regional conflicts has had a healthy deterrent effect. However, 
it is also true that investing for the future and developing 
capabilities to deal with emerging threats has a deterrent 
effect, and a deterrent effect in two respects.
    It can have a deterrent effect in persuading people that it 
is not in their interest to use their capabilities against us 
because we have capabilities, and also in some cases it can 
dissuade them from even developing those capabilities, because 
it becomes clear to them that they would be throwing good money 
after bad.
    Second, as we looked at this process, the group, it became 
very clear that there are more than simply operational risks 
and deterrence because of forces. We have been doing a great 
many smaller-scale contingencies, for example, a presence 
around the world that also contributes to deterrence.
    I was given a list from General Shelton. It is called a 
series of vignettes, and there are just a host of things that 
we do besides prepare for two major regional conflicts, and I 
will just zip through them.
    Opposed intervention, humanitarian interventions, peace 
accord implementation, follow-on peace operations, 
interpositional peacekeeping, foreign humanitarian assistance, 
domestic disaster relief, consequence management, no-fly zones, 
maritime intercept operations, counterdrugs, noncombatant 
evacuation, shows of force, and strikes. That is what we have 
been doing, and those things, too, I think in a way contribute 
to deterrence.
    Senator Warner. I think it is the desire of our President, 
and he will implement that, to cut back on the volume of such 
participation.
    I read this morning about Macedonia. I think it is a 
correct decision on behalf of our government to be a partner in 
that. By the way, they applied an entirely new name to that 
type of intervention we are going to have over there. At least, 
I had not seen it before, and so I am just asking again, are we 
not going to cut back on some of those as a matter of policy?
    Secretary Rumsfeld. I think that as a practical matter, 
because we have not been organized and arranged to deal with 
these type of things, they have been stressing the force, and 
possibly General Shelton would want to comment on that. We do 
them, and we do them well, but there has to be a limit to the 
number of things one can do.
    General Shelton. As the Secretary has indicated, Senator 
Warner, I think the most important thing to come out of this 
QDR, and the stage has been set now by the terms of reference 
the Secretary has referred to, is that we get the strategy and 
force structure in balance that we have today. We have too much 
strategy and too little force structure, as the Secretary has 
indicated, through the number of things we have been doing as a 
part of the review.
    Senator Warner. That imbalance has existed for some period 
of time, has it not?
    General Shelton. It has been for some period of time, but 
it has gotten, in many cases, progressive. As you recall, back 
in 1997 when we started the downsizing of the force, out of the 
1997 QDR, which is where our shape, respond, and prepare 
strategy came from, the force as it started coming down, 
certain elements of that force in particular started moving 
into the category of low density/high demand types of force 
structure.
    We have more of that now than we had back in 1997, for 
sure, some 32 types of units, or capabilities, and so part of 
the Quadrennial Defense Review is going to be to be sure we 
have the balance back, that we have a strategy that can be 
carried out by whatever force structure it is we decide that we 
want, and an iterative process that makes sure that when we 
decide what our strategy should be for the future, as the 
Secretary has talked about, that we have the force structure in 
balance.
    Senator Warner. In my time in working with the Chiefs, I 
found a reluctance in years past to acknowledge what this 
Secretary and President are bringing to the forefront, that 
mismatch, and not only acknowledge it, but put it in as a 
reality and enunciation of a new strategy by this country.
    Now, walk us through the discussions in the ``tank'' on 
this issue, because it has been my recollection that the tank, 
and I use that term respectfully, has vigorously adhered to 
keeping the prior public enunciation of our capabilities, even 
though there was a mismatch. What changed this time among the 
Chiefs to now support the Secretary's change?
    General Shelton. Well, I think, Senator Warner, that we may 
be getting the cart in front of the horse a little bit, in that 
the terms of reference as they are laid out right now have 
within the terms certain types of military capabilities that 
this Nation would need to have.
    Senator Warner. Need to have? That they do not have now, 
but must get?
    General Shelton. Or that we have a capability that we want 
to try to preserve as a part of the future, for the future. 
That will emerge from the Quadrennial Defense Review as the 
strategy and, as the Secretary said, something he would come 
back to you on. As a part of that strategy, we need to make 
sure, as part of the QDR, that we look at the types of 
structure we have, and that we can carry it out.
    Let me give you one example. As we have talked about before 
with this committee, our major theater war capabilities are 
really only for one theater in the area of strategic lift. We 
can move forces into one area, but in order to fight in a 
second one, we also have to have the capability to swing forces 
back in the other direction.
    How much force structure you have to have ultimately can be 
determined by what you envision as the end state in either one 
of those two regions, and therefore that will determine the 
amount of risk you have with your force in order to be able to 
do more than one thing at one time.
    For example, if you just wanted, as we were able to do, or 
as we did in Operation Desert Storm, to restore the Kuwaiti 
border, that takes one set of forces. If you want to be able to 
defend in place on the Kuwaiti border, that is another set. If 
you want to go beyond that, it gets to be substantially more.
    Senator Warner. General, I'll go to a second question now. 
Let us talk a little bit about missile defense, Mr. Secretary. 
I think our President, together with your support, has taken 
the right initiatives to explore technologies, a range of 
technologies beyond what the previous Presidents have explored, 
staying within the parameters of the ABM Treaty.
    I think our President is personally undertaking, in his 
last visit to Europe, as well as prior trips with emissaries 
from the Departments of State and Defense, to consult with our 
allies to lay a foundation for eventual negotiations with 
Russia. Hopefully that will enable us to devise a new 
framework, whether it is amendments to the ABM Treaty, or an 
entirely new framework. Then we can move ahead with a wider 
range of technologies to provide for missile defense, which I 
believe and the President believes is essential to this 
country.
    Now we are at the juncture where you are going to send up 
the specifics of the fiscal year 2002 budget amendment. In my 
judgment, we cannot get out ahead in any way of the existing 
terms of the ABM Treaty until the President has successfully 
worked out amendments and a new framework with Russia.
    Could you advise us as to how the fiscal year 2002 budget 
amendment is going to address the President's initiatives to 
expand the type of system to address missile defense, and at 
the same time have Congress act on the amended budget? In my 
view we will act on it before finalization in all probability 
of the negotiations between our government and Russia.
    Secretary Rumsfeld. Yes, sir. The President, in his visit 
to Europe and his meeting with Russian President Putin, 
indicated that the ABM Treaty in its present form restricts the 
kind of research and development that he believes is desirable 
and appropriate for this country if we are to avoid a situation 
where the Saddam Husseins or Kim Jong-Ils of the world can hold 
our population centers hostage.
    What the 2002 budget will have is some money for missile 
defense research, development, and testing. It is not clear 
which piece of those various research projects will move 
forward at what pace. There are legal disagreements among the 
lawyers as to what extent the treaty constrains certain types 
of things. I am not a lawyer. My attitude about it is, we need 
to get with the Russians and let them know we plan to establish 
a new framework with them. We need to move beyond the treaty, 
and we need to be free to perform certain kinds of research and 
development activities.
    The President told President Putin that, and he asked 
Secretary Powell and the foreign minister of Russia, and he 
asked me and the defense minister of Russia, to begin meetings 
to discuss this, and get up on the table the elements of a 
conceivable new framework. We are in the very beginning stages 
of that.
    Senator Warner. It seems to me we have to go ahead and act 
on the fiscal year 2002 budget amendment within the parameters 
of the Missile Defense Act of 1999, which is the controlling 
law, and in all probability the progress that this 
administration will hopefully make on a new framework can only 
be addressed in the 2003 budget.
    Secretary Rumsfeld. No. I would think the 2002 budget, with 
its portion for missile defense, ought not to be a problem in 
that regard, and that it could be acted on by Congress with the 
understanding that we are in discussions, which is the second 
part of the Missile Defense Act, as I recall. We are in 
discussions with the Russians about how we can establish a 
different framework and free ourselves of unnecessary 
restrictions with respect to the testing issues.
    Senator Warner. My time is up. I would ask that my opening 
statement be included in the record at this time.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Mr. Chairman, and thank you for holding this important 
hearing on the Bush administration's evolving national defense 
strategy.
    This is clearly a critical juncture in our military history, and in 
the history of our Nation. We all accept that the United States has 
assumed a unique leadership role in the world today, especially in the 
realm of international security. If democracy and market-based 
prosperity are to flourish and expand, international security is the 
essential foundation. Likewise, here at home, we must have a strong 
sense of security, especially against the proliferation of weapons of 
mass destruction.
    Striking the proper balance between existing military capabilities 
to meet current threats and concerns, while simultaneously weighing 
future threats and planning the future configuration of forces and 
equipment is a challenge. I am reminded of Dwight D. Eisenhower's 
sobering admonition: ``I hope there will be no more warfare. But, if 
and when such a tragedy as war visits us again, it is always going to 
happen under circumstances, at places, and under conditions different 
from those you expect or plan for.''
    The monolithic threat posed by the Soviet Union during the Cold War 
years has changed profoundly, replaced by diffuse threats from an 
increasingly interdependent, but fractious global community of nations. 
We do not know from where the next challenge to our freedom, security, 
and vital national interests will come, but of one thing we can be 
sure--it will come, and we must be ready.
    The primary purpose of U.S. military forces is to have the 
demonstrated capability and readiness to deter war--and, if deterrence 
fails, to fight and win decisively--both now, and in the future.
    Because we cannot predict with certainty where, when, and with whom 
we will have to fight, and we want first and foremost to deter, we must 
have balanced land, sea, and aerospace forces that are characterized by 
exceptional lethality, precision, flexibility, and versatility. 
Lethality and precision will increase as our technology matures. 
Flexibility and versatility require robust, balanced forces capable of 
responding to anticipated contingencies; forces that can quickly adapt 
to unanticipated contingencies, and provide the Nation a hedge against 
uncertainty--both now and in the future.
    There is general consensus our extensive intelligence, 
surveillance, and reconnaissance capabilities need to improve 
considerably to cope with the challenges of this complex, 
interconnected new world. Even with improvements, however, our 
intelligence will never be perfect and we must not allow necessary 
investments here to give us a false sense of security--we have been 
surprised before and we will be surprised again--at a time and place we 
will not be able to choose or predict. We must have the robust, 
balanced, versatile forces to respond--now, or 15 years from now.
    My conversations with military leaders around the world indicate 
that the foundation for success in military missions short of war, such 
as peacekeeping, engagement activities, and small-scale contingencies, 
is disciplined, well-trained forces, ready to prevail in the most 
intense type of war--both now, because it will happen unexpectedly, and 
in the future.
    To you, Mr. Secretary and to you, General Shelton, falls the 
important and often thankless task of assessing the international 
security environment, crafting an appropriate defense strategy, and 
making recommendations about the capabilities and forces necessary to 
execute that strategy. We all recognize it is a simple concept, but an 
exceptionally difficult task. Too often, past strategy reviews have 
focused on what we think we can afford, as opposed to a thorough 
assessment of what we need to ensure our broad national security 
objectives.
    Mr. Secretary, I commend you for the prudent, thorough process you 
have undertaken to review our defense strategy and key functional 
components of the Department, in preparation for the Quadrennial 
Defense Review (QDR). Clearly, this QDR requires strategic guidelines 
to focus the efforts of the military departments, the Joint Staff, and 
the defense agencies.
    Today, we look forward to hearing your preliminary conclusions from 
this review process and your vision of a defense strategy for our Armed 
Forces that meets the needs of our Nation and balances our strong, 
enduring ties to Europe, our growing interaction with Asia and the 
Pacific Rim nations, and our global commitment to democracy, 
unencumbered trade, and human dignity.
    The framers of our Constitution anticipated the future needs of our 
Nation well, establishing interdependent branches of government to 
ensure thorough discussion and debate of matters of high national 
interest, such as our National Security Strategy and our military 
strategy. I genuinely look forward to the dialogue, discussion, and 
debate ahead as we craft a defense plan that will realistically address 
our defense needs--both now, and in the future. Clearly, we must 
prepare now for the future, but not at the expense of thorough 
readiness and vigilance, today.
    The world continues to abound with tyrants and lawless elements 
that threaten international security and, increasingly, our own shores. 
It is imperative that we have sufficient forces and the right 
capabilities that will allow us to maintain our international 
leadership commitments, deter aggressors, and decisively defeat those 
who doubt our resolve.
    I thank you both for your extraordinary service to your Nation, and 
for your testimony today. I cannot overstate the importance of this 
process we begin today--a collective effort to size, organize, train, 
and equip the types of forces our Nation deserves and our leadership 
role in the world demands--now, and in the future.
    Thank you.

    Chairman Levin. I gave Senator Warner some additional time 
because he did not have an opening statement as Ranking Member, 
but I did announce we are going to have to abide by a 5-minute 
rule, because the Secretary has to leave a few minutes after 
11:00.
    On the missile defense issue which Senator Warner just 
raised with you, I want to be very clear here on what you are 
telling us, because I think it is the same thing that General 
Kadish told us last week, but I want to be doubly sure of it, 
because this is really an important issue.
    What General Kadish, the Director of the Ballistic Missile 
Defense Organization, told us is, relative to the program that 
he is going to recommend for this year, and his assessment of 
the various parts of the National Missile Defense program, was 
that if all of his recommendations for missile defense are 
adopted and implemented for 2002, that there would be no 
violation of the ABM Treaty because of those actions. Is that 
your understanding?
    Secretary Rumsfeld. I have not heard him say that, nor has 
he briefed that to me.
    Chairman Levin. Do you have any understanding on that 
issue?
    Secretary Rumsfeld. No, I do not. My understanding is 
exactly what I said to Senator Warner.
    Chairman Levin. Which does not relate, then, to the issue I 
just raised?
    Secretary Rumsfeld. If General Kadish is the General who is 
in charge of the program, and he is fashioning and developing a 
new research and development approach to missile defense to 
test and evaluate different approaches that have not been 
considered previously, if he says he sees nothing in the 
immediate future that is going to be a problem with respect to 
the treaty, that is the kind of information I then would take 
to the lawyers, who know an awful lot more about the treaty 
than I do, and I suspect even more than General Kadish.
    Chairman Levin. I think he has already taken that to the 
lawyers.
    Secretary Rumsfeld. I would have to get advice and counsel 
on that. I do not think the 2002 budget is a problem.
    Chairman Levin. In that regard?
    Secretary Rumsfeld. In that regard. What I think is, we 
need to be moving ahead with the research and development 
necessary to understand what we are going to be capable of 
doing to deploy a limited missile defense system, as Senator 
Warner said. Simultaneously we need to be working with the 
Russians and establishing a framework that will get us beyond a 
treaty that is against missile defenses.
    Chairman Levin. The key issue here, though, is that it is 
possible, even pursuing your approach, that there is no 
conflict, at least for a year between those two paths. That is 
why Senator Warner said 2003, and I thought you were answering 
Senator Warner.
    I just want to be clear on this. General Kadish says there 
is no conflict in 2002 with his recommendations, following the 
advice of lawyers. You do not yet have that analysis, and that 
is your answer?
    Secretary Rumsfeld. That is correct.
    Chairman Levin. Now, after the summit meeting, President 
Putin indicated that if the United States proceeded 
unilaterally to deploy a national missile defense system, 
Russia would eventually add multiple warheads to its ICBMs, 
something which we worked very hard to eliminate in the START 
II Treaty.
    Do you believe that if that occurred, if Russia, in 
response to a unilateral decision on our part to move out of 
the ABM Treaty said, well then, we are going to place multiple 
warheads on those missiles, do you believe that would be 
something that would not be good for our national interest?
    Secretary Rumsfeld. Mr. Chairman, it seems to me that 
President Putin and various Russian officials have said a lot 
of things.
    Chairman Levin. Assuming what he said is true, do you think 
that is in our national interest, that they MIRV, that is, 
place multiple warheads on their missiles?
    Secretary Rumsfeld. Could I walk into that with a preface? 
They have said a lot of things, and it is part of this 
negotiation process. Where they will end up, I do not know.
    I think it is a mistake to take out a single element like 
that in isolation and examine it, and say it is good, bad, or 
indifferent. The reason I feel that way is because if they 
simultaneously did something else, that is to say, reduce 
substantially other warheads, and ended up feeling it was more 
efficient or cost-efficient to do that, and the net aggregate 
number was lower, one might say, is that bad? I do not know. I 
would have to look at the total picture of it. I think anyone 
looking at it would have to answer your question that way.
    I would add that the whole construct is a Cold War 
construct. The Cold War is over. Those treaties were between 
two hostile nations.
    Chairman Levin. But it is still in our interest they reduce 
the number of nuclear warheads, is it not?
    Secretary Rumsfeld. That I can say.
    Chairman Levin. It is still in our interest that they not 
MIRV their missiles, generally?
    Secretary Rumsfeld. The reduction in the total number of 
warheads, what the mix might be is a separate issue, but on the 
total number, I would agree with you.
    Chairman Levin. Is it relevant to us what the response 
would be to a unilateral withdrawal from the ABM Treaty on our 
part? Is it at least relevant to us to consider what the 
Russian response would be?
    Secretary Rumsfeld. Well, that is why these discussions and 
negotiations and meetings have been taking place.
    Chairman Levin. Would you agree it is possible at least 
that they could respond in a way to a unilateral withdrawal 
which would not be in our interest? That would make us less 
secure. Is that at least a possibility worth considering?
    Secretary Rumsfeld. I think every possibility is worth 
considering, Senator, but I do not yet understand what it means 
when I read that someone says that a treaty that is 30 years 
old and prohibits missile defense, is the centerpiece of an 
entire fabric of arrangements from the Cold War between two 
hostile states in the year 2001. The Cold War is over. We are 
not hostile states.
    They are going to be reducing their nuclear weapons 
regardless of what we do. We are going to be reducing our 
nuclear weapons to some level regardless of what they do, and 
it just seems to me that we still have our heads wrapped around 
the Cold War language and rhetoric, and it is a mistake.
    Chairman Levin. I think it would be useful for you at least 
to attempt to understand why the response is that way, whether 
you agree with it or not.
    Secretary Rumsfeld. Absolutely, and we will in those 
discussions.
    Chairman Levin. Very good.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. Mr. Secretary, I 
appreciate very much your commitment to reviewing carefully our 
entire defense strategy to ask where we are, what the threat is 
today, and what it will likely be tomorrow and in the years to 
come. It is time for us to do that.
    I know that it makes everyone nervous. I know those in 
industry, the Defense Department, and committees of Congress, 
all of which have special fiefdoms and interests, get very 
nervous, but it is time to do that. I hope to be able to 
support you.
    Perhaps I will not agree with everything that you and the 
President suggest, but I hope to be able to support that, and I 
do affirm that you are on the right course. It makes me feel 
particularly good to know that when you come here and ask for a 
policy for the next decade, that you have thought it through, 
you have sought the advice from the best people you can get, 
and given it an extensive review.
    If this had been a short, cursory review, I could not have 
the same confidence that I expect to have in your conclusions 
in the future, and I do think it is time for us to change.
    War is unfortunately always just around the corner. It is 
always a potential threat for us, and we have to think about 
where we will fight in the future.
    You talked a good bit about missile defense. You chaired 
the commission on that, the bipartisan commission that 
unanimously recommended that we move forward to deploy a 
national missile defense system, and we have made extraordinary 
progress. The PAC-3, the Patriot missiles, are exceedingly 
effective, and I do not think anyone denies that they can 
achieve direct-hit collision, and destroy incoming missiles.
    The Theater High Altitude Area Defense (THAAD) is proving 
its worth in national missile defense. I am confident it is 
just a matter of moving forward and bringing forth this 
technology that we now have into a practical combination of 
programs to make it work, and so I salute you for that.
    It has been said recently, actually in a meeting we had 
yesterday with the NATO Secretary General, that you have said 
you would deploy a national missile defense system even if it 
would not work. Is that your position?
    Secretary Rumsfeld. Well, Senator, first, thank you for 
those words. You are right, change is hard, and any time people 
ask tough questions people get nervous, and there is no 
question but there is a stir as a result of the questions we 
have been asking.
    The care that has gone into this process has been 
extensive, and as Senator Warner made the reference, to my 
proposal, implying it is mine, it is not. I had no proposal. We 
spent dozens of hours with the Chiefs and with the Chairman and 
with the senior civilian officials, and the product that has 
come out is not the brain-child of any one person. I am sure 
you would agree with that, General Shelton.
    General Shelton. Yes, sir.
    Secretary Rumsfeld. It is a product that is still in its 
formative stage, and certainly I would not want to suggest for 
a minute that it came out of my head. Deploying missile defense 
if it does not work, and I am glad you asked it, it is a 
wonderful question, and you are quite right, I have been badly 
quoted on that.
    The reason I said that was that I was asked a question as 
to, can you imagine a circumstance where you would deploy 
something that had not been fully tested, not that it would not 
work, but it had not been fully tested, and the answer was yes.
    The United States has been doing that for a long time, and 
certainly in the Gulf War the General could give you an example 
of a developmental program that was in its early stages, and 
was seized from that developmental program, brought into the 
theater, used very effectively on behalf of the country, not 
tested, not deployed, but used.
    So I would say two things, yes, it is perfectly proper to 
use in a conflict, in an unusual circumstance, developmental 
programs that have not been fully tested, that have not reached 
all their milestones, that have not reached their so-called 
initial operating capability date.
    Second, I have been asked the question, would you deploy 
something that does not work in a different sense, that it may 
not work all the time, and what good would that be, and I have 
said, of course I would be delighted to deploy something. I 
mean, that is like saying if your car does not work all the 
time, you do not want it, you want to walk. We do not have a 
weapons system that works all the time. I do not know of one. I 
do not think there is one.
    Indeed, the dumb weapons have a very small percentage of 
actually working, the ones that you hook in, let go, and go for 
something, the total number of times they achieve that is a 
relatively small fraction. The smart ones are still not up at 
100 percent, likely not up in the 1990s.
    Now, it varies from weapon to weapon, but the idea that you 
cannot do something until it is perfect would mean that we 
would not have any weapon system on the face of the earth.
    Senator Sessions. Thank you. Well said, and I agree with 
that. I would just say, with regard to the Russians, it seems 
to me exceedingly unwise for us to bind ourselves irrevocably 
to a treaty that lawyers tell me is not binding on us, strictly 
as a legal matter, with a nation that no longer exists. To just 
absolutely bind ourselves to that, would it make it more 
difficult for us to negotiate a new relationship with the 
Russians, if we took the position that we are just absolutely 
never going to violate this treaty, when even within its own 
corners it allows us to violate it with notice?
    Secretary Rumsfeld. Yes. I think the minute you enter into 
a set of discussions, and you preemptively give the other side 
a veto over the outcome, you have disadvantaged yourself 
enormously.
    The President, of course, did not give the Russians a veto 
in his meetings. He pointed out properly that Russia would not 
have a veto on, for example, NATO enlargement, nor would they 
have a veto on this, because the treaty permits a 6-month 
notification and withdrawal from the treaty. What the President 
said was, not that the Russians would have a veto, or anyone 
would have a veto, but rather that he wants to enter into 
discussions so they can establish a new framework and get 
beyond the treaty, because the treaty is inhibiting and 
preventing the United States from protecting its population.
    Senator Sessions. I think it is very critical that this 
Congress does not place a veto on the President in this matter. 
I thank you for your leadership on this very important matter.
    Secretary Rumsfeld. Thank you, sir.
    Chairman Levin. Let me read the order of recognition: on 
the Democratic side, Senators Reed, Bill Nelson, Landrieu, Ben 
Nelson, Akaka, Cleland, Lieberman, and Dayton. On the 
Republican side, Senator Thurmond was here, and next would be 
Senators Smith, Allard, Collins, Bunning, and Roberts.
    Senator Roberts. I could be Senator Thurmond if you wanted 
me to. [Laughter.]
    Chairman Levin. No comment. [Laughter.]
    Senator Lieberman. Mr. Chairman, may I say I am privileged 
to know Strom Thurmond and Senator Roberts. [Laughter.]
    Senator Sessions. They went to high school together. 
[Laughter.]
    Chairman Levin. Let's see, there are at least 10 of us 
here, and we have about 50 minutes, so we just have to abide by 
the 5-minute rule, and we will now call upon Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you, Mr. Secretary, for your testimony. I listened to your 
testimony, and you have laid out a daunting set of challenges 
for the Department of Defense, and I think everyone would also 
conclude, a very expensive set of challenges for the Department 
of Defense. One of the issues I find somewhat disturbing is the 
10-year budget forwarded by the President and adopted by 
Congress ignores, essentially, the cost of facing those 
challenges.
    Unless you are proposing to do all the things you want to 
do with very minimal increases in the current defense budget, 
the money has not been included in the budget. In fact, what 
has been included, as we all know, is a significant tax 
reduction, and now we are facing issues of real national 
security concern with diminished resources, and frankly, 
without the limited budget plan with appropriate attention to 
those challenges, so I wonder, what are you going to do?
    Secretary Rumsfeld. Senator, let me say three things, and I 
will try to be brief. I recognize the time constraint. First, 
the 2001 supplemental is up before Congress. The 2002 amended 
budget should be coming up very soon. There is no question but 
that there is a tension between demands for various types of 
programs, including defense. We are going to have to make 
tradeoffs between current capability, investing for the future, 
and investing in people.
    I will also add that I think we are going to have to come 
to Congress and ask for some freedom to manage. That is, some 
relief from some of the restrictions, inhibitions, and 
restraints that cost money, that make managing that Department 
considerably more difficult. I am convinced we could find 
savings in the Department if we are given the ability to save 
the money, so it is going to be a combination of the tension 
between the other various things that exist, plus finding 
savings, and plus getting an increase, and plus making 
tradeoffs between the present and the future.
    Senator Reed. As someone who has been a long-time observer 
and participant, you have pretty good instincts. How much do 
you think you can save, and how much extra do you think you 
will need to do what you have described in general concepts 
today?
    Secretary Rumsfeld. I am not in a position to answer that 
question. I think I will be able to answer it during this year. 
I have said this in the committee before, we do not know the 
answer to this. I cannot prove it, but every expert who has 
looked at the base structure says it is 25 percent too big. If 
we had the ability to make some adjustments in the base 
structure, there is no question that over a period of time, not 
immediately but over a period of time, we could save some 
money.
    We have a large number of things that we are doing inside 
the Department of Defense inefficiently that could be moved out 
to the commercial sector and privatized. I know that, the three 
Service Secretaries know that, and we are determined to do 
that.
    There are some other things that can be done. As everyone 
on this committee knows, some important steps have been made in 
privatizing housing, for example, and using leverage, getting 
many more units than you would get if you just bought them 
dollar for dollar.
    The same thing is true, conceivably, with respect to 
forward funding on shipbuilding. There are a range of things we 
are examining, and we will be coming before the committee, and 
hopefully we will be able to quantify it later.
    Senator Reed. Mr. Secretary, I appreciate that, and frankly 
I think given your expertise as a manager you will probably 
bring out every type of savings conceivable in the Department, 
but my suspicion also is that you will be coming up here and 
asking over a 5-year plan for hundreds of billions of dollars 
that have not been provided for within the context of the 
budget. That will be a serious issue.
    I recognize, as you do, that we do not want to launch into 
major decisions without careful review. The needs of the 
Department of Defense of that magnitude are not a surprise to 
anyone on this committee, and I think even in Washington, and 
so I am a little bit troubled and disturbed by that.
    Mr. Secretary, in your testimony, where you make a 
behavioral assumption about the bad old Soviet Union and the 
equally bad, or even worse, present threats, where you say, 
quite definitively, that there are differences between the 
Soviet Union and say, for example, North Korea, and growing up 
in the 1950s and 1960s, I do not think anyone slacked off in 
criticizing the dictatorial nature of the obsession with the 
Soviet Union for expansion.
    What has happened? I mean, why are we now more disturbed 
about North Korea than you seem to imply we were back in the 
1950s, 1960s, and 1970s?
    Secretary Rumsfeld. I did not mean to suggest that. There 
is no question but that the Cold War was an enormously 
difficult period, a very tense period. The standoff was a 
dangerous one, both from the standpoint of nuclear conflict and 
conventional conflict, and the expansionism in the Soviet Union 
was real and active throughout the world on multiple 
continents.
    The difference I tried to draw is that mutually assured 
destruction, when you are dealing with the Soviet Union of old, 
is different than I think mutually assured destruction is when 
you are dealing with a Kim Jong-Il or a Saddam Hussein. To the 
extent they have very powerful weapons, they do not have 
governments, they do not have inhibitions and restraints on 
them. They have vastly more personal and individual ability to 
act at their own whim and determination, and do it repeatedly.
    They do things we consider totally outside the scope of 
human behavior with respect to their own people. They have used 
gas on their own people in Iraq. We know that. We know that in 
North Korea they are perfectly willing to starve their 
population to feed their war machine. That was my point, and 
not that in either case they were nice people.
    Senator Reed. I do not think you made that point, but we 
are basing some significant policy judgments about behavioral 
perceptions, and I think we may have to do a little bit more 
work on those behavioral perceptions.
    Chairman Levin. We are going to have to move on.
    Senator Smith.
    Senator Smith. Thank you very much, Mr. Chairman. Good 
morning, Mr. Secretary, General Shelton.
    Mr. Secretary, I would just like to pick up for a moment on 
what Senator Sessions was talking about, and commend you for 
the task you are undertaking with a complete review of the 
Defense Department.
    It is a huge bureaucracy. Some would call it, perhaps, 
Byzantine in nature, but its task really is the most important 
function our government has, which is to defend our country. 
Frankly I do not think you have been praised enough for trying 
to ensure the dollars are spent wisely, that our military 
policies are coherent, and answerable to the taxpayers. I think 
you understand that you have to ensure that our military can 
meet any threat posed by another nation.
    So I hope that those of us in Congress, even those who 
disagree from time to time on certain aspects of it, will help 
you rather than impede or belittle what you are trying to do. I 
must say, as I think Senator Sessions alluded to, it is 
frustrating for us all not to know what is going on in the 
Department of Defense. We are not getting any ``leaks,'' but 
that is a compliment to you and your staff. I hope you can keep 
those people on board because they are doing a good job for 
you.
    I think there are those who are going to really go after 
you on missile defense, and you can defend yourself without me 
doing it for you, but I believe with all my heart, when the 
books are written and we look back on this era 20, 30, 40 years 
from now, or maybe even less, you are going to be vindicated.
    Missile defense needs to be tested; we test for cancer. We 
have not found a cure for it yet. We have not stopped testing, 
nor should we. So I believe fervently that missile defense will 
work. I think you are going to be proven correct, and so I 
would encourage you to stay the course.
    I have one question on space, which I know is a great 
interest of yours. On the creation of the position of Under 
Secretary of Defense for Space, Information, and Intelligence, 
have you determined when you might name a nominee, or do you 
plan to name a nominee in the near future for that position?
    Secretary Rumsfeld. The current position is Assistant 
Secretary for C\3\I, and we have interviewed a number of 
people, and the President has not yet made an announcement with 
respect to a nomination, but we certainly recognize the 
importance of the issue.
    As to whether that ought to be an Assistant Secretary or an 
Under Secretary, of course, was a subject we have talked about, 
and it was a matter for the Space Commission to address. The 
Space Commission, which I chaired, recommended an Under 
Secretary, and that recommendation was made to the Secretary of 
Defense, and I was then the Secretary of Defense, and I have 
thus far decided not to make it an Under Secretary position, so 
I am fighting with myself.
    I am struggling. I think the importance of space merits an 
Under Secretary. On the other hand, I am just darned reluctant 
to come to Congress and say we need more higher grades and more 
superstructure. I want to find ways to reduce the 
superstructure.
    Senator Smith. Thank you.
    Chairman Levin. Thank you.
    Senator Bill Nelson.
    Senator Bill Nelson. Mr. Secretary, you have a tough job. I 
think you are doing a good job, and I have some very specific 
questions, questions that I asked your colleague, Secretary 
Powell, yesterday in the Foreign Relations Committee, on which 
he deferred to you. [Laughter.]
    Secretary Rumsfeld. I may refer some back to him. 
[Laughter.]
    Senator Bill Nelson. In the various stages of a launched 
missile, which is really a rocket, as we go about testing 
different systems, I question whether or not the testing is in 
fact an abrogation of the ABM Treaty, so let's take, for 
example, what you refer to as terminal phase, what I would call 
the descent phase. Is the testing of the present system that we 
have, where we are launching from California to Kwajelein 
Island, is the continuation of that testing an abrogation of 
the ABM Treaty?
    Secretary Rumsfeld. I am so old-fashioned, I am reluctant 
to talk about things about which I lack reasonable knowledge 
and certainty of.
    First of all, as I say, I am not a lawyer. The treaty is 
complex. There are debates on all sides as to what it means. 
There are people who are strict constructionists, and think 
they should stay tight with it. There are a lot of people who 
think that you should move out and reach to its limits.
    I am straightforward. I would like to get the Russians to 
say, look, come on, we have to test, and we do not want to have 
someone accuse us of breaking the treaty, and let us not get 
into a lawyer's argument about the thing.
    I am told that the program the Clinton administration was 
on, which is part of what you are referring to, I believe, 
would have required an amendment or some relief with respect to 
the treaty.
    Senator Bill Nelson. I am not referring to the Clinton 
program. I am referring to the testing that we have underway, 
in this particular case the kinetic energy test, and I do not 
see that it is a violation. Secretary Powell could not say that 
it was a violation. He deferred it to you, and yet we hear this 
mantra coming out of the administration about how we have to 
change the ABM Treaty.
    Secretary Rumsfeld. I see the distinction. I am sure that 
if the current testing plan were to violate the treaty, then I 
would have been told, because we would want to have discussed 
it with the Russians, and to the extent necessary we would want 
to have advised them at least 6 months in advance, and no one 
could say we had done anything wrong.
    Now, the mantra coming out of the administration is this. 
We do not know what the best approach to missile defense will 
be. We suspect that the treaty is restrictive on testing 
anything that is mobile at sea or in the air. Now, if that is 
true, and I believe it to be true, and if we are convinced that 
we owe it to our country to proceed with testing some of those 
things at some place where they are ready to be tested, then 
obviously we are going to have to get relief under the treaty.
    Senator Bill Nelson. Let us take another example, then. You 
talk about mobility. For example, in the mid-course phase, if 
we are developing a laser that would be on a 747, the testing 
in that research and development, is that, in your opinion, an 
abrogation of the treaty?
    Secretary Rumsfeld. That, Senator, is a very difficult 
question, I am told by the experts. The airborne laser program 
preceded any thought of its use with respect to missile 
defense.
    An airplane is mobile. If you decide the program is to be 
tested for a purpose other than you had originally planned, and 
that purpose is missile defense, I would think one could argue 
that it would begin to push up against the treaty, but again, I 
am the wrong person to ask. I have people looking at this.
    My personal view is, we ought not to worry about all the 
legal pieces. We ought to go get a new framework with the 
Russians that establishes a regime, an approach, an 
understanding that makes sense for the future.
    Senator Bill Nelson. Well, let me give you another example, 
a very specific one.
    Secretary Rumsfeld. Where is Colin Powell when I need him? 
[Laughter.]
    Senator Bill Nelson. Take, for example, on the ascent 
phase, what you call the boost phase, and it has been suggested 
that our existing systems on ships of the Aegis class would be 
capable of knocking down such a weapon when it would be fired. 
Now, those are on mobile ships. Is that an abrogation of the 
ABM Treaty?
    Secretary Rumsfeld. Well, I am going to be careful again, 
and I am just going to answer the same way. It is my 
understanding that the treaty restricts testing of mobile and 
antiballistic missile capabilities, and an Aegis ship is 
certainly mobile.
    Senator Bill Nelson. Mr. Chairman, what I would love to do, 
since obviously we are all rushed here, is to have a chance to 
get into this in depth with whomever the Secretary would 
designate, whether it be in open session or closed session, at 
your discretion, because where I am going with this is that if 
we have robust research and development with robust testing, in 
my opinion, I do not see that this is an abrogation of the 
treaty.
    Clearly, in my opinion we need, for the sake of the defense 
of the country, to proceed with robust research and 
development, but you cannot deploy something that is not 
developed, so all of the wringing of hands over the abrogation 
of the treaty seems to me to be a little premature before 
something has been developed. I would certainly appreciate it 
very much, Mr. Chairman, if we could get into this in depth.
    Chairman Levin. We will keep the record open for questions 
to the Secretary. We will be having hearings on this subject, 
both open and closed, over the next few months, but the first 
opportunity will be that we can ask questions for the record 
because of the time crunch we are now in.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary and General Shelton. There are many issues I would 
like to discuss with you this morning, but because of time 
constraints, which are so strict, I am only going to be able to 
bring up one.
    Mr. Secretary, it seems that every week brings yet another 
report of yet another study that has been launched or is 
underway at the Pentagon. You and I have discussed before the 
confusing and conflicting signals from the Pentagon about the 
future of two major developmental programs for the 21st century 
that this committee has strongly supported, and those are the 
Navy's DD-21 destroyer and CVN-X carrier programs.
    I want to briefly summarize a series of events that have 
occurred in just the last week that are yet another example of 
my concern about these confusing and conflicting signals. On 
June 12, retired Air Force General McCarthy presented the 
conclusions and representations of the transformation panel. 
The General's prepared presentation of 21 slides contained no 
mention whatsoever of either the DD-21 or the CVN-X program. 
However, in a subsequent session with reporters, in response to 
a specific question, General McCarthy stated, ``we were not 
persuaded that they were truly transformational.''
    Now, 6 days later, press accounts quoted General McCarthy 
as clarifying that the transformational panel had not 
recommended the transformation of either the DD-21 or the CVN-X 
program. Rather, the General said, it reflects a recommendation 
not to accelerate these programs or to increase funding.
    In the same press account, retired Admiral Stan Arthur, who 
served with General McCarthy on the transformation panel, 
stated, ``I certainly consider the DD-21 and CVN-X to be 
transformational platforms, as well as enablers for follow-on 
joint force deployments,'' and he suggested that the two 
programs were not evaluated by the panel and that the 
conclusions of the panel should not be interpreted as a 
recommendation that either program be delayed or cancelled.
    Similarly, although the Navy continues to award contracts 
related to the development of the DD-21, it unexpectedly and 
indefinitely delayed the down-select decision last month, just 
days before the final offers were due.
    Mr. Secretary, there is widespread agreement among all the 
experts that I talked to, among all the naval leaders, that 
there needs to be more stability in our approach to 
shipbuilding, and yet the actions of the Pentagon appear to be 
creating instead more chaos and more uncertainty. I would like 
to have you comment on that, and I would also like to know, did 
the transformation panel in fact seriously evaluate the DD-21 
and the CVN-X?
    Secretary Rumsfeld. Senator Collins, thank you for your 
question. You call for more stability to shipbuilding. Let me 
describe what I found on arriving from Chicago and becoming 
Secretary of Defense. I found there is stability. We are 
funding shipbuilding at a rate which will move us smartly down 
to about 220 ships.
    Senator Collins. That is of great concern.
    Secretary Rumsfeld. But there is a very stable policy that 
has evolved from this Congress and the executive branch over a 
period of time that we are building ships that will move us to 
220. My personal view is that is not enough ships for the Navy.
    With respect to the chaos, as you characterize it, there is 
none. Any time that anyone asks a question, it is going to make 
people nervous. I felt that we needed to look at the 
shipbuilding program and the other programs, and so we formed 
not a host of studies, but we formed an acquisition reform 
study, which has reported to this committee; a financial 
management study, which has reported to the committee; missile 
defense, which has reported; morale and quality of life by 
Admiral Jeremiah, which has reported; space, which has 
reported; and transformation, which is the one you are 
referring to.
    We have three still underway, one on crisis management, one 
on nuclear forces, and the one that we have just concluded on 
the strategic review. We have delayed one on intelligence and 
one on metrics.
    There is no mystery about these studies. There is not yet 
still another, but we have asked tough questions. I intend to 
keep on asking tough questions, and I recognize that it is 
going to make people nervous.
    The short answer on the weapon systems you have raised is 
that they will be addressed in the Quadrennial Defense Review, 
and in the bill for the 2003 budget. I have not had briefings 
or presentations on any one of those weapons systems.
    We believe, correctly, I believe, that the way to begin 
this process is to look at the strategy, to look at the nature 
of the world we live in, and to see what our circumstance is, 
and therefore what kinds of capabilities we need.
    We now have the terms of reference for the Quadrennial 
Defense Review, and we are just beginning the process. I was 
not aware of the briefing by General McCarthy. What happens 
with the study is, you get an outside group or an inside group. 
They have a variety of opinions, they offer their opinions, 
they make their opinions public, and they do not represent 
departmental decisions. They should not be taken as such, and 
people should not be nervous or concerned about them.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Ben Nelson.
    Senator Ben Nelson. Secretary Rumsfeld, General Shelton, it 
is good to see you again. My question is going to follow up on 
the question of development and deployment of a missile defense 
system, and it may apply to any kind of development and 
deployment of any other kind of weapon, whether they are dumb 
weapons, smart weapons, whatever they may be.
    I guess I am concerned about what the cost versus success 
ratio should be before we deploy something if we are in the 
development phase. Obviously, the cost to deploy dumb weapons 
would seem to be rather low by comparison to smart weapons, or 
to a missile defense system with laser capability, et cetera.
    Is there a way of deciding whether or not the deployment 
costs versus the success potential, is there a ratio that we 
look at? Does it have to be 50 percent successful, 45, 80 
percent? Obviously, 100 percent is not an appropriate ratio, 
but probably a 20 percent success ratio is cost-effective on 
dumb weapons because of the low cost, but what level on the 
more expensive weapons is the ratio important, and have you 
tried to quantify what it might be?
    Secretary Rumsfeld. I have not. The experts on ballistic 
missile defense have, and they have looked at the subject 
over----
    Senator Ben Nelson. I do not mean to get into something 
that is a security issue.
    Secretary Rumsfeld. No, no, I understand, but they have 
been looking at these subjects over a period of more than two 
decades, and no decision has been made to deploy, so it is 
clear that for whatever reasons, either the treaty, or cost, or 
technology, they have not found the right combination of things 
that have led to an agreement on deployment.
    Your point is a good one. There is no question that if 
something is quite inexpensive, one is more willing to go ahead 
and make the investment and have that capability, even though 
its percentage effectiveness might be somewhat lower, but in 
terms of having some magic formula, there just is not one.
    Senator Ben Nelson. I would be very concerned if it was 
about 10 percent successful, and we were looking at spending 
hundreds of billions of dollars that would then be taken away 
from other priorities within the Defense Department. I would 
hope that as time goes by, we might have more information about 
how successful it needs to be before we deploy, because 
obviously the development side is based on trying to get it 
more successful and improve the ratio, so that we know that 
when we deploy it, it is going to be 80 percent successful, 75 
percent successful, and achieve some understanding before we 
move to that level.
    But I am not hearing a discussion like that coming out of 
the Pentagon. I am hearing more comments that it is like a 
scarecrow. It is worth putting up because it might be 
successful. Or I have had one of my colleagues say, well, if it 
saves us from one incoming missile, that it will be worth it.
    What I would hope is that we would come to some scientific 
basis, because it is a lot easier to talk about that. It is 
very difficult to argue against saving one city. Nobody wants 
to put it in those terms. But we cannot save one city with 
something that then makes us more vulnerable in other areas 
that are more likely to be open to attack.
    Secretary Rumsfeld. Senator, I have seen those columnists 
who have made fun of me, calling it the scarecrow approach, 
because I am willing to deploy something that does not work. As 
we discussed earlier, practically nothing works perfectly in 
life, and you are absolutely correct that there has to be a 
relationship between cost and benefit, and those calculations 
arrive basically at the theme you are getting at--you think 
your testing has worked out, and you are ready to begin talking 
about deployment of some kind, and that is where that 
calculation would come in.
    Senator Ben Nelson. I would feel much more comfortable if 
we can ultimately move to that kind of discussion, and perhaps 
it could be a secured sort of discussion. I would like to have 
it, though, as we move forward.
    Thank you.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Bunning.
    Senator Bunning. I would like to ask unanimous consent that 
an article in today's Chicago Tribune be put in the record.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:] 
                NATO Plan in Balkans a Dilemma for Bush
           u.s. mulls joining anti-rebel effort in macedonia

       [By John Diamond, Tribune Staff Reporter, Chicago Tribune]

    WASHINGTON--The NATO alliance said Wednesday that it is willing to 
send 3,000 to 5,000 troops to Macedonia to disarm ethnic Albanian 
rebels, leaving President Bush facing a decision on U.S. participation.
    ``We are, I think, doing everything that has been asked of us so 
far,'' Secretary of State Colin Powell said Wednesday on Capitol Hill. 
``But we have not yet made any commitment of troops to the purpose of 
this potential disarmament mission.''
    The U.S. has 9,000 peacekeepers in Bosnia-Herzegovina and Kosovo, 
including about 700 in Macedonia working in support of the Kosovo 
operation. The question of whether to expand U.S. military commitment 
in the Balkans runs up against Bush's stated goal of bringing home as 
soon as possible the troops already there.
    But a decision against contributing to a deployment could undermine 
Bush's pledge, reiterated last week in his visit to NATO headquarters, 
that ``we went into the Balkans together, and we will come out 
together.''
    NATO offered to send troops once Slav and ethnic Albanian leaders 
had reached an agreement to end fighting in the troubled republic. The 
U.S., having voted in support of the Macedonia mission at NATO 
headquarters Wednesday, would almost certainly face allied criticism if 
it then failed to contribute troops.
    Powell said some of the U.S. military personnel in Macedonia might 
be asked to shift their work to support a new NATO mission there. 
Alternatively, some of the 3,100 U.S. soldiers in Kosovo, largely 
positioned near the Macedonia border, could move into Macedonia with a 
new NATO force.
    At the White House, spokesman Ari Fleischer called it premature to 
decide on whether to send U.S. troops as part of the NATO mission.
    Bush came under pressure Wednesday from a key Democratic lawmaker 
and from Lord Robertson, the NATO secretary general, to step up U.S. 
involvement in Macedonia. Some Democrats fear the ethnic clashes in 
Macedonia could erupt into full-blown civil war. Robertson is concerned 
that the U.S. might try to limit its involvement to technical and 
logistical support.
    ``We can't afford, once again, to watch and wait to see how a low-
level Balkan crisis erupts into an all-out warfare while the U.S. and 
Europe wait to put out the fire,'' Sen. Joseph Biden (D-Del.), chairman 
of the Senate Foreign Relations Committee, told Powell.
    ``A limited NATO involvement now to pacify this extremely delicate 
and volatile situation may avoid the need for more extensive and 
difficult intervention later,'' Biden said.
    Rebel accord a requisite
    In Brussels, the 19-member NATO alliance said it is prepared to 
send troops into Macedonia to run a disarmament operation once the 
government and rebel forces reach an accord. NATO's North Atlantic 
Council, with the U.S. participating in the unanimous decision, ordered 
military forces to begin planning for what could be a brigade-size 
troop contingent. Robertson said that would be between 3,000 and 5,000 
soldiers.
    Britain, France, Spain, Greece, the Czech Republic, the Netherlands 
and Norway have all said informally that they would contribute to the 
Macedonia force. Robertson, in Washington this week for meetings with 
Powell, Bush and Defense Secretary Donald Rumsfeld, made clear he wants 
U.S. participation.
    ``This is an alliance of 19 countries, and I would expect and hope 
that all of these countries would be involved in doing their maximum,'' 
Robertson said.
    A country of 2 million and about the size of Vermont, Macedonia was 
part of Yugoslavia until the post-Cold War breakup of that country. As 
in Kosovo, ethnic Albanians in Macedonia, comprising 22 percent of the 
population, have been complaining of discrimination and demanding 
greater rights and freedoms for years.
    NATO's action Wednesday came in response to a request from 
Macedonian President Boris Trajkovski, who hopes the prospect of NATO's 
involvement will help move negotiations stalled over an ethnic Albanian 
demand that Macedonia be partitioned. U.S., NATO and European Union 
diplomats are on their way this week to Skopje, the Macedonian capital, 
for further efforts at mediation.
    `Not an armed intervention'
    If an agreement is reached and the troops go in, the NATO mission 
would be limited in scope and duration. Officials in Brussels said it 
could be over in as few as 30 days.
    ``It will happen when and only when there is an agreed cease-fire. 
This is not an armed intervention,'' Robertson said. The troops, he 
said, ``would be carrying weapons for their own protection,'' but not 
in anticipation of getting involved in any fighting. In a letter sent 
Wednesday to Macedonia's president, Robertson said NATO forces would 
not become involved in establishing any ethnic demarcation lines.
    Powell said the NATO mission would be to ``provide disarmament 
points, places where these individuals who have taken up the gun can 
turn in those guns and return to civil society, and return to the 
political process.'' He emphasized that NATO would not be ``going out 
fighting people to disarm them.''
    The existing U.S. troop deployments to the Balkans were begun by 
Clinton in response to ethnic warring through much of the 1990s. While 
the peacekeeping missions in Bosnia and Kosovo have succeeded in 
halting fighting, current and former U.S. officials are aware that NATO 
was slow to intervene.
    ``We were late in Bosnia, we were late in Kosovo, we can't afford 
to be late in Macedonia,'' said Robert Hunter, a Rand Corp. analyst and 
U.S. ambassador to NATO under Clinton.

    Senator Bunning. Thank you.
    Secretary Rumsfeld, early in this administration, support 
was expressed for ending our involvement in Kosovo and bringing 
our troops home. Several months ago, I had the opportunity to 
visit some of the soldiers from the 101st Airborne at Fort 
Campbell. About 3,000 of them went on June 1 to Kosovo. They 
all expressed hesitation about the pending deployment to 
Kosovo, and their morale was not good. They asked why they are 
being deployed for peacekeeping activity. They did not believe 
that was their mission.
    I plan on visiting the 101st in August. What do I tell them 
when they ask me when they will be able to come home and when 
our peacekeeping activity will end?
    Secretary Rumsfeld. Senator, when the U.S. forces were put 
in there was not a deadline set, nor has there been.
    Senator Bunning. Not by the administration, but by Congress 
there was. There were deadlines that were ignored by the 
administration.
    Secretary Rumsfeld. I recall that with respect to Bosnia. I 
am just not knowledgeable on Kosovo.
    Senator Bunning. It was also Kosovo.
    Secretary Rumsfeld. I was not here at the time. Is that 
true? Do you know, General?
    Senator Bunning. We have had this discussion before, 
General, in our conference.
    General Shelton. Yes, sir, we have, and certainly, Senator 
Bunning, if I could just respond on the morale piece and the 
question of peacekeeping.
    I just returned from over there this past month. Bill David 
and the 101st troops were in the process of starting to come 
in, but certainly what I have encountered on each of my 
relatively frequent visits into the region has been great 
morale and a great sense of accomplishment from the troops that 
are performing the job there and, of course, they are doing a 
magnificent job.
    That does not get at the question of when it will end, but 
I think that as you understand, and as the Secretary has said 
on many occasions, militarily we have provided the safe and 
secure environment to allow for the civil implementation pieces 
to be put into place and that is the key to the long term. It 
is also the key to us being able to pull all the troops out and 
not have it revert back, all the NATO troops coming out, to 
include the Americans, and that is taking a lot longer than it 
should, and that has been the push.
    I know that it is the right way ahead from a military 
perspective. Until we fix that, we are in danger of the whole 
thing not being a success if we arbitrarily just pull the 
forces out.
    Senator Bunning. Well, the article that I included in the 
record was in regard to Macedonia and the NATO alliance's 
willingness to send 5,000 additional troops into Macedonia to 
disarm the Albanian rebels.
    Secretary Powell says it will not include the U.S. troops. 
My question to both of you is, are U.S. troops going to be 
committed for that purpose and, if so, for how long, and at 
what cost to the American taxpayer?
    Secretary Rumsfeld. The Secretary of State was speaking for 
the President when he indicated that the United States supports 
the NATO process, which is going forward. There has not been a 
specific request. Secretary Powell indicated there is no 
commitment for U.S. forces to go into Macedonia.
    We currently have, I think, somewhere around 500 to 700 
troops, depending on rotation, in-country, that are basically 
the back office for the forces that are in Kosovo, and they are 
doing some variety of advisory type assistance at one stage, 
but the President has not made any decision. The government of 
Macedonia has not requested NATO to come in.
    I think the only basis on which the Secretary General of 
NATO yesterday indicated that NATO would go in would be not to 
go in and disarm, rather, to receive the weapons in a 
permissive environment, and he used the number, the possibility 
of total NATO forces of something in the neighborhood of 3,000, 
as I recall.
    Senator Bunning. Last question. General Shelton, I ask you, 
do you believe it is wise to use combat forces for civil 
missions? In other words, the 101st is combat-ready, probably 
the best in the country, the best you have, and now we are 
using them as police officers.
    General Shelton. Sir, first of all, I think it becomes a 
policy issue about where troops are used, but I would say 
that--and I agree totally with your assessment, the 101st, the 
Screaming Eagles, are a great outfit, well-led, well-
disciplined troops.
    As UN Secretary General Kofi Annan said at one point, the 
best peacekeeper in many cases is a well-trained infantryman, 
but I think what we have to guard against are the long-term 
deployments that tend to erode your combat effectiveness. When 
the 101st goes in, the infantry portions of that outfit will be 
trained and ready to go. Over a period of time, in 6 months, 
that readiness for warfighting, for carrying out their really 
tough missions like night live fires, or night attacks, go down 
substantially, which means they will have to be trained back up 
to par.
    While they are there, their morale will be high, and I am 
confident I have not run into troops there yet who did not have 
a great sense of mission accomplishment. However, once we bring 
them out, it will require a period of time, and that adds to 
their optempo, their perstempo, because they have to go back to 
the field. They go back to the training centers, and that is 
part of this personal tempo, operational tempo that we are 
having to manage.
    I believe that we can carry out anything along the entire 
spectrum, from disaster assistance to warfighting, but we have 
to make sure that we get the balance right, because when we 
start using the troops too often on the low end, it detracts 
from keeping them ready.
    Senator Bunning. Thank you, General. I have an additional 
set of questions I would like to submit to both of you, and you 
can submit the answers in writing.
    Chairman Levin. The record will be kept open for 24 hours 
for that purpose.
    Senator Bunning. Thank you.
    Chairman Levin. Senator Cleland.
    Senator Cleland. Thank you very much, Mr. Chairman. I would 
like to take this opportunity to commend you both for coming 
here and, indeed, the President for undertaking this strategic 
review.
    From what I have been able to discern, many legitimate 
reforms--and I define legitimate as improving the security of 
the people of the United States--will come from it. I intend to 
fully support these legitimate reforms. However, I have serious 
doubts and reservations that the issue of national missile 
defense has been given too great a priority in your 
calculations.
    Sam Nunn, the distinguished former Senator from Georgia, 
has, I believe, put this matter in proper perspective in a June 
12 editorial, when he states, ``the likeliest nuclear attack 
against the United States would come not from a nuclear missile 
launched by a rogue state, but from a warhead in the belly of a 
ship or the back of a truck delivered by a group with no return 
address.'' The briefings I have received on the missile 
capabilities of so-called rogue states bear out Senator Nunn's 
position.
    Mr. Chairman, I would like to ask unanimous consent that 
two articles be put in the record: first, Senator Nunn's full 
article on the subject; and second, an article from NBC News, 
``How Real is the Rogue Threat?''
    Chairman Levin. They will be made part of the record.
    [The information referred to follows:]
                         When Bush Meets Putin

       (By Sam Nunn, The Washington Post, Tuesday, June 12, 2001)

    Despite the broad agenda facing Presidents Bush and Putin at their 
summit meeting this weekend in Slovenia, media attention has tilted 
toward one particular plot line: Will President Bush make progress in 
persuading his Russian counterpart to drop objections to U.S. missile 
defenses? It is a story line that is interesting and important--but 
dangerously out of focus.
    The clear and present danger is not from North Korean missiles that 
could hit America in a few years but from Russian missiles that could 
hit in 30 minutes, and from nuclear, chemical and biological weapons 
and materials in Russia and the former Soviet Union that could fall 
into the hands of terrorist groups. The likeliest nuclear attack 
against the United States would come not from a nuclear missile 
launched by a rogue state but from a warhead in the belly of a ship or 
the back of a truck delivered by a group with no return address.
    President Bush's challenge, which will hover over his efforts this 
weekend and beyond, is to prepare for the more remote threats without 
leaving us more vulnerable to the immediate ones. His success should be 
judged not by whether he wins Russian acquiescence on missile defense 
but by whether he can begin to broaden and strengthen cooperation with 
Russia in defending against our common dangers. The goals: ensuring 
strategic nuclear stability, reducing the risk of accidental launch, 
cutting the risk of terrorist attack, countering the threat of a rogue 
nation's attack, and limiting the spread of weapons of mass destruction 
by safeguarding weapons, materials and know-how throughout the weapons 
complex of the former Soviet Union.
    The threats we faced during the Cold War--a Soviet nuclear strike 
or an invasion of Europe--were made more dangerous by Soviet strength. 
The threats we face today--accidental launch, the risk of weapons, 
materials and know-how falling into the wrong hands--are made more 
dangerous by Russia's weakness.
    We addressed the Cold War's threats by confrontation with Moscow, 
but today there can be no realistic plan to defend America against 
nuclear, chemical and biological weapons that does not depend on 
cooperation with Moscow. George W. Bush said as a candidate: ``A great 
deal of Russian nuclear material cannot be accounted for. The next 
president must press for an accurate inventory of all this material, 
and we must do more. I will ask Congress to increase substantially our 
assistance to dismantle as many of Russia's weapons as possible as 
quickly as possible.'' He is right--but try doing that without Russian 
cooperation.
    Whether the Bush team wins Russia's cooperation depends in part on 
how skillfully it seeks it, or whether it even wants it. It's still too 
early to know. The Bush administration has yet to make several pivotal 
decisions that will define its policy on reducing the threat from 
weapons of mass destruction.
    First is the matter of our nuclear weapons policy. Today U.S. and 
Russian nuclear postures may well increase the risk both were designed 
to reduce. The United States has thousands of nuclear weapons on high 
alert, ready to launch within minutes--essentially the same posture we 
had during the Cold War. Today U.S. capacity for a rapid, massive 
strike may well increase the chance of a Russian mistake. Stability is 
eroding because Russia's ability to survive a massive first strike is 
increasingly in doubt. Russia can no longer afford to keep its nuclear 
subs at sea or its land-based missiles mobile and invulnerable. This 
reduces Russia's confidence that its nuclear weapons can survive a 
first strike, which means it is more likely to launch its nuclear 
missiles on warning--believing its choice may be to ``use them quickly 
or lose them.'' Adding to the dangers is the fact that Russia's early 
warning system is seriously eroding. If the shoe were on the other 
foot, the United States would be alarmed by the danger of Russia's 
capacity for a first strike and plans to defend against the few 
missiles that would be left. Our offensive posture has a huge effect on 
how Russia views our defensive plan. The most important element in 
President Bush's May 1 speech wasn't missile defense; it was his public 
commitment to ``change the size, the composition and the character of 
our nuclear forces in a way that reflects the reality that the Cold War 
is over.'' If this is done right and coordinated with Russia, it could 
increase our security in a way that a missile defense system will not 
be able to achieve even 10 to 20 years down the road. These changes 
would also make it much more likely that Russia would agree to needed 
modifications in the ABM Treaty that could allow for a prudent, limited 
national missile defense.
    A second decision facing the Bush administration is its policy on 
nonproliferation, particularly efforts to limit the flow of nuclear, 
biological and chemical weapons, materials and expertise out of Russia. 
More than 1,000 tons of highly enriched uranium and 150 tons of 
plutonium still exist in the Russian nuclear complex, enough to build 
60,000 to 80,000 weapons. Storage sites are poorly secured, and weapons 
scientists have no steady paychecks. We have already seen hostile 
efforts to sell, steal and recruit weapons designs, materials and know-
how out of Russia. Osama bin Laden has said acquiring weapons of mass 
destruction is ``a religious duty.'' We dare not risk a world where a 
Russian scientist can take care of his children only by endangering 
ours. Earlier this year, a distinguished bipartisan task force headed 
by Howard Baker and Lloyd Cutler published a major report on the need 
to secure Russian weapons, materials and know-how, declaring it ``the 
most urgent unmet national security threat to the United States,'' and 
calling for a four-fold funding increase for these threat-reduction 
efforts. The Bush budget instead cut funding 15 percent, and at least 
one administration official involved in the review has said we should 
expect further cuts. The review by President Bush must answer a 
fundamental question: Is keeping nuclear, chemical and biological 
materials out of terrorist hands a priority or an afterthought? A third 
decision facing the Bush administration is the matter of missile 
defense. There are traps on both sides of the missile defense debate. 
Some insist we must have it, without regard to cost, so we will never 
be vulnerable to nuclear blackmail by a rogue state. They should temper 
their rhetoric. By declaring that we desperately need missile defenses 
to avoid being blackmailed by a few nuclear missiles, they may invite 
rogue states to believe that, even though we could identify and 
devastate a nation that launched a missile, we would yield to blackmail 
if they threatened an American city with a nuclear, chemical or 
biological attack with or without a ballistic missile. If we had 
preached that doctrine during the Cold War, could we have deterred 
Soviet aggression around the world?
    On the opposite side, some argue against missile defense of any 
kind, and they seem, perhaps inadvertently, to embrace the idea that 
the only deterrence option for the United States and Russia is the 
threat of nation-ending destruction, an outmoded and increasingly 
dangerous concept. President Bush is right to search for a way to 
change this Cold War posture.
    A limited missile defense has a place in a comprehensive, 
integrated plan of nuclear defense, but it should be seen for what it 
is--a last line of defense. Our first line of defense is diplomacy, 
intelligence and cooperation among nations, including Russia. It would 
be far better to prevent a missile from being built than to wait eight 
to 10 years and hope we can hit it in mid-air on its way over here. 
It's not that we shouldn't have an insurance policy in case all else 
fails, but we shouldn't spend so much on the premium that we can't 
afford a lock for the door.
    These three reviews now underway in the Bush administration address 
separate elements of the U.S. response to the threat from weapons of 
mass destruction. But they should not and must not be formulated into 
separate policies. They must be woven into a comprehensive defense 
against weapons of mass destruction--in any form, from any source, on 
any vehicle, whether triggered by intent or accident.
    The writer, a former Democratic senator from Georgia, is co-
chairman of the Nuclear Threat Initiative.
                                 ______
                                 
                     How Real Is The Rogue Threat?
 u.s. intelligence details missiles that fall far short of u.s. shores

              (By Robert Windrem, NBC News, June 19, 2001)

    As President Bush, forging ahead with a plan to build a national 
missile shield, continues to trumpet the threat posed by missiles from 
so-called ``rogue'' nations, no missile currently deployed by countries 
hostile to the United States has the range to strike any of the 50 U.S. 
states. Only one missile system currently being developed by a foreign 
nation would have such a capability in the near future, according to 
intelligence and expert analysis.
    Of the five ``rogue'' states usually mentioned in discussions of 
missile programs, Iran, Iraq, Libya, North Korea and Pakistan, only 
North Korea has what can be called an advanced missile development 
program. North Korea's Taepo-Dong 2 missile, still under development, 
would have the range to strike the United States, but likely only at 
Alaska's thinly populated western edge, or under the most optimistic 
assessments, the city of Anchorage. While it would be the first missile 
strike on U.S. soil, it would do little damage to U.S. strategic 
interests and would almost certainly be met by a devastating U.S. 
counterstrike, and that would do little damage to U.S. strategic 
interests, say U.S. officials. Only two of the five ``rogue'' nations, 
North Korea and Pakistan, have nuclear weapons, and only Pakistan is 
believed to have successfully built nuclear warheads for its missiles. 
While U.S. intelligence believes North Korea has built one or two 
nuclear weapons, there is no evidence that it has built missile 
warheads, say U.S. intelligence sources, speaking on condition of 
anonymity.
                            limited programs
    The five countries' missile development programs are hindered by 
other limitations, say U.S. officials and independent experts:

        <bullet> None has fielded a missile with a solid rocket engine 
        or even tested such an engine in flight. Each uses liquid fuel 
        engines, which require hours and in some cases days to load and 
        fire. A solid rocket engine can be lighted and fired within 
        minutes.
        <bullet> None of the states have extensive missile-launch 
        facilities or even missile-development facilities. North 
        Korea's facility on the Sea of Japan is limited to a single, 
        unprotected launch pad and nearby assembly building, connected 
        by a dirt road.
        <bullet> None have the industrial capability to build even 
        moderately large numbers of missiles.

    North Korea's Taepo Dong-2, the most advanced missile in 
development by any of the ``rogue'' states, has yet to be fired from 
the Korean's rudimentary missile-test facility. Under the most 
optimistic assessments, the missile would have a range of 3,600 miles 
when fielded, U.S. intelligence officials say. At that 3,600-mile 
range, it could strike as far east as Anchorage. If its range is at the 
low end of estimates, 2,400 miles, it could strike only the westernmost 
islands of Alaska's sparsely populated Aleutian chain. The Taepo-Dong 
2, named for the city where it is built, would need a range of more 
than 4,800 miles to strike the U.S. mainland, and somewhat less to hit 
Hawaii. ``North Korea has a very modest facility . . . more of a 
missile proving ground, like White Sands out of 1946, not Vandenberg 
[Air Force Base] or the Kennedy Space Center,'' said Tim Brown, senior 
analyst for Globalsecurity.org. The White Sands Proving Ground was 
established in New Mexico at the tail end of World War II by the U.S. 
military to test new weapons systems.
                          short-range weapons
    No other nation on the ``rogue'' list has fielded a missile with a 
range greater than 900 miles, according to U.S. officials. Pakistan has 
the Ghauri missile, which it bought from North Korea and renamed for a 
Muslim king who invaded Pakistan's archrival India. Iran has yet to 
test any missile with a range greater than 600 miles.
    Libya has only Scud-B missiles with ranges of 180 miles, and Iraq 
is limited by U.N. sanctions to missiles with ranges no greater than 90 
miles. Although Baghdad is believed to have hid Scud missiles from 
weapons inspectors, none have ranges greater than 540 miles. 
Development programs in each of those states is aimed at incremental 
increases in range, officials say.
    Two of the missiles, the Pakistani Ghauri and the Iranian Shehab, 
are derivatives of North Korea's No-Dong missiles, which Pyongyang has 
sold and transported by both ship and cargo aircraft to buyer nations.
    ``One question is how reliable these systems would be,'' said 
Globalsecurity's Brown. ``Putting a crude rudimentary system in 
operation without doing a lot of testing is risky. Military generals 
want a lot of testing. The question is, is this a serious military 
program or a terrorist program where you wouldn't necessarily have a 
lot of testing?''
    The United States fears that North Korea could ultimately sell the 
longer range missiles it has under development as well. Still, because 
of geography, even if the Pakistanis or Iranians bought a North Korean 
missile and wanted to aim at the United States instead of one of their 
neighbors, neither is close enough to strike even Alaska.
      ``Rogue'' threat?--Missile ranges fall short of U.S. shores
    Iran
    Scud C: 300 miles, Status--deployed
    Shehab-3: 600 miles, Status--tested
    Shehab-4: 900 miles, Status--in development
    Distance to U.S.--5,400 miles (Alaska), 7,200 miles (Mainland)
    Libya
    Scud B: 180 miles, Status--deployed
    Distance to U.S.--7,200 miles (Alaska), 9,000 miles (Mainland)
    Iraq
    Ababil-100: 60 miles, Status--deployed
    al-Samoud: 90 miles, Status--tested
    al-Hussein: 360 miles, Status--forbidden, possibly hidden
    al-Abbas: 540 miles, Status--forbidden, possibly hidden
    Distance to U.S.--5,400 miles (Alaska), 7,800 miles (Mainland)
    North Korea
    Scud B: 180 miles, Status--deployed
    Scud C: 300 miles, Status--deployed
    No Dong: 600 miles, Status--tested
    Taepo Dong 1: 900+ miles, Status--tested
    Taepo Dong 2: 3,600 miles, Status--in development
    Distance to U.S.--2,400 miles (Alaska), 4,800 miles (Mainland)
    Pakistan
    Shaheen: 180 miles, Status--deployed
    Tarmuk: 180 miles, Status--deployed
    Ghauri: 900 miles, Status--deployed
    Distance to U.S.--4,800 miles (Alaska), 6,600 miles (Mainland)

    Note: Distances to the U.S. are calculated over the pole or west to 
east. Flying east to west, even though shorter in some cases, is 
inefficient since the missiles would be flying against the rotation of 
the earth, lengthening the flight.

    Senator Cleland. Furthermore, the difficulties that we have 
encountered through a series of failed, integrated flight 
tests, the tests that the distinguished Senator from Florida 
was talking about, warrant careful examination before we commit 
huge sums of money for some kind of crash program to field a 
system of questionable effectiveness.
    National missile defense is an uncertain trumpet at this 
point, and we ought not to blow it before we test it and fully 
make sure it is deployable. It does not make sense to deploy 
this system without that guarantee. Moving down that road 
without that kind of testing does not improve the security of 
the people of the United States, in my opinion.
    Now, I understand the argument that advanced technology 
will allow for greater success in NMD operations, but I know 
the technological developments are still to be achieved in the 
future.
    For instance, General Larry Welch, chairman of the NMD 
independent review team, stated to Congress last July that we 
are not technically ready to decide whether or not to deploy 
missile defense. General Welch gave 2003 as the earliest 
possible decision point. How, then, can the administration 
deploy an NMD system and have it in place by 2004?
    Additionally, according to the Pentagon's Ballistic Missile 
Defense Organization, the earliest high-risk deployment is 2006 
for a ground-based system, and 2009 for an airborne laser 
system, and 2010 for a sea-based system.
    I know that the military services in their budget briefing 
have presented compelling arguments regarding demands on them 
by current deployment of American services around the globe. I 
think it is ironic we meet today and we are moving into 
Macedonia. We have been in Bosnia for 6 years. We have been in 
Kosovo for 2 or 3 years. Now we are going into Macedonia.
    I can remember 5 years ago when we had testimony that we 
were going to get out of Bosnia. We never thought about going 
into Kosovo or Macedonia. Now we are in them all. I am gravely 
concerned about the shift away from improving the current state 
of readiness and upgrading maintenance, spare parts, quality of 
life, and recruitment and retention, so we can have a unit to 
send wherever we need to send it. I think that we need to focus 
on that, rather than an updated version of Star Wars at this 
time. I think it is a repeat of the mistake made by the country 
after World War II, of compromising conventional capabilities 
in order to fund strategic programs with narrow utility.
    Those mistakes were paid for dearly by American service 
personnel committed to the Korean War. We approach the 51st 
anniversary of Task Force Smith, committed in the Korean War. I 
caution you both that this Senator will jealously guard 
resources our servicemembers need to protect our vital 
interests, and oppose any effort that compromises our 
resources.
    Mr. Secretary, I want to ask a basic question. You have 
blurred the distinction between theater missile defense and 
national missile defense. I would just like to observe four 
points. First, in testimony, Lieutenant General Kadish himself 
has conceded that the engineering of the systems is different, 
the engineering of a theater missile defense is one thing, the 
engineering of a national missile defense is quite another.
    Second, the National Missile Defense Act of 1999, which is 
the current law governing these matters, refers to national 
missile defense, not just missile defense.
    Third, the only system whose earliest high-risk deployment 
was claimed to be 2004 is the ground-based system designed to 
intercept missiles in the missile's terminal phase, just before 
impact, essentially a theater missile defensive capability.
    Fourth, the ABM Treaty is clear on the distinction.
    Mr. Secretary, do you not see a distinction between theater 
missile defense, which I fully support in terms of research and 
development, and pursuing our technology in that regard, and 
national missile defense and deploying a national missile 
defense system, which I think is not what we ought to do at 
this time?
    Secretary Rumsfeld. Thank you, Senator. Maybe I can make 
three quick comments. First, to my knowledge, the United States 
is not putting troops into Macedonia. I do not know where that 
information came from. NATO is discussing it, but the United 
States has made no commitment to do that.
    Second, you are quite right that there are more threats 
than missile defense, and terrorism, as former Senator Nunn has 
suggested, is one of them. The United States is currently 
spending more money on the terrorism problem than we do on 
missile defense, and the asymmetrical threats across the 
spectrum are a problem. Countries are not likely to compete 
with our Army, Navy, and Air Force. They are able to get their 
hands on weapons of mass destruction, and there are a variety 
of ways of delivering them, and I do not disagree with that, 
but it seems to me that we ought to be interested in addressing 
all of them, not just some of them.
    Third, with respect to theater and national missile 
defense, there is a difference, obviously, in the engineering 
and the purpose and in what one does by way of interception. 
The point about theater and national missile defense that I 
have addressed is this; what is national depends on where you 
live. If you live in Europe, and a missile can reach you, that 
is national, it is not theater. If you live in the United 
States and a missile can hit Europe, it is theater, not 
national.
    The problem we were getting into, by strictly separating 
theater and national missile defense, it seemed to me, is that 
it appeared we were interested only in protecting ourselves, 
and not deployed forces, not our friends and allies, and that 
decoupling from our allies was an unhealthy thing.
    You are correct, General Kadish is correct on the 
distinctions with respect to engineering. It strikes me that 
not recognizing that what is national or theater depends on 
where you live would also be a mistake.
    Senator Cleland. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much. We are going to 
recognize Senator Roberts next, then Senator Inhofe, and finish 
at 11:15, so it is going to be really tight, but that is what 
the Secretary's schedule requires.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman, and thank you for 
your very kind comments at the beginning of this session. I was 
not here, but staff has informed me that you lauded the efforts 
of the Emerging Threats and Capabilities Subcommittee, and the 
3 years of hearings we have had on this subject, which is 
pretty much the foundation of what we are all about here. I 
want to thank Senator Warner, the chairman emeritus, in regard 
to my privilege of being the chairman of that. Chairman 
Bingaman was the ranking member. All of our staffs on both 
sides of the aisle did a lot of work, so I want to thank you 
for that.
    Mr. Secretary, as I have indicated, we have been working 
for 3-plus years on the Emerging Threats and Capabilities 
Subcommittee, and working closely with the Joint Forces Command 
on this notion of military transformation. I have the press and 
the study here that we have been going over.
    It seems to me we need this effort, since the threats we 
face are so dramatically different, as has been indicated by 
all of my colleagues, and we need your hands-on support. I know 
you are going to provide us that, and you are already into 
that.
    It is going to be a very tough road, I think you found that 
out from the questions from my colleagues, to make any 
meaningful change. You are going to have a lot of opposition 
from the Service cultures. You are going to have a lot of 
opposition from the vendors to cut the favored programs that 
are seen to be out of favor, or that are rumored to be out of 
favor, but the reality is that we need the dramatic change.
    The question is, do we have the stomach to do it? The 
question is, can we consult in a way with you so that that 
effort will be joint, and it will be a cooperative effort?
    Now, it seems to me that the transformation of our military 
would be based on a current national defense strategy. I would 
argue that such a defense strategy should be based on national 
strategy, and finally, the national strategy should be based on 
a firm understanding of our vital national interest. I think 
you agree with that progression. You answered yes to that in a 
previous question where we had the privilege of having you 
before the committee.
    My question is, are those fundamental documents and 
principles consulted and referenced as your transformation 
plans being developed? We have the Bremmer Commission, the 
Gilmore Commission, the Hart-Rudman Commission, the CSIS study, 
Rand Corporation, National Commission, which I served on. You 
should have access to that brilliant detailed dialogue on the 
Senate floor by Senator Cleland and Senator Roberts, who went 
on five times to an empty chamber, but some people paid 
attention to it, on what are our vital national interests, how 
that plan can transform.
    The Emerging Threats and Capabilities Subcommittee had 
anywhere from 25 to 30 hearings. I will get the exact number. 
We dealt with homeland security, we dealt with terrorism, the 
danger of a biological attack, cyber warfare, weapons of mass 
destruction, counterthreat reduction programs, drugs, 
immigration--our jurisdiction is all over the lot.
    Now, we have had all these hearings, all this testimony. I 
do not think we really considered having your study groups come 
up, and maybe this is the wrong time to do it, but at some 
point I think we ought to have some consultation, and you would 
come up and say, ``hey, Pat, what do you think, you have been 
doing this for 3 years. Hey, Mr. Chairman, hey, Mr. Ranking 
Member, what do you think?''
    I mean, we have had all the experts. I cannot think of an 
expert we have not had, in terms of the commissions, and I 
think it would be very helpful. I think we could avoid some of 
the more controversial bickering back and forth.
    Most Senators, if they are in the room, when they leave the 
room, do not really criticize as much as if they are in the 
room. There are a few exceptions to that, of course.
    So my question to you is, basically, have we taken a look 
at those fundamental premises, and all the hearings that we 
have had on this particular subject, and then maybe had a 
little chat, had a little meaningful dialogue with people, as 
opposed to all of these news reports that make us get all 
upset?
    I told the Marine Corps and the Army at one particular time 
that the Marine Corps is the tip of the spear, the Army is the 
spear. We do not need two tips, we do not need two spears. Now 
I see in the transformation we may not have a spear or a tip. 
Service culture is important. Do not mess with the Marine 
Corps, sir.
    Secretary Rumsfeld. Senator, I thank you for your comments 
and I am, of course, well aware of the work of your 
subcommittee. I have read carefully the commission that you 
served on, and we talked about it, and we are now arriving 
exactly at the time when it would be very useful to have your 
subcommittee meet with the group of people in the Quadrennial 
Defense Review who are working, just starting this process this 
week on the specific transformation pieces and what the 
implications are flowing out of, as you say, the national 
security strategy, the national defense strategy, and we would 
be delighted to do that. I will see that it is arranged.
    Senator Roberts. I just want to say, Mr. Chairman, that we 
do not have all the answers, but there are some areas of 
expertise. We have a great staff, and it would just be 
wonderful to exchange ideas like what do you think about this, 
wait a minute, you know 2 years ago we heard this, and this is 
what happened where it did not work out, and of course, you 
have great experience, and so does General Shelton in that 
respect, but I would urge you to do that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much. Senator Akaka is now 
here, so we are going to call on him. Then we will call on 
Senator Inhofe, but we will still try to get you out of here as 
close to 11:15 as we can.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Secretary, last week President Bush announced that the 
Navy would stop training on the island of Vieques. It is my 
understanding that the law requires a referendum to be 
conducted, unless the Chief of Naval Operations and the 
Commandant of the Marine Corps jointly certify that Vieques is 
no longer needed.
    What are you thoughts about this issue?
    Secretary Rumsfeld. Senator, I know that you and certainly 
Senator Inhofe have given a great deal of thought and time to 
this subject. I am trying to figure out exactly what the 
sequence was, but I believe that technically the Secretary of 
the Navy made the announcement as to what would take place, not 
President Bush. President Bush I think commented on it after it 
had happened.
    But all I can say is that the decision has been made to 
come to Congress, and Congress has a role in this, obviously, 
and I understand there may be some hearings with respect to it.
    Senator Akaka. Mr. Secretary, to your knowledge, were the 
CNO and Commandant consulted prior to this decision?
    Secretary Rumsfeld. I could let General Shelton answer 
this, but to my knowledge the Chief of Naval Operations has 
been involved in these discussions over a sustained period.
    General Shelton. I know that the CNO has, in fact, been 
involved going back to last year, when the issue first started. 
To what degree in recent days, or in the last several months, I 
do not know. It is a Title 10 responsibility to train, 
organize, and equip, and I know the Navy has been working this 
very hard, as well as looking for potential alternatives for 
it.
    Senator Akaka. Are you aware whether there was any 
alternative site for readiness training for the Navy and Marine 
Corps?
    General Shelton. To my knowledge right now there is not an 
alternative site. I am aware of three different areas that are 
being looked at as potentials.
    Senator Akaka. What is the status of the legislative 
proposal that is to be forwarded to Congress to address the 
referendum?
    Secretary Rumsfeld. I do not know personally.
    Senator Akaka. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Warner. Mr. Chairman, the Secretary of the Navy 
called me yesterday. The draft of that legislation is on his 
desk. It is under consideration to be forwarded to your office. 
I thank the Chairman of the Joint Chiefs for saying that the 
Navy has worked very hard and very diligently for years to 
search for alternative sites. I think that is important, 
because this is a critical issue before Congress right now.
    Chairman Levin. Senator Warner has shown me a letter 
requesting a hearing, which I have just seen for the first 
time, but he has previously requested the committee conduct a 
hearing on the position of the Department of Defense relative 
to Vieques, but his final paragraph says this, that ``the 
administration has not formally decided whether or not to 
forward legislation to Congress concerning Vieques, therefore I 
recommend that the Armed Services Committee not conduct a 
hearing on the subject of Vieques until such time as we have 
before the committee for consideration a formal legislative 
proposal from the administration on the future use of 
Vieques.''
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, I both agree and disagree with Senator 
Cleland. I apologize for being late. I had an emergency root 
canal this morning and it is going to be finished at 3:00 
today, so this is not very enjoyable for me either.
    Chairman Levin. I hope the Secretary does not feel like he 
has had a root canal here this morning. [Laughter.]
    Senator Inhofe. Oh no, he never feels that way.
    I do agree with Senator Cleland and Senator Bunning on 
their comments as far as Kosovo and Bosnia, and I hope we have 
learned one lesson from this. It is easy to get in, it is hard 
to get out, so I hope we will just keep that in mind.
    I do disagree with them, though, and I have heard the 
arguments so many times, when they talk about the threat, the 
terrorist threat, the suitcases. No one from Oklahoma has to be 
told what that threat is, and the devastation of the Murrah 
Federal Office Building was only an explosive power of 1 ton of 
TNT.
    The smallest nuclear warhead we hear about is roughly a 
kiloton, a thousand times that destruction, and the fact that 
we already have three countries that have multiple stage 
rockets that can carry weapons of mass destruction to the 
United States, and they are trading technology and systems with 
such countries as Iraq, Iran, Syria, Libya, and Pakistan, and 
some of the other countries, I think it is a huge problem.
    I did finally see the movie 2 days ago, ``13 Days,'' and I 
hope everyone will see that movie and see the threat of the 
Cuban missile crisis back in the 1960s. I really believe in my 
heart that the threat today is every bit as great as the threat 
at that time, so I would hope that we not get ourselves into 
this position of saying we are either going to guard against 
terrorist attacks in suitcases, or ICBMs, but not both. We need 
to have adequate protection against both of them.
    The second thing is--I know this is really limited, and you 
have stayed past your time, and I appreciate your being here--
on the theme of Vieques, I would only ask that we be consulted 
before something specific, anything more is being done. We were 
not consulted before. I am not blaming either one of you for 
that, but these things came out, and they put the White House 
in a very awkward position, because quite frankly I think when 
that first statement was made they did not realize that we had 
very carefully crafted language in our defense authorization 
bill that would protect against someone trying to unilaterally, 
without thinking it through, do away with the live range that I 
believe directly affects American lives.
    The policy is something too, that I have been around, and I 
have looked at all of the sites that we can find, and of course 
the Pace report came out, and the Rush report, and they have 
studied these. To get the integrated training that is necessary 
to save lives for East Coast deployments, I believe Vieques is 
absolutely necessary, and I think that self-determination now 
is not such a bad idea.
    I did not like the idea at first, but I think now, if we 
get to November, unless they have changed the law, we are going 
to have a referendum. Quite frankly, I think the people of 
Vieques will embrace the Navy and will vote favorably to keep a 
live range on Vieques, and any comments you want to make, you 
can.
    Secretary Rumsfeld. Well, Senator, first, let me say that I 
agree completely with you on the variety of threats of weapons 
of mass destruction and that it is important that we address 
the spectrum of them, and not one, and ignore others.
    Second, with respect to Vieques, you have been a stalwart 
and made a terrific contribution in working to assure that the 
men and women who go into the Gulf from the east coast have the 
kind of training that they need, and I recognize that. I 
certainly agree with you that before anything else is done we 
have to take full cognizance of the legislation and of you and 
your associates and your interests, and consult.
    Senator Inhofe. Thank you, Mr. Secretary.
    Chairman Levin. Mr. Secretary, we want to thank you. I must 
tell you, there is one comment in your remarks that I have to 
point out, because I think it is really inaccurate.
    Secretary Rumsfeld. Oh, my.
    Chairman Levin. You say that we have skimped on our people, 
doing harm to their trust and confidence, as well as to the 
stability of our force, and we--under the leadership of Senator 
Warner here, Senator Stevens, Senator Byrd, Senator Inouye on 
Appropriations, and on the House side over the last few years--
have passed the largest pay raise in 20 years, we have 
committed to annual military pay raises greater than the annual 
increase in the employment cost index through 2006. Two years 
ago, the President requested Congress approve an increase of 
military retirement benefits from 40 to 50 percent of basic pay 
after 20 years of service. That was a high priority for General 
Shelton of the Joint Chiefs. They had been reduced from 50 to 
40 percent in 1986.
    We approved Secretary Cohen's proposal to increase housing 
allowances last year for military families and begin 
eliminating out-of-pocket housing costs. We have reduced the 
number of military families now on food stamps by about 75 
percent. We last year approved a special allowance for the 
remaining military families who qualify for food stamps.
    We enacted a mail order pharmacy benefit for military 
retirees, a new entitlement for medicare-eligible military 
retirees to receive care through the Tri-Care program.
    I do not think there has been a major initiative in the 
area of personnel benefits and quality of life that General 
Shelton and the Joint Chiefs have recommended to Congress that 
has not been provided, and I would be happy, of course, if you 
want to take time to comment.
    General Shelton has assured us many times over the years 
that we have done well in this area, and I would just urge that 
you have a private conversation with General Shelton when you 
get back to the Pentagon on that subject.
    This Congress in the last years has not skimped on our 
force. That has been first and foremost our goal, to protect 
that force, their quality of life. That has been and continues 
to be our goal, no matter whether Democrats or Republicans are 
in control of this Congress. I can assure you in this Senate 
that is the number one goal.
    Senator Warner. Mr. Chairman, you should include yourself 
in the litany of those who have worked on this over the years, 
because at the time I was chairman, you were a full partner on 
it every step of the way.
    Secretary Rumsfeld. Mr. Chairman, I request that I be a 
temporary Senator and be permitted to revise and extend those 
remarks that were imperfect and inelegant.
    Chairman Levin. Thank you.
    Secretary Rumsfeld. However----
    Chairman Levin. Oh, in that case you are not going to be 
permitted approval to revise and extend your remarks. 
[Laughter.]
    Secretary Rumsfeld. Let me say this. I agree with 
everything you said. There has been a lot done. The fact 
remains that if you look at their housing, and you look at the 
facilities they work in, and you know that the best practice in 
the private sector is to recapitalize every 6 to 7 years, in 
the aggregate, blended, and that we currently are at 198 years, 
there is no way we can say that we have provided the kinds of 
housing and facilities for the men and women in the Armed 
Forces to work in that we would be proud of.
    Second, the optempo has been a problem, and that is part of 
morale, and it is part of quality of life, and there have been 
periods in the last decade where the numbers of not major 
regional wars, but lesser contingencies, have been so numerous 
that it has put an enormous strain on the men and women of the 
Armed Forces, and I will, in fact, have a private conversation 
with General Shelton. I see him two or three times a day.
    Chairman Levin. We appreciate that. We also will, I am 
sure, be very responsive to those requests, as we have always 
been. We have a lot of work to do together in this area. I 
think you may find that in some places we will be exceeding 
your requests and maybe changing some of your priorities, as 
has been indicated by my colleagues around here, because of the 
high priority that we give to quality of life, to morale, to 
pay and benefits, to retention, and so you may find some of 
your priorities, indeed, for little things like missile defense 
change in order to focus on the things that you just talked 
about.
    Before we close this hearing, and without objection, at 
this point in the record, I will place the statements of 
Senators Lieberman, Thurmond, and Allard.
    [The prepared statements of Senators Lieberman, Thurmond, 
and Allard follow:]
           Prepared Statement by Senator Joseph I. Lieberman
    Thank you Secretary Rumsfeld for appearing before this committee 
today. I look forward to hearing your recommendations for our national 
military strategy and what guidance you are giving the Pentagon and the 
military services to develop the recommended force structure and 
weapons to execute that strategy.
    At your confirmation hearing before this committee in January, I 
noted that you were assuming stewardship of our military at a 
crossroads--one that requires a hard choice between taking the path 
defined by the ideas and methods of the 20th century or the path 
defined by the needs and potential of the 21st century. I also said 
that the QDR and the National Defense Panel (NDP) conducted in 1997 
pretty well defined these two roads for you and the choices you faced. 
These panels produced two fundamentally and constructively different 
evaluations. The QDR's conclusion was that although future military 
challenges will likely be different than those envisioned during the 
Cold War, the ``two war'' construct, with some modifications, is and 
will continue to be the proper standard against which to gauge our 
capability and preparedness. That QDR concluded the current forces and 
weapons are satisfactory and will continue to sustain our military 
dominance if modernized in kind. As a result, much of the Pentagon 
effort since that time has been toward increasing the budget to 
maintain and modernize this force.
    The members of the NDP disagreed. They asserted that ``we are at 
the cusp of a revolution in warfare,'' stating that ``unless we are 
willing to pursue a new course, one different than that proposed by the 
QDR, we are likely to have forces that are ill-suited to protect our 
security 20 years from now.'' In fact the NDP questioned the 
advisability of continuing to use the ``two war'' standard and of 
continuing to procure some of our current core weapons. They concluded 
that transformation is the path we should follow, and therefore 
spending smarter was more important than spending more.
    President Bush clearly adopted the vision of the National Defense 
Panel. During and after the campaign last year, he promised the men and 
women of our Armed Forces that ``help was on the way.'' He pledged to 
fix the shortcomings that he believes exist now and he pledged to 
transform the military into a force that takes advantage of the 
technology revolution to better overcome the very different threats we 
face today and tomorrow.
    You were tasked to execute this vision. For the past 5 months you 
have been conducting a strategy review to determine how to structure 
and equip U.S. forces to achieve this vision. But despite several 
meetings with members of this committee, we still do not know much 
about either the process of this review or its content. What we do 
know, and what may not be accurate, comes from reports leaked to the 
press or from pure speculation.
    I must confess that I'm a bit troubled by comments you have made 
suggesting that decisions will be revealed sequentially rather than as 
a coherent strategy and that the effort over the past 5 months will 
have little immediate impact on the military. I am also troubled by 
reports that there have been no decisions about which programs should 
be continued and which should not. I hope I am wrong, and that you will 
assure us here today that is not the case.
    Such decisions cannot simply be rolled into the routine planning 
and budget cycles. That approach will not give us the insight we will 
need to link strategy with the forces and weapons needed to execute it. 
I must strongly urge you to provide us with the thoughtful, studied 
analysis we will need soon, since the fiscal year 2002 budget will be 
critical in shaping what we can do in fiscal year 2003 and beyond. The 
resources needed to execute the conclusions of your review will be 
substantial, and changing course will be exceedingly difficult and time 
consuming, and because of the large tax cut signed by the President, we 
will not likely have the money we would need to change course quickly.
    Which leads me to my next concern--how you intend to pay for 
critical defense programs. I believe the President's priority was tax 
cuts and his subsequent budget does not and cannot meet the current and 
future needs of our military, particularly the needs of the men and 
women in uniform. You are faced with funding a force that costs 
billions more than has been budgeted for or than is likely to be 
available. The total government surplus for 2002 is less than some of 
the rumored defense increases for fiscal year 2002, and we are actually 
facing deficit spending in 2003 and for some years after that, when you 
have said you must have substantial increases to transform. While I 
strongly support improving the efficiency of the Pentagon, I don't 
believe efficiencies alone will be enough to make up this shortfall. I 
hope we won't resort to accounting gimmicks or raiding Social Security 
or Medicare to try to come up with the funds that will surely be 
needed.
    I look forward to hearing what your approach will be to resolving 
these difficult conflicts, what guidance you intend to give the 
Pentagon to direct their design and execution of the upcoming QDR, and 
how we can better know your priorities as we proceed with marking up 
the fiscal year 2002 budget. I look forward to working with you to 
build a dominant military for the 21st century.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond
    Mr. Chairman, I join you in welcoming Secretary of Defense Rumsfeld 
and General Shelton. Today's hearing is significant in two aspects. 
First, it will set the tone for the follow-up hearings that the 
committee will hold in preparation for the Fiscal Year 2002 National 
Defense Authorization Act. Second, it will be the first official review 
of Secretary Rumsfeld's long-overdue defense strategy review. There has 
been a great deal of speculation both in the press and Congress 
regarding the Secretary's review and I hope that this hearing will put 
an end to the speculation and focus on the facts.
    Mr. Secretary, to illustrate the discord that reigns regarding your 
review and the future role of our Armed Forces, I will cite from two 
recent articles:
    June 16, 2001 in the European Stars and Stripes: ``The Pentagon's 
strategy guidance for the next 4 years will drop the pretense that the 
Pentagon's only business is fighting major wars, a senior defense 
official said. Instead, the time has come to acknowledge that 
peacekeeping missions in the Balkans will not go away--and thus must be 
an integral part of the military's force structure and weapons 
planning, the official said Thursday.''
    June 19, 2001 in USA Today: ``U.S. forces should focus on fighting 
wars and leave peacekeeping to Norway, Canada, and other nations with a 
`long tradition' of carrying out humanitarian missions, the Pentagon's 
No. 2 official says. `We want to get the military out of non-military 
functions,' Deputy Defense Secretary Paul Wolfowitz said in an 
interview.''
    Although I agree with Secretary Wolfowitz's statement, the two 
articles are illustrative of the confusing reports coming from the 
defense review. Your testimony will be critical in clarifying the 
outcome of your strategic review and the future role of our Armed 
Forces.
    General Shelton, although your very successful tour as Chairman of 
the Joint Chiefs of Staff will come to a close in several months, you 
have the opportunity to put your mark on the future of our defense 
strategy. I hope that contrary to the concerns that senior military 
officials did not participate in the strategic review, your concerns 
and those of the Joint Chiefs are fully addressed in this review. I 
urge you to share your perspective on this important matter and speak 
not only on behalf of our Armed Forces, but also on behalf of our 
Nation's national security.
    Mr. Chairman, in my judgment, a comprehensive review of the defense 
strategy and the operations of the Department of Defense is long 
overdue. I am pleased that this committee has inserted itself in the 
review process and I hope we will follow up with other hearings.
                                 ______
                                 
               Prepared Statement by Senator Wayne Allard
    Mr. Secretary, General Shelton, I want to thank both of you for 
coming here today. I am pleased that you are conducting this review of 
our defense strategy and I am looking forward to hearing your 
testimony. I am particularly interested in your views as they relate to 
our strategic forces and hearing your opinions of their future role in 
supporting the theater CINCs and providing homeland defense. 
Additionally, I am interested in hearing how you envision how our space 
assets will be used to support our military forces and our economic 
system.
    The world environment is always changing, and we must always review 
and update our national security strategy. I believe that it is 
extremely important that the United States remain aggressive in 
maintaining superiority in all elements of national power.
    So, gentlemen, I thank you for your service, and I look forward to 
hearing what you have to say.

    Chairman Levin. Thank you. We stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                     a true joint force capability
    1. Senator Levin. General Shelton, last week, retired General 
McCarthy, who headed the study on transformation, said that ``The 
Services are very, very capable but they still have not learned and 
have not trained and have not exercised sufficiently for us to claim 
that we have a true joint force capability.'' He also said that he was 
not advocating a new force but ``a new operational concept that 
establishes true jointness.''
    Why is it that almost 15 years after the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act, we still 
haven't been able to develop a true joint force capability?
    General Shelton. Since the signing of the Goldwater-Nichols Act, 
the international security environment has changed dramatically for the 
United States and our allies. We have transitioned from focusing all 
systems development and organizational alignment efforts against a 
single threat to now focusing on a much more complex capabilities-based 
approach to secure U.S. interests. Only since Operation Desert Storm/
Desert Shield and the reestablishment of a more secure Middle East 
region has the force been able to focus on the future. Moreover, our 
acquisition system will need continued reform to meet the demands of 
today's rapidly changing environment and the ever-increasing 
requirements for a more joint force.
    Realizing we still have a significant way to go, in the past 5 
years we have made great strides in establishing true jointness across 
Doctrine, Organization, Training, Materiel, Leadership and Education, 
Personnel and Facilities (DOTMLPF) by establishing the U.S. Joint 
Forces Command (USJFCOM) and evolving the role of the Joint 
Requirements Oversight Council (JROC). USJFCOM has become the single 
focal point for all joint training and joint experimentation.
    The JROC is the focal point for U.S. military transformation. This 
decision body, composed of the Vice Chairman of the Joint Chiefs of 
Staff, the Vice Chiefs of the three Services, and the Assistant 
Commandant of the Marine Corps, reviews and approves all requirements 
and programs of joint interest and implications. This is done to ensure 
that change recommendations are co-evolved across the DOTMLPF-spectrum 
and are developed with consideration for joint interests. As each 
Service replaces its Cold War legacy systems with future systems, the 
joint force achieves greater capability through the synergistic co-
evolution of DOTMLPF changes.
    Each Service has been and will continue to be focused on the 
development of its core competencies in the complex environment of the 
future. USJFCOM, in conjunction with all the regional and functional 
CINCs, is heavily involved in developing and experimenting the joint 
operational concepts of the present and future forces.

    2. Senator Levin. Secretary Rumsfeld, will one of the goals of the 
Quadrennial Defense Review be to develop a true joint force capability?
    Secretary Rumsfeld. Joint force capability is one of many key 
issues the QDR will address. The 2001 QDR will investigate options to 
acquire rapidly deployable joint forces for operations across the full 
spectrum of military missions.

                            experimentation
    3. Senator Levin. Secretary Rumsfeld, will experimentation play a 
prominent role in the development of the future military force of the 
United States?
    Secretary Rumsfeld. The Department of Defense is pursuing an 
ambitious transformation strategy aimed at ensuring U.S. military 
preeminence well into the next century. Critical to the success of this 
transformation are the Department's experimentation efforts. 
Experimentation--particularly joint experimentation--ensures that our 
transformation efforts are fully integrated from inception to 
implementation. Our goal is to develop and field systems, units, and 
capabilities that are ``born joint.'' More than just designing systems 
or developing concepts that facilitate an ability for our forces to 
work together and/or to share information, our joint experimentation 
initiatives seek to ensure total interoperability of our forces through 
linked systems, distributed/joint command and control architectures, 
and reachback connectivity. Our efforts will ensure that we field 
capabilities that will provide real-time, relevant information to 
widely dispersed forces, conducting either combat or contingency 
operations. Transformation of our military forces depends on robust 
experimentation to reduce unknowns and uncertainty about the operations 
of future joint forces.

    4. Senator Levin. General Shelton, virtually every expert agrees 
that robust experimentation, including joint experimentation, to 
investigate new organizations, operational concepts, and advanced 
technology is essential to achieve a military force best suited to the 
future security environment.
    Are you satisfied that sufficient resources are being made 
available for the Commander in Chief, U.S. Joint Forces Command, to 
conduct joint experimentation?
    General Shelton. In building the fiscal year 2002 budget, the 
requirements for joint experimentation were thoroughly reviewed at the 
highest levels of the Department. As reflected in the President's 
fiscal year 2002 budget submission, joint experimentation is properly 
resourced. We will review joint experimentation future requirements as 
we begin the fiscal year 2003 program and proceed with the Planning, 
Programming and Budgeting System.

                  ballistic missile threat commission
    5. Senator Levin. Secretary Rumsfeld, at the hearing, one of the 
members of the committee mentioned the Commission to Assess the 
Ballistic Missile Threat to the United States, which you chaired. The 
comment was made that the commission had recommended deployment of a 
missile defense to protect the United States. You have testified 
previously that the commission did not recommend any responses to the 
ballistic missile threat because that was not in the commission's 
charter.
    Could you clarify what the commission was tasked to do and whether 
the commission made any recommendations relative to the deployment of 
any ballistic missile defense systems?
    Secretary Rumsfeld. The commission was tasked by Congress in 
section 1323 of the National Defense Authorization Act for Fiscal Year 
1997 to ``assess the nature and magnitude of the existing and emerging 
ballistic missile threat to the United States'' and ``submit to 
Congress a report on its findings and conclusions.'' The commission was 
not tasked to, and did not make, any recommendations related to the 
deployment of any ballistic missile defense system.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
                            strategy review
    6. Senator Lieberman. Secretary Rumsfeld, is there a National 
Security Strategy?
    Secretary Rumsfeld. While there is not yet a new National Security 
Strategy, the Department is fully cognizant of the administration's 
emerging national security priorities and objectives, and will ensure 
that these are integrated into the new national defense strategy.


    7. Senator Lieberman. Secretary Rumsfeld, when will we see one?
    Secretary Rumsfeld. The administration will share the new National 
Security Strategy with Congress at the earliest opportunity.


    8. Senator Lieberman. Secretary Rumsfeld, can you explain the 
process you have put in place to conduct the strategy review?
    Secretary Rumsfeld. Working with senior military and civilian 
leadership, I have had an extensive number of detailed discussions and 
worked through some complex strategic issues. We have developed 
guidance in the form of the terms of reference to test some preliminary 
conclusions before making recommendations to the President or Congress.
    The Chairman, the Deputy Secretary, and I are leading the strategy 
review through a senior-level review group. This group is composed of 
the Service Secretaries, the Joint Chiefs of Staff, the Under 
Secretaries of Defense, and the Special Assistants. An executive 
working group supports the senior-level review group. We are overseeing 
a wide range of analysis across a number of areas, including strategy 
and force planning; military organizations and arrangements; 
capabilities and systems; space; information and intelligence; forces; 
personnel and readiness; and infrastructure.


    9. Senator Lieberman. Secretary Rumsfeld, how are the different 
pieces of the review connected?
    Secretary Rumsfeld. The senior-level review group and the executive 
working group are closely monitoring the work of the issue teams, and 
the teams themselves are interacting frequently to ensure their efforts 
are well-linked. In addition, the executive working group is seeing to 
the integration of the issue teams' products.


    10. Senator Lieberman. Secretary Rumsfeld, who is harmonizing the 
conflicting recommendations and how is that happening?
    Secretary Rumsfeld. The Deputy Secretary and I, along with the 
Joint Chiefs of Staff, the Service Secretaries, and senior civilian 
officials are reviewing the analysis and alternatives developed by the 
issue teams. We will be responsible for resolving any differences among 
their findings.


    11. Senator Lieberman. Secretary Rumsfeld, how will you vet your 
conclusions to get input and advice about the final product?
    Secretary Rumsfeld. I am not making any decisions alone. We--the 
Chairman of the Joint Chiefs of Staff, the Service Chiefs, the Service 
Secretaries, and my senior civilian advisors--will make decisions 
collectively. In addition, I am consulting closely with others in the 
administration and in Congress.


    12. Senator Lieberman. Secretary Rumsfeld, will the final product 
be a formal written strategy?
    Secretary Rumsfeld. The final product will contain a formal written 
defense strategy.


    13. Senator Lieberman. Secretary Rumsfeld, when will it be 
transmitted to Congress?
    Secretary Rumsfeld. The report of the Quadrennial Defense Review 
will be completed and transmitted to Congress as required by law.


    14. Senator Lieberman. Secretary Rumsfeld, what can we expect it to 
contain?
    Secretary Rumsfeld. In accordance with the National Defense 
Authorization Act for Fiscal Year 2000, the QDR will be a comprehensive 
examination of the national defense strategy, force structure, force 
modernization plans, infrastructure, budget plan, and other elements of 
the defense program with a view toward determining and expressing the 
defense strategy of the United States. The QDR process will integrate 
the results of a variety of studies and the views of the senior 
military and civilian leadership in the QDR process.


    15. Senator Lieberman. Secretary Rumsfeld, when will this strategy 
be translated into guidance to begin programming by the Services?
    Secretary Rumsfeld. The strategy review will be completed in the 
fall and will be translated into guidance for programming by the 
Services at that time.


    16. Senator Lieberman. Secretary Rumsfeld, will this be done before 
the fiscal year 2002 budget is submitted?
    Secretary Rumsfeld. No, the amended fiscal year 2002 budget was 
submitted on June 27. The QDR findings will be reflected in the fiscal 
year 2003 budget submission.


    17. Senator Lieberman. Secretary Rumsfeld, when will we be briefed 
on this guidance?
    Secretary Rumsfeld. I will brief members of Congress on findings of 
the QDR.


                      national security objectives
    18. Senator Lieberman. Secretary Rumsfeld, what are the national 
security objectives you have decided on that the strategy must achieve?
    Secretary Rumsfeld. The national security interests that the 
defense strategy must support include maintaining U.S. sovereignty, 
territorial integrity, and freedom; ensuring the safety of U.S. 
citizens at home and abroad; protecting critical national 
infrastructure; maintaining the security of allies and friends; 
preserving the stability of vital regions and precluding hostile 
domination of them; ensuring the security of international lines of 
communication; maintaining access to and assured use of global 
information and communications networks; and ensuring unfettered access 
to key markets and strategic resources.


                         changes to the threat
    19. Senator Lieberman. Secretary Rumsfeld, what are the changes to 
the threat that the strategy assumes over the next 10-15 years in form, 
location, and scale?
    Secretary Rumsfeld. It is difficult to know precisely who will 
threaten, or where, or when in the coming decades; it is less difficult 
to anticipate how we will be threatened. We know for example, that:

        <bullet> Our open borders and open societies make it easy and 
        inviting for terrorists to strike at our people where they live 
        and work;
        <bullet> Our dependence on computer-based information networks 
        makes those networks attractive targets for new forms of cyber-
        attack;
        <bullet> The ease with which potential adversaries can acquire 
        advanced conventional weapons will present us with new 
        challenges in conventional war and force projection, and may 
        give them new capabilities to deny the U.S. access to forward 
        bases; and
        <bullet> Our lack of defenses against ballistic missiles 
        creates incentives for missile proliferation which--combined 
        with the development of nuclear, biological, and chemical (NBC) 
        weapons of mass destruction--could give future adversaries the 
        incentive to try to hold our populations hostage to terror and 
        blackmail.

    We are also seeing another trend unfold, namely the increasing 
power, range, and sophistication of advanced conventional weapons. 
Future adversaries may use these capabilities to deny us access to 
distant theaters of operation, as well as to put at risk our territory, 
infrastructure, space assets, and population, as well as those of our 
friends and allies.


                             transformation
    20. Senator Lieberman. Secretary Rumsfeld, how do you define 
transformation?
    Secretary Rumsfeld. I define military transformation as the 
integration of technology, operational concepts, and organizational 
arrangements to achieve dramatic improvements in the conduct of 
military operations such that previous approaches are rendered 
ineffective or obsolete. The goal of our ongoing transformation effort 
emanates from what the evolving security environment and a responsive 
strategy demand from our military forces, thus answering the question, 
``Transformation to do what?''
    The Department can achieve such a transformation through research 
and development focused on the most promising technologies, selective 
development of plot systems or organizations that show promise for 
dramatic improvements in capability, service and joint experimentation 
with innovative concepts of operations, and the creation of joint 
organizational arrangements best suited to exploiting technological 
advances and operational concepts. In particular, the first phase of 
military transformation ought to (1) exploit the dramatic advances in 
acquiring and processing information to conduct network-centric, 
nonlinear military operations and (2) provide a wider range of options 
for countering emerging threats in the manner we choose.


    21. Senator Lieberman. Secretary Rumsfeld, what is your answer to 
why we should transform the world's best military? What geopolitical 
and technological opportunities do you see that argue for 
transformation?
    Secretary Rumsfeld. We should transform our force both because we 
have the opportunity to do so, and more importantly because it is 
imperative that we do so. Our opportunity is to make our great military 
even better than it already is. The preeminence our military currently 
enjoys affords a favorable time to transform for the challenges of the 
future. Moreover, as we have begun to harness the ongoing information 
and telecommunications revolutions, we have seen that we have only 
begun to tap into its tremendous potential. These technologies and 
others--when combined with innovative concepts of operations and 
appropriate organizational adjustments--will be great force multipliers 
that could reduce both the cost and risk of military operations.
    The imperative to change is equally clear. First, our current path 
is unsustainable. While our forces remain unrivalled, they are largely 
a downsized legacy of Cold War investment and therefore not optimized 
for the future security environment. Further, we must reverse the 
decline in readiness, replace or retire worn out equipment, purchase 
necessary spare parts, and manage the frequency of deployments. Second, 
we are seeing the emergence and proliferation of capabilities that we 
are increasingly challenged to counter effectively. In particular, we 
are seeing the proliferation of access denial technologies--such as 
weapons of mass destruction, ballistic missiles, space systems, and 
GPS-quality precision weapons--and increasingly diverse and 
sophisticated asymmetric strategies--such as terrorism, computer 
network attack, and covert or overt attacks on our space assets. Given 
these challenges, we must focus on the task of transforming the U.S. 
defense posture to stay ahead of and hedge against the uncertain 
eventualities of the future while continuing to meet current U.S. 
security responsibilities.


    22. Senator Lieberman. Secretary Rumsfeld, what organizational 
changes do you contemplate?
    Secretary Rumsfeld. This question is an important one that we are 
examining in the Quadrennial Defense Review and will continue to 
examine in our ongoing Joint and Service experimentation. Thus, it is 
too early to provide a definitive answer. That said, I can tell you 
that organizational changes will be tied to the capabilities we are 
transforming to achieve. For instance, we are studying how we can 
achieve increased jointness, particularly in our command and control. 
We also know that we have to design forces that are more capable of 
information operations and effective in all critical areas of the 
world. These forces must be capable of deploying into and sustaining 
themselves in anti-access environments and operating under the threat 
of covert or overt attack from nuclear, biological, and chemical 
weapons and their means of delivery, including ballistic and cruise 
missiles of all ranges.


    23. Senator Lieberman. Secretary Rumsfeld, what force structure and 
program changes will there be (e.g. should there be more emphasis on 
information systems, etc.)?
    Secretary Rumsfeld. This is an area we are examining very closely 
in our ongoing strategic review. Thus, it would be premature at this 
point to give you a specific answer. When the QDR is complete, I look 
forward to briefing you and your committee on our results and 
recommendations.


                           terms of reference
    24. Senator Lieberman. Secretary Rumsfeld, have you completed the 
terms of reference?
    Secretary Rumsfeld. Yes, the document containing guidance and terms 
of reference for the conduct of the QDR was signed on 22 June 2001.


    25. Senator Lieberman. Secretary Rumsfeld, do the terms of 
reference contain the defense strategy that emerged from your review?
    Secretary Rumsfeld. The terms of reference provide guidance in a 
number of areas, including the security environment, national security 
interests and objectives, and defense strategy, in order to establish a 
common approach for the QDR analysis and recommendations.


             10-year contingency reserve and the dod budget
    26. Senator Lieberman. Secretary Rumsfeld, the congressional budget 
resolution includes a 10-year ``contingency reserve'' of about $500 
billion, which in theory might be available for defense. In reality, it 
seems that much, and quite possibly all, of that reserve will be 
consumed by further tax cuts, the extension of expiring tax credits, 
higher spending on education, health, and other priorities. But even 
assuming for the moment, that the contingency reserve might be 
available for defense, given the way the tax bill was written, that 
reserve will amount to only about $34 billion over the fiscal years 
2002 to 2006.
    It is likely that no reserve funds will be available in fiscal year 
2003-2004. That means that the fiscal year 2003 defense budget--the 
first budget, we are told, that will fully reflect the administration's 
new defense plan--will have to propose a substantial cut in funding 
from the level likely to be enacted for fiscal year 2002.
    How can you reconcile this fact with administration's statements 
that ``help is on the way'' for the Defense Department? 
    Secretary Rumsfeld. DOD leaders are confident that the President 
will remain committed to the revitalization of America's defense 
posture and will allocate the appropriate resources to advance that 
aim. We will not have estimates of what future funding might be needed 
until the Quadrennial Defense Review is completed and its 
recommendations are reflected in the fiscal year 2003 budget and in 
out-year budget plans.


                   accuracy of future cost estimates
    27. Senator Lieberman. Secretary Rumsfeld, according to a report in 
Tuesday's USA Today, the three new Service Secretaries believe that 
substantial savings could be achieved through efficiency savings in the 
Defense Department, with one suggesting that savings of $5 to $30 
billion a year might be possible. I hope the Secretaries will all 
vigorously pursue such savings. But I think it is dangerous to assume 
that such savings will materialize and bank on those savings in DOD's 
plans.
    What will the Defense Department do to ensure that its future cost 
estimates are more realistic than its past estimates have been?
    Secretary Rumsfeld. Estimated savings will have to be well-
documented before they get reflected in actual budget requests. Our 
experience with base realignment and closure (BRAC) underlines the 
importance of sound cost savings data. Ultimately, BRAC estimates had 
to be substantiated by experts outside the Department. DOD leaders 
recognize that congressional oversight committees will demand 
substantiation of estimated cost savings.


    28. Senator Lieberman. Secretary Rumsfeld, specifically, will you 
assume cost growth in major acquisition programs more in line with 
historical experience, or continue to rely on current estimates--which 
according to CBO and others are too low?
    Secretary Rumsfeld. The Department has been criticized in the past 
for underestimating the cost of major acquisition programs. One of the 
key initiatives of this administration is to use more realistic cost 
estimates as a basis for our budget.
                                 ______
                                 
               Questions Submitted by Senator Max Cleland
                           sizing mechanisms
    29. Senator Cleland. Secretary Rumsfeld, will you recommend some 
sizing mechanism other than the two-MTW construct we have used since 
the end of the Cold War?
    Secretary Rumsfeld. We are exploring alternatives for force-sizing 
that reflect a broader range of contingencies than two MTWs. At this 
point in the review, I am not yet prepared to make a final 
recommendation. If we decide to move beyond the two-MTW force-sizing 
construct, it will be because we have found something better, not just 
to change for change's sake.


    30. Senator Cleland. Secretary Rumsfeld, if so, what is the new 
sizing mechanism and what changes to military force structure will you 
recommend based on this change?
    Secretary Rumsfeld. We are exploring alternatives for force sizing 
that reflect a broader range of military contingencies than two MTWs. 
The implications for force structure of this alternative approach are 
under discussion.


    31. Senator Cleland. Secretary Rumsfeld, describe your reasons for 
these recommendations?
    Secretary Rumsfeld. When one examines the two-MTW approach, several 
things stand out:

        <bullet> The erosion in the capability of the force means that 
        the risks we would face today and tomorrow are notably higher 
        than they would have been when the two-MTW standard was 
        established.
        <bullet> We have skimped on our people, doing harm to their 
        trust and confidence, as well as to the stability of the force.
        <bullet> We have under-invested in dealing with future risks. 
        We have failed to invest adequately in the advanced military 
        technologies we will need to meet the emerging threats of the 
        new century.
        <bullet> We have not addressed growing institutional risks--the 
        waste, inefficiency, and distrust that result from the way DOD 
        functions.
        <bullet> An approach that prepares for two major wars, by its 
        very nature, focuses military planning on the near-term, to the 
        detriment of preparing for longer-term threats.
        <bullet> In the decade since the two-MTW approach was 
        fashioned, we have not had two major regional wars, but we have 
        done a host of other things, such as Haiti, Bosnia, Kosovo, 
        non-combatant evacuations, humanitarian missions, and so on.

    All of this led our team to the conclusion that we owed it to the 
President and the country to ask whether the two nearly simultaneous 
MTW approach remains the best one for the period ahead.


      major unfunded requirements during general shelton's tenure
    32. Senator Cleland. General Shelton, outline briefly the major 
unfunded requirements you and the Service Chiefs have presented to this 
committee over your tenure as Chairman.
    General Shelton. Outlined below are the major unfunded requirements 
that the Service Chiefs and I have presented to this committee during 
my tenure as Chairman of the Joint Chiefs of Staff. With the 
outstanding assistance of this committee, we have made great strides to 
provide our men and women in uniform with the support needed to remain 
the best trained, best equipped, and the most powerful military force 
on the face of the earth.

        <bullet> Quality-of-Life Programs.

                <bullet> Military pay (including pay compensation/
                retirement reform/pay table reform)
                <bullet> Health care

                        <bullet> TRICARE contract funding
                        <bullet> Medical Care for our retirees

                <bullet> Housing

                        <bullet> Military housing/barracks (but we are 
                        not done yet)
                        <bullet> Housing allowances

                          <bullet> Funds to reduce out-of-pocket (OOP) 
                        costs for off-base housing

        <bullet> Readiness.

                <bullet> Modernization

                        <bullet> Shortfall for force structure 
                        recapitalization and for transformational 
                        Research and Development

                <bullet> Operations

                        <bullet> Increased cost of flying hours, tank 
                        miles, and steaming days
                        <bullet> Spare parts, readiness training, and 
                        personnel shortfalls
                        <bullet> Weapon systems maintenance and repair 
                        <bullet> Force protection capabilities 
                        improvements

                <bullet> Infrastructure

                        <bullet> Growing backlog of facilities 
                        maintenance requirements and replacement


                           levels of funding
    33. Senator Cleland. General Shelton, do you regard current levels 
of funding for military pay, housing, property maintenance, equipment 
recapitalization, and procurement as adequate?
    General Shelton. No, current levels are not adequate. President 
Bush's amended fiscal year 2002 defense budget request includes 
increases in many of these under funded areas. However, that is just 
the beginning. We will continue to require increased funding to achieve 
high morale, attract and retain quality personnel, ensure sound force 
readiness, and develop and field decisively superior combat systems.


              national missile defense vs. missile defense
    34. Senator Cleland. Secretary Rumsfeld, do you advocate that we 
change our reference from ``national missile defense'' to ``missile 
defense''?
    Secretary Rumsfeld. Yes. I do advocate changing our reference from 
national missile defense to missile defense.


    35. Senator Cleland. Secretary Rumsfeld, if so, why?
    Secretary Rumsfeld. The President has said we will deploy defenses 
capable of defending the U.S., our deployed forces, our allies, and 
friends. Whether a particular system is a ``national'' system or a 
``theater'' system depends on where you live and how close you are to 
the threat. Some systems--the boost-phase system for instance--may be 
effective against short-, medium-, and long-range ballistic missiles, 
whether they are directed at the United States or at allies in the 
theater. These systems should be used where they are most effective.


                               technology
    36. Senator Cleland. Secretary Rumsfeld, are you aware that, even 
though it is true that the technologies supporting national and theater 
missile defense are similar, Lieutenant General Kadish himself has said 
that the engineering of the systems is different?
    Secretary Rumsfeld. I agree, but I have great confidence in our 
ability to solve the engineering challenges we face against all ranges 
of threats, from short- to long-range.


              integrated flight tests and deployment dates
    37. Senator Cleland. Secretary Rumsfeld, isn't it true that there 
has not been a single integrated flight test of a missile defense 
system since last summer?
    Secretary Rumsfeld. Yes. Integrated Flight Test 5 (IFT-5) occurred 
on July 7, 2000. (Flight Test 6 (IFT-6) achieved a successful intercept 
on July 14, 2001.) However, it is important to emphasize that our 
approach to understanding an integrated missile defense system is based 
upon much more than the high visibility intercept tests such as IFT-5. 
For example, the risk reduction flights where the BMD system elements 
observe regularly scheduled Minuteman flights provide valuable insights 
into integrated performance. Risk Reduction Flights 9 and 10 occurred 
in September 28, 2000 and Risk Reduction Flight 11 occurred in February 
7, 2001.
    An important element to achieving test capability and to 
understanding integrated performance will be the BMD test bed. The BMD 
test bed will integrate boost, midcourse, and terminal element defenses 
as well as sensor and battle management, command, control, and 
communications from sites in the Pacific, Alaska and western United 
States. Over time, the test bed will help demonstrate weapons and 
sensor capabilities across the entire BMD program as they are made 
available. As part of the BMD test bed, development starts in fiscal 
year 2002 on a prototype ground support capability, to include launch 
facilities, interceptor integration facility, sensors, and networked 
communications. This includes five ground-based silos at Fort Greely, 
Alaska.


    38. Senator Cleland. Secretary Rumsfeld, isn't it also true that, 
according to the Ballistic Missile Defense Organization, the earliest, 
``high-risk'' deployment is: 2009 for airborne laser; 2010 for sea-
based systems; and 2006 for a ground-based system designed to intercept 
a missile in mid-course?
    Secretary Rumsfeld. We need planning dates for our activities, and 
the timeframes you state are part of any planning process. I want to 
emphasize, however, that any date ``certain'' for these activities 
whether it's characterized as high-risk or low-risk is problematical. 
This is an unprecedented technology development program designed to 
pursue the technological solutions to missile defense that hold the 
most promise. Any ``deployment'' dates that are planned at this time 
are inherently uncertain. That's why we have incorporated the idea of 
``emergency'' capabilities that might bridge the gap between RDT&E and 
deployed capability.


    39. Senator Cleland. Secretary Rumsfeld, General Larry Welch, 
Chairman of the NMD Independent Review Team, stated in congressional 
testimony last July that we are not technically ready to decide whether 
or not to deploy a missile defense. Welch gave 2003 as the earliest 
possible decision point.
    Are you aware of any verifiable, scientific evidence to support any 
different decision point?
    Secretary Rumsfeld. No.


                          airlift requirements
    40. Senator Cleland. Secretary Rumsfeld, are you aware that the 
Commander in Chief of U.S. Transportation Command has stated that the 
change from a two-MTW sizing mechanism to the so-called ``one-plus'' 
mechanism will not affect the military's stated requirement (54.5 
million-ton-miles per day) for airlift?
    Secretary Rumsfeld. Yes, I have discussed the Department's airlift 
situation and capabilities with General Robertson on several occasions.


    41. Senator Cleland. Secretary Rumsfeld, do you concur with this 
assessment?
    Secretary Rumsfeld. The recent Mobility Requirements Study is the 
most exhaustive mobility study to date. It provides a comprehensive 
assessment of our overall mobility requirements in a variety of 
scenarios, including two nearly-simultaneous MTWs. The study shows that 
under certain extremely demanding conditions we have insufficient 
airlift assets to meet the requirement, and recommends a program to 
develop between 51.5 and 54.5 million-ton-miles per day of airlift 
capacity. Airlift capacity certainly remains a vital element of our 
national military strategy, and is receiving careful consideration in 
the QDR to support balancing our mobility requirement against other 
strategic risks and affordability decisions. In general, I am inclined 
to agree that a shift from the two-MTW sizing construct itself will not 
significantly reduce our lift requirements, but changes in other 
planning factors might increase or decrease lift requirement. After the 
defense strategy is agreed upon and in place more detailed analysis of 
lift requirements will probably be desirable.


                    nmd deployment readiness review
    42. Senator Cleland. Secretary Rumsfeld, I request that you provide 
my office and the Senate Armed Services Committee with copies of the 
August 2000 National Missile Defense Deployment Readiness Review.
    Secretary Rumsfeld. A copy of this report was provided to the 
Chairman of the Senate Armed Services Committee by the Department of 
Defense on May 31 of this year. A copy of the cover letter is enclosed.

                             Department of Defense,
                                 Office of General Counsel,
                                      Washington, DC, May 31, 2001.
The Honorable John W. Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: The attached August 2000 Report in Support of 
the National Missile Defense Deployment Readiness Review as prepared by 
the former Director, Operational Test and Evaluation, Mr. Philip Coyle, 
is provided by the Department of Defense as a matter of discretion for 
use by the committee for its oversight purposes.
    The Department of Defense has not, however, approved the release of 
this report to the general public. Accordingly, the report should not 
be disclosed to persons other than Members of Congress and professional 
staff members who have an official need to see it. The discretionary 
release of this particular report is in response to a request from the 
House of Representatives Committee on Government Reform and Oversight. 
This release does not waive any privilege and it does not constitute a 
public release.
    Additionally, the discretionary release of this report should not 
be construed as a waiver of any future exercise of executive privilege 
or any other lawful grounds to deny release of reports of this nature.
    If you have any questions, please feel free to contact Colonel Don 
Curry in Legislative Affairs at (703) 695-4132.
            Sincerely,
                                    Stewart F. Aly,
                              Acting Deputy General Counsel
                                                    (Legal Counsel)
Copy Furnished:
The Honorable Carl Levin.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                            chinese missiles
    43. Senator Akaka. Secretary Rumsfeld, has the Defense Department 
made an assessment as to whether or not the number of missiles and 
warheads that China intends to deploy would be affected by an American 
decision to deploy a TMD in Asia or an NMD system?
    Secretary Rumsfeld. [Deleted.]


    44. Senator Akaka. Secretary Rumsfeld, in other words would China 
likely increase the number of missiles and warheads in response to a 
new American capability? 
    Secretary Rumsfeld. [Deleted.]


    45. Senator Akaka. Secretary Rumsfeld, if there has been such an 
assessment, what is it, and if there has been no such assessment, does 
the Defense Department (including the Defense Intelligence Agency) 
intend to carry out such an assessment?
    Secretary Rumsfeld. The national intelligence estimate noted above 
[deleted].


    46. Senator Akaka. Secretary Rumsfeld, does the Defense 
Intelligence Agency believe that China can deploy, with a high degree 
of confidence, new nuclear warheads on its new mobile, intercontinental 
missiles without testing those warheads?
    Secretary Rumsfeld. [Deleted.]


                   abm treaty and strategic stability
    47. Senator Akaka. Secretary Rumsfeld, in response to Senator 
Levin's questions on the ABM Treaty, you indicated that a treaty that 
is 30 years old should not be the cornerstone of our arms control 
strategy in the 21st century. If not the ABM Treaty, what arms control 
agreements--either old or prospective ones--would you recommend be the 
cornerstones of our strategy in this century? 
    Secretary Rumsfeld. The administration intends to construct a new 
strategic framework that reflects the realities of the post-Cold War 
world and not the Cold War adversarial relationship premised on 
distrust and mutual vulnerability. The world has changed 
fundamentally--Russia is not the Soviet Union and not an enemy--and the 
rationale for Cold War arrangements no longer exists. As part of a 
comprehensive strategy to protect against the threats of the 21st 
century, we need a new concept of deterrence that includes both 
offensive and defensive forces. The new framework will reflect a clean 
break from the Cold War, and will not be based on the 1972 ABM Treaty. 
Instead, it will be premised on openness, mutual confidence, and real 
opportunities for cooperation. The new framework will also include 
substantial reductions in offensive nuclear forces, cooperation on 
missile defense, enhanced non- and counter-proliferation efforts, and 
measures to promote confidence and transparency.


                             future threats
    48. Senator Akaka. Secretary Rumsfeld, has your office been briefed 
by the Defense Intelligence Agency's Futures Group on emerging threats?
    Secretary Rumsfeld. DIA has provided its Future Threats and 
Challenges briefing directly to OSD seniors, including the Principal 
Deputy Under Secretary of Defense for Policy (Dr. Cambone), the Special 
Assistant to the Secretary (Mr. Haver), the Deputy Assistant Secretary 
of Defense for Strategy (Mr. Hoehn), and the Deputy Assistant Secretary 
of Defense for Requirements & Plans (Dr. Lamb). Also, between February 
and December 2000, in anticipation of the upcoming QDR, DIA presented 
some 25 topical future threat briefings to a panel of senior (SES-
level) OSD career civil servants and their flag-level Joint Staff 
counterparts. Many of those officials are involved in the ongoing 
defense review.


    49. Senator Akaka. Secretary Rumsfeld, if so, was their assessment 
of future threats incorporated in your current defense review? 
    Secretary Rumsfeld. DIA has been a part of the analytic process and 
elements of DIA's future threat assessment have been incorporated into 
the ongoing defense review. DIA provided direct support to several of 
the pre-QDR analytic projects that took place in the January to May 
2001 timeframe. Since then, DIA has reviewed and commented on both the 
QDR terms of reference and the QDR illustrative planning scenarios. A 
senior DIA representative attends meetings of the QDR Executive Working 
Group, and DIA has provided substantive intelligence support as 
required to several of the QDR integrated process teams.


         expend1tures on counter-terrorism and missile defense 
    50. Senator Akaka. Secretary Rumsfeld, Senator Cleland voiced his 
concern over your focus on ICBMs as the most pressing risk we face from 
weapons of mass destruction, perhaps at the expense of other threats. 
Many experts, including Senator Nunn, view suitcase or truck bombs to 
be a more immediate threat. You responded to his concerns by stating 
that you recognize that terrorism is another threat and that the U.S. 
is currently spending more on terrorism than on missile defense.
    Could you provide a breakdown of expenditures on counter-terrorism 
programs and missile defense?
    Secretary Rumsfeld. The DOD will spend approximately $4,579.5 
million in fiscal year 2001 for combating terrorism (vice 
counterterrorism). The Department of Defense's funding in support of 
combating terrorism (CbT) encompasses multiple actions and budget 
categories. Shown below is funding by category:

                       [TOA, Dollars in Millions]
------------------------------------------------------------------------
                                                                Fiscal
                Combating Terrorism Category                   Year 2001
------------------------------------------------------------------------
Antiterrorism...............................................     3,573.7
Counterterrorism............................................       545.8
Terrorism Consequence Management............................       352.9
Intelligence................................................       143.1
                                                             -----------
  Total.....................................................     4,579.5
------------------------------------------------------------------------

    The total U.S. funding estimate for combating terrorism is nearly 
double the amount of DOD support. According to the Office of Management 
and Budget, this information will soon be available once the 
``Executive Office of the President Annual Report to Congress on 
Combating Terrorism'' is finalized.
    The budget estimate for missile defense in fiscal year 2001 is 
$4,762.9 million. Shown below is the estimate by category:

                       [TOA, Dollars in Millions]
------------------------------------------------------------------------
                                                                Fiscal
                  Ballistic Missile Defense                    Year 2001
------------------------------------------------------------------------
National Missile Defense....................................     1,932.0
Navy Theater Wide...........................................       457.4
Theater High Altitude Area Defense..........................       543.7
PAC-3.......................................................       442.9
Navy Area Theater Ballistic Missile Defense.................       271.6
Medium Extended Area Defense System.........................        52.8
Other.......................................................     1,062.5
                                                             -----------
  Total.....................................................     4,762.9
------------------------------------------------------------------------



                 nmd operational requirements document
    51. Senator Akaka. Secretary Rumsfeld, has the administration 
changed the Operational Requirements Document (ORD)?
    Secretary Rumsfeld. The current NMD ORD is dated May 23, 2000. 
There have been no changes to the ORD since then. However, we believe 
that building missile defense according to an ORD is not the best way 
to achieve an effective missile defense capability at the earliest 
possible date. Therefore, we are adopting a capability-based approach 
to development ballistic missile defenses.
    The business of missile defense requires coping with a number of 
technological, developmental, acquisition, and threat uncertainties. 
Under the previous program, we followed a traditional acquisition 
approach, with design-to-threat requirements for our missile defense 
systems set by the Services. We realized early in our missile defense 
review that we needed an acquisition approach that recognized the 
reality that BMD requirements were without precedent, difficult to know 
with certainty, and that meeting those requirements depended almost 
entirely on capabilities that could only be achieved incrementally 
through an evolutionary development approach.
    In response to these constraints, we have adopted a capability-
based approach. This approach recognizes that changes will occur along 
two separate axes. On one axis, the threat will evolve and change over 
time based on the emergence of new technologies, new missile states, 
and the operational and technical adjustments adversaries might make 
(to include the appearance of countermeasures) in response to the 
deployment of our BMD system. On the other axis lies another series of 
likely changes we will experience, including: improvements in our BMD 
technologies; incremental system enhancements; evolving views of system 
affordability; and decisions to expand areas requiring defensive 
protection, to include potential territories of our allies and friends. 
Since we do not know the details of the architecture that we will use 
to build the system, and given the evolutionary nature of our approach, 
we are not in a good position to follow the conventional build-to-
requirements acquisition process. The BMD system will take shape over 
time based on the successful demonstration of technologies in our 
testing program.
    The capability-based approach provides capabilities to the user as 
they are achieved. We believe it will permit the achievement of best 
value in capability as soon as possible.


               abm treaty provisions for new technologies
    52. Senator Akaka. Secretary Rumsfeld, you stated several times 
that the ABM Treaty will prevent us from testing and developing a 
national missile defense system required to protect our Nation and our 
allies.
    Doesn't the ABM Treaty provide for consultation and amendments 
specifically for future technology bringing forth new ABM systems 
``based on other physical principles?''
    Secretary Rumsfeld. Agreed Statement D of the ABM Treaty provides 
that, in the event ABM systems based on other physical principles (OPP) 
are created in the future, specific limitations on such systems and 
their components would be subject to discussion and agreement. However, 
Agreed Statement D has been interpreted as applying only to fixed, 
land-based systems while the missile defense systems we are exploring 
also include sea-based, air-based, and space-based systems, the 
development, testing, and deployment of which are prohibited by Article 
V. Moreover, regardless of the basing modes or physical principles 
involved, the treaty prohibits a nationwide defense of the U.S. 
territory and the American people.


                              space policy
    53. Senator Akaka. Secretary Rumsfeld, on May 8, you announced your 
plans to implement the Space Commission recommendations to Congress. At 
that time, you denied that these changes were designed to lay the 
groundwork for orbiting space weapons. Yesterday, General Anderson, 
Deputy Commander of the U.S. Space Command, told the House Armed 
Services Military Procurement and Military Research Subcommittees that 
you had tasked them to ``plan for force application from space.'' He 
stated that even though we are precluded at this time from deploying 
weapons in space, we must prepare now to push up ``the space 
superiority throttle.'' General Anderson went on to state that, ``the 
mere fact that the United States is developing means to employ force in 
space may serve as a significant deterrent.'' I appreciate the need to 
protect our space assets.
    Is the Defense Department at all concerned that such planning could 
serve as a call for other nations to develop their own space weapons 
capabilities and lead to an arms race in space?
    Secretary Rumsfeld. No. Conducting planning to be able to carry out 
the missions assigned to the Commander in Chief of U.S. Space Command 
will not serve as a call for other nations to develop their own space 
weapons capabilities or lead to an arms race in space.


    54. Senator Akaka. Secretary Rumsfeld, if this is not a concern, 
why isn't it?
    Secretary Rumsfeld. There already is ample evidence that other 
nations and entities are pursuing the means to threaten our space 
assets. For example, hackers are continuously probing the Department's 
computer networks, Russia is selling systems to interfere with the 
Global Positioning System on the international market, and the Xinhua 
News Agency has reported that the Chinese military is developing 
methods and strategies for defeating the U.S. in a high-tech space-
based future war. These actions are not being pursued because of the 
planning U.S. Space Command is conducting to be able to carry out its 
assigned missions.


    55. Senator Akaka. Secretary Rumsfeld, many of the capabilities 
that General Anderson mentioned at the House Armed Services Committee 
hearing dealt with both ensuring our use of space when we want it and 
denying it to others when we feel it necessary. One of the provisions 
of the ABM Treaty states that parties will undertake not to interfere 
with the national technical means of verification. General Anderson's 
comments about denying the use of space to others, specifically denying 
their use of surveillance satellites, would constitute interfering with 
the technical means of another country.
    Is one of the administration's reasons for wishing to abrogate the 
ABM Treaty motivated in part by the restrictions it places on anti-
satellite weapons?
    Secretary Rumsfeld. No, as the President has said, we need to move 
beyond the ABM Treaty because it prohibits us from pursuing promising 
new missile defense technologies.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                 abm treaty and missile defense testing
    56. Senator Bill Nelson. Secretary Rumsfeld, why and how would the 
testing of a missile defense system break the ABM Treaty?
    Secretary Rumsfeld. These are complex questions that depend, in 
large part, on the details of a specific test and may involve a number 
of ABM Treaty provisions. Generally, the ABM Treaty restricts testing 
of ABM systems to fixed, land-based systems at established test ranges. 
It specifically prohibits the testing (as well as the development or 
deployment) of mobile ABM systems (e.g., sea-, air-, or space-based). 
Under the treaty, only limited, preliminary testing, such as 
demonstrating technical feasibility, could be done. The ABM Treaty also 
prohibits testing non-ABM interceptor missiles, radars, and launchers 
``in an ABM mode'' (i.e., to determine their capabilities to counter 
strategic ballistic missiles), which would preclude them from being 
tested against strategic ballistic missiles. In short, the testing 
needed to fully attain effective capabilities in multiple basing modes 
against longer-range missiles is prohibited by the treaty.


    57. Senator Bill Nelson. Secretary Rumsfeld, would the ballistic 
missile testing from Aegis ships violate the ABM Treaty?
    Secretary Rumsfeld. The question of whether ballistic missile 
defense testing from Aegis ships would violate the ABM Treaty is 
complex, depending on the details of a specific test, and may involve a 
number of ABM Treaty provisions. The ABM Treaty does not restrict 
testing of non-ABM radars, interceptors, and launchers (which make up 
the current Aegis weapon system) against shorter-range (i.e., non-
strategic) ballistic missiles. The testing conducted to date from Aegis 
ships has been compliant with the ABM Treaty. However, the ABM Treaty 
prohibits giving non-ABM radars, interceptors, and launchers 
capabilities to counter strategic ballistic missiles, or testing them 
``in an ABM mode'' (i.e., to determine their capabilities to counter 
strategic ballistic missiles) such as by testing them against strategic 
ballistic missiles. The treaty also prohibits testing (as well as 
development or deployment) of sea-based ABM interceptors, radars, and 
launchers, and thus would prohibit testing such components aboard Aegis 
(or other) ships. Since a goal of our missile defense program is to 
provide Aegis with the capability to defend against longer-range 
ballistic missiles, we will have to go beyond the testing permitted by 
the ABM Treaty to fully attain that capability.


    58. Senator Bill Nelson. Secretary Rumsfeld, would the testing of 
the airborne laser (ABL) on a theater ballistic missile be a violation 
of the ABM Treaty?
    Secretary Rumsfeld. Whether the testing of ABL against a theater 
ballistic missile would violate the ABM Treaty is a complex question, 
depending mainly on the ABL's capabilities. The ABL has been intended 
to be a system to counter theater ballistic missiles, i.e., a non-ABM 
system. The ABM Treaty does not constrain air-based non-ABM systems, 
nor their testing against theater (i.e., non-strategic) ballistic 
missiles. However, the treaty does prohibit development, testing and 
deployment of air-based ABM systems that have the capability to counter 
strategic ballistic missiles. Thus, the issue will be whether ABL will 
have the capability to counter strategic ballistic missiles at the time 
it is tested, regardless of whether that testing is only against a 
theater ballistic missile. However, the first ABL test against a 
ballistic missile is still 2 years away.


    59. Senator Bill Nelson. Secretary Rumsfeld, will the planned 
flight test between the Marshall Islands and Vandenberg AFB violate the 
ABM Treaty?
    Secretary Rumsfeld. All currently planned integrated flight tests 
(IFTs) involve land-based ABM interceptor missiles launched from the 
Kwajelein ABM Test Range in the Marshall Islands against strategic 
ballistic missile targets launched from Vandenberg AFB, with mid-course 
intercept planned to occur above the Pacific. All IFTs to date were 
determined to be compliant with the ABM Treaty. As future tests are 
defined, compliance determinations will be made for each individual 
test.


    60. Senator Bill Nelson. Secretary Rumsfeld, at what point, either 
during research and development or during the planned IFTs, would we 
violate the ABM Treaty?
    Secretary Rumsfeld. Previous IFTs were all determined to be 
compliant with the ABM Treaty. As future tests are defined, compliance 
determinations will be made for each individual test.
    With respect to other research and development activities, we are 
expanding our program to add tests of various technologies and basing 
modes that, at some point, will encounter the constraints imposed by 
the ABM Treaty. We have not yet determined what that point will be, but 
it is likely to occur in months rather than years.


    61. Senator Bill Nelson. Secretary Rumsfeld, would the 
administration propose deployment of a missile defense system if it 
does not pass adequate tests?
    Secretary Rumsfeld. No. However, rudimentary defense systems that 
have not fully completed their development test schedule or that are 
substantially less than 100 percent effective can help deter threats 
and defend against attacks. We should not face an all-or-nothing choice 
in missile defense any more than we do regarding other defense 
programs.


                     missile defense consultations
    62. Senator Bill Nelson. Secretary Rumsfeld, will you participate 
in the decision-making process of deployment of such a system, 
considering the level of diplomacy required to ensure such a system 
actually improves global security?
    Secretary Rumsfeld. I will be a principal advisor to the President 
during the decision-making process regarding the deployment of a 
missile defense system. I agree that the level of diplomacy necessary 
to convince our friends and allies that missile defense is a key 
component of deterrence is significant, and I believe a limited missile 
defense system will enhance global security.


              impact of missile defense on global security
    63. Senator Bill Nelson. Secretary Rumsfeld, would the 
administration deploy a missile defense system if, in your judgment, it 
decreases global security?
    Secretary Rumsfeld. No, but at this time I can not envision a 
limited system that would decrease global security.


                                vieques
    64. Senator Bill Nelson. Secretary Rumsfeld, what is the advantage 
of canceling the referendum on Vieques? If the people vote for the Navy 
to leave, you have the same result.
    Secretary Rumsfeld. The advantage of canceling the referendum is 
that matters pertaining to this training range will be decided by the 
Secretary of the Navy. Also we will have avoided a potentially 
counterproductive precedent to the much larger issue of training range 
encroachment.


    65. Senator Bill Nelson. Secretary Rumsfeld, are you asking us to 
repeal the legislation that mandates the referendum in November? I'm 
not convinced that would be the best course.
    Secretary Rumsfeld. The National Defense Authorization Act for 
Fiscal Year 2001, requiring a referendum on the island to decide 
whether the Navy and Marine Corps can continue to train there, has put 
the Department of the Navy in the challenging situation of having fleet 
training and readiness being decided to some extent by local 
referendum. In view of this the Secretary of the Navy decided to 
aggressively pursue suitable training alternatives now.


    66. Senator Bill Nelson. Secretary Rumsfeld, wouldn't both the 
people of Vieques and the Navy believe they got a fair shake if the 
referendum is allowed to go forward?
    Secretary Rumsfeld. I don't think I can speak for the people of 
Vieques. However, as Secretary of Defense, I believe it is in the best 
interests of the Nation that matters relating to national defense be 
decided at the national level.


    67. Senator Bill Nelson. Secretary Rumsfeld, what contingencies 
does the Navy have to deal with a departure from Vieques prior to May 
2003 if that becomes necessary?
    Secretary Rumsfeld. There are currently no singular satisfactory 
alternatives to Vieques. Between now and May 2003, Navy is working to 
develop the best possible combination of methods and places to replace 
Vieques.
                                 ______
                                 
               Questions Submitted by Senator Mark Dayton
                 educational opportunities directorate
    68. Senator Dayton. Secretary Rumsfeld, is it your intention to 
fully support the Educational Opportunities Directorate and its mission 
to serve military children being educated in our public school system?
    Secretary Rumsfeld. The Educational Opportunities Directorate (EOD) 
was established about a year ago to address educational issues related 
to the fact that school-aged children of military personnel relocate an 
inordinate number of times, following their military sponsors overseas 
and from state to state. While DOD operates schools for about 110,000 
of its military dependent students, most of an additional 600,000 
attend public schools in states that each have their own testing and 
graduation requirements, policies regarding transfer of credit, school 
year calendars, and unique class schedules.
    The EOD is working with school districts, especially those that 
serve large populations of military dependent students, to align 
policies and practices so as to ease students' transitions from one 
school system to another.
    I support the Department's efforts to diminish the negative impact 
on children and families when military members move to new duty 
assignments. The new directorate also provides us with the opportunity 
to consolidate in one office a number of personnel that deal with other 
education-related policies and programs. These include the off-duty, 
Voluntary Education Program for military personnel and their families, 
special needs and the Exceptional Family Member Program, Troops-to-
Teachers, Impact Aid, and the Transition Program for Separating 
Servicemembers.


                                crusader
    69. Senator Dayton. Secretary Rumsfeld, in a recent hearing, both 
the Secretary of the Army and the Chief of Staff of the Army spoke 
quite favorably about the Crusader weapon system. At this point, have 
you made a determination about the Crusader's future?
    Secretary Rumsfeld. Crusader will provide decisive overmatch while 
the Army transforms to the Objective Force. It contains more than two-
dozen cutting-edge technologies that are currently nonexistent in our 
force and would serve as a developmental bridge as we continue to 
transform our forces for the future. It would provide the Joint Force 
Commander with continuous, immediate, all-weather, 360-degree precision 
fires at unprecedented ranges and sustained rates of fire. The national 
security review is ongoing and no final decisions have been made 
regarding Crusader or any other weapons systems. We will continue to 
evaluate as we consider our future strategy and investments.


                      optempo and quality of life
    70. Senator Dayton. General Shelton, does the defense strategy 
review attempt to address the optempo and quality of life issues that 
may affect our servicemembers?
    General Shelton. Yes. The Quadrennial Defense Review (QDR) will 
give us an opportunity to assess our requirements including ways to 
reduce optempo and improve quality of life for our troops. A QDR goal 
is to recommend a force structure that will be able to execute 
successfully the full range of missions called for in the national 
defense strategy without creating an optempo that creates significant 
morale or retention shortfalls. As I have stated in previous testimony, 
optempo and quality of life are two of my top priority issues.


    71. Senator Dayton. General Shelton, do you see optempo and quality 
of life issues as high priorities during the review?
    General Shelton. Optempo and quality of life issues are high 
priorities during the review process. We have to fix some of those 
parts of the force that are overworked and over-utilized and this 
review will hopefully find some innovative solutions.
                                 ______
                                 
               Questions Submitted by Senator John Warner
                       operations other than war
    72. Senator Warner. Secretary Rumsfeld and General Shelton, since 
the end of the Cold War, our forces have been employed in more 
frequent, complex, and varied operations and contingencies.
    In your view, what are the appropriate uses of the U.S. military 
for missions short of major war?
    Secretary Rumsfeld. U.S. combat troops should generally be reserved 
for the most significant strategic challenges to the international 
order. U.S. forces' participation in peace operations can serve the 
national interest, for example by securing the environment in which 
civil implementation of peacekeeping arrangements can take place. Such 
participation can also strengthen military skills in areas such as 
coalition operations, logistics, communications, engineering, medical 
support, small unit leadership, and civil affairs.
    In cases of significant humanitarian crises, we should seek as a 
first resort to help develop mechanisms whereby other nations can work 
together and take the leading responsibility. The United States may be 
willing to provide assistance but others should take the lead wherever 
possible.
    General Shelton. The military defends and supports U.S. interests 
through the application of decisive power in defending the U.S. 
homeland and fighting and winning the Nation's wars. Also, the position 
of the United States as a global power in conjunction with the current 
and future security environment creates a requirement for the National 
Command Authorities to consider using the Armed Forces to participate 
in multiple small-scale contingencies and conduct peacetime engagement 
activities. For this reason, military strategy must focus on the entire 
spectrum of military operations. 
    Finally, let me add that the primary goal of the QDR is to 
recommend sufficient force structure and resources to carry out our 
national defense strategy. As I have testified on previous occasions, 
we won't be satisfied until a strategy-force balance is achieved. We 
owe that to our great soldiers, sailors, airmen, and marines--and we 
owe that to our country.


    73. Senator Warner. Secretary Rumsfeld and General Shelton, what 
will be your criteria for deciding whether to recommend deployment of 
U.S. forces for such missions?
    Secretary Rumsfeld. The use of U.S. military forces is one of the 
most important decisions a President can take. It is an issue for the 
President and his national security team, not the Secretary of Defense 
alone. Each case is unique. In the end, each case must be decided by 
the President, having been informed by discussions with his national 
security team.
    Some of the questions that should be discussed when considering the 
use of force include:

        <bullet> Are the goals achievable?
        <bullet> Do we have the resources?
        <bullet> What interests are at stake?
        <bullet> Are there constraints, such as the command structure, 
        that will impact how we can carry out the operation?
        <bullet> How would we characterize success?

    General Shelton. I hesitate to explicitly list criteria because of 
the danger of it being used as a checklist. However, some of the issues 
that would inform my judgment are:
    I will recommend deployment of U.S. forces for operations other 
than war when I think that the military is the appropriate tool of 
national power to protect our national or humanitarian interests. The 
criteria that I consider include: assessing whether the costs and risks 
of the deployment are commensurate with the national interest that is 
at stake; whether we have clearly defined achievable objectives; and 
whether we have a desired end-state in mind that will guide us in a 
decision to terminate the deployment.
    Additional criteria include: if the scale of a humanitarian 
catastrophe dwarfs the ability of other government or civilian agencies 
to respond; when the need for relief is urgent and only the military 
has the ability to provide an immediate response that would result in 
lives and resources being saved; when the military is needed to 
establish the conditions for the use of other elements of national 
power; when a humanitarian crises could affect U.S. combat operations; 
or when a response requires unique military capabilities.
    The military normally is not the best tool for humanitarian 
concerns, but under certain conditions the military may be the best 
tool of national power to further national interests.


    74. Senator Warner. Secretary Rumsfeld and General Shelton, how 
much and what kind of military involvement should there be in other 
contingencies and in peacetime engagement activities?
    Secretary Rumsfeld. In the decade since the end of the Cold War, 
the United States has been involved in a host of contingencies short of 
war, such as Haiti, Bosnia, Kosovo, non-combatant evacuations, 
humanitarian missions, and a wide range of peacetime engagement 
activities.
    U.S. combat troops should generally be reserved for the most 
significant strategic challenges to the international order. 
Nevertheless, to meet our defense policy goals of assuring allies and 
dissuading and deterring potential adversaries, it may be in our 
national interest to conduct selected contingencies short of war. The 
numbers and types of such operations involving U.S. military forces 
will be determined on a case-by-case basis, depending on, among other 
things, the national interests at stake, whether the goals of the 
mission are achievable, and the availability of resources.
    General Shelton. The answer depends upon such factors as the 
national interests involved, the specific contingency or peacetime 
engagement activity, whether other tools of national power are 
appropriate to use, and whether civilian agencies and/or allies are 
involved. Contingencies and peacetime engagement activities are 
operations that are part of the full range of military operations.
    The full range of operations includes maintaining a posture of 
strategic deterrence. It includes conflict involving employment of 
strategic forces and weapons of mass destruction, major theater wars, 
regional conflicts, smaller-scale contingencies, and theater engagement 
and presence activities. It also includes those ambiguous situations 
residing between peace and war, such as peacekeeping and peace 
enforcement operations, as well as noncombat humanitarian relief 
operations and support to domestic authorities.
    Complex contingencies such as humanitarian relief or peace 
operations will require a rapid, flexible response to achieve national 
objectives in the required timeframe. Some situations may require the 
capabilities of only one Service, but in most cases, a joint force 
comprised of both Active and Reserve Components will be employed.
    The complexity of future operations also requires that, in addition 
to operating jointly, our forces have the capability to participate 
effectively as one element of a unified multinational effort. This 
integrated approach brings to bear all the tools of statecraft to 
achieve our national objectives unilaterally when necessary, while 
making optimum use of the skills and resources provided by 
multinational military forces, regional and international 
organizations, nongovernmental organizations, and private voluntary 
organizations when possible.
    Ultimately, the National Command Authorities make the decision to 
use the military element of national power, and we will always execute 
that decision to the best of our ability.


                           homeland security
    75. Senator Warner. Secretary Rumsfeld, in your view, what are the 
appropriate roles and missions for the Department of Defense in support 
of homeland security?
    Secretary Rumsfeld. The U.S. military has a long and proud 
tradition of protecting the American homeland from a wide variety of 
threats. Homeland defense is not a new mission area. Over time, the 
nature of the threat has changed--from traditional land and maritime 
invasion in the country's early years, to potential nuclear attack 
during the Cold War, to the potential of missile, nuclear, biological, 
chemical, and information attacks from both state and non-state actors, 
such as terrorists. Part of our strategic review will address how the 
Department of Defense should be postured to ensure continued defense of 
the U.S. homeland from these evolving threats.


    76. Senator Warner. Secretary Rumsfeld, is the Department properly 
organized to provide adequate support to civil authorities and Federal 
agencies?
    Secretary Rumsfeld. The Department of Defense is prepared to 
leverage its warfighting structure to provide both crisis and 
consequence management support to civil authorities for all incidents, 
to include those involving multiple, geographically dispersed WMD 
events. The Department's focus is to provide unique resources and 
capabilities which are not resident in other agencies, such as the 
ability to mass mobilize and provide extensive logistical support.
    The Department recently consolidated civilian oversight 
responsibility for combating terrorism activities, to include domestic 
consequence management activities, within the Office of the Assistant 
Secretary of Defense for Special Operations and Low-Intensity Conflict. 
The Assistant Secretary acts as the one senior civilian official to 
advise the Secretary and the Deputy Secretary on all DOD combating 
terrorism policies, programs, and activities.


                          coalition operations
    77. Senator Warner. Secretary Rumsfeld, what role do you expect 
allies and coalition partners to play across the spectrum of military 
operations?
    Secretary Rumsfeld. There are many advantages to combined military 
operations, one of the most obvious being that the participation of 
allies and coalition partners can reduce the burden on U.S. forces. Our 
allies and coalition partners operate with U.S. forces on a routine 
basis, both in training and ongoing contingencies across the full 
spectrum of military operations. We anticipate this type of critical 
cooperation will grow in the future based on shared interests with 
allies and friends around the globe.


                peacekeeping and humanitarian operations
    78. Senator Warner. Secretary Rumsfeld, do you envision a role for 
U.S. forces in peacekeeping and humanitarian operations, and if so, 
under what circumstances?
    Secretary Rumsfeld. U.S. combat troops should generally be reserved 
for the most significant strategic challenges to the international 
order. U.S. forces' participation in peace operations can serve the 
national interest, for example by securing the environment in which 
civil implementation of peacekeeping arrangements can take place. Such 
participation can also strengthen military skills in areas such as 
coalition operations, logistics, communications, engineering and 
medical support, small unit leadership, and civil affairs.
    In cases of significant humanitarian crises, we should seek as a 
first resort to help develop mechanisms whereby other nations can work 
together and take the leading responsibility. The United States may be 
willing to provide assistance but others should take the lead wherever 
possible.


                         information operations
    79. Senator Warner. Secretary Rumsfeld and General Shelton, Joint 
Vision 2020 and many defense review panels stress the importance of 
information operations and information dominance. All of the military 
departments, several defense agencies, and some unified commanders have 
developed extensive information operations capabilities.
    What role do you envision for information operations in your 
strategic framework?
    Secretary Rumsfeld. U.S. defense planning must recognize new 
opportunities and address vulnerabilities in the information sphere. I 
envision the role of information operations in my strategic framework 
as a required mission area that must be integrated into military 
operations as a complement to air, land, sea, space, and special 
operations. Looking toward the future, the U.S. requires forces that 
are more capable of information operations and particularly of ensuring 
information availability.
    General Shelton. As we stated in Joint Vision 2020, information 
superiority is a key enabler of military victory. Information 
operations, together with robust and reliable command, control, 
communications, and computer (C\4\) systems and timely, accurate 
intelligence, are essential to attaining information superiority. If we 
can control information in future battles, by influencing the enemy to 
capitulate or by denying him the ability to comprehend the battle space 
and execute command and control of his forces while protecting our 
ability to do those things, we will prevail more quickly and at lower 
cost.
    As our forces are often called upon to engage in operations other 
than war, such as peacekeeping and humanitarian assistance, we also 
recognize the importance of shaping the environment in which our forces 
operate on a daily basis. We can do this by combining the use of 
information operations capabilities against our adversaries with other 
informational activities, such as public affairs and civil-military 
operations, focused on friendly or neutral audiences. By planning and 
executing these activities the same way we would a wartime campaign, we 
can state the U.S. position succinctly to garner support from friends 
and allies, neutralize adversary propaganda, and ensure that the 
American public is informed about the efforts of American 
servicemembers to promote peace and stability in the world. It is 
important to remember, however, that the military represents only one 
element of national power, which must be synchronized and integrated 
with the U.S. Government's other diplomatic, economic, and 
informational activities. The more successful we are in integrating the 
military's shaping efforts with those of other U.S. Government 
agencies, the more effective our efforts to promote American values 
will be.


    80. Senator Warner. Secretary Rumsfeld and General Shelton, are you 
satisfied with the unity of effort with the Department on this emerging 
capability?
    Secretary Rumsfeld. I am satisfied that the Department has made 
progress in this regard but have not yet completed an assessment of 
what further steps are required. The Department is working together to 
evolve and integrate information operations (IO) policies, doctrine, 
plans, programs, training, experimentation, and operations to support 
the national security strategy. IO entails the close coordination of 
offensive and defensive capabilities and activities involving 
electronic warfare, psychological operations, deception, operational 
security and computer network attack and defense. Specific 
responsibilities for IO within the Department are delineated in DOD 
Directive 36001 published in December 1996. As IO continues to evolve 
within DOD, I expect further refinements in how the Department 
organizes to plan and execute IO.
    General Shelton. As with any new capability, some information 
operations initiatives will prove more successful than others. On the 
other hand, we have unquestionably made considerable progress over the 
past few years. Information operations and information superiority both 
involve the  development of new warfighting capabilities as well as a 
new understanding of how existing capabilities can be employed to 
achieve our military objectives more efficiently.
    Emerging computer network attack and defense capabilities represent 
an important aspect of information operations. We have been at the 
forefront of efforts to enhance the security of U.S. government 
computer networks and to defend those networks from unauthorized 
activity (e.g., exploitation of data or attack). Recognizing that the 
threat to our networked systems is real and increasing, we established 
the Joint Task Force-Computer Network Defense in December 1998, and 
assigned responsibility for that mission to U.S. Space Command in 1999. 
We have incorporated intrusion detection software in many of our 
networks, erected firewalls, and increased awareness training for our 
personnel through our information assurance program.
    In October 2000, we designated the Commander in Chief, U.S. Space 
Command, as the military lead for offensive computer network operations 
as well, and charged U.S. Space Command with overseeing the development 
of capabilities and procedures for this aspect of offensive information 
operations. In April 2001, U.S. Space Command redesignated the Joint 
Task Force-Computer Network Defense as the Joint Task Force-Computer 
Network Operations to reflect this new mission. The Services also 
cooperate with other Defense and Intelligence Community agencies in 
efforts to defend the networks that are vital to our national security.
    As you have indicated, the Services, Defense agencies, and 
combatant commanders are all devoting a great deal of effort to this 
area. I believe we have the structures and procedures in place to keep 
duplication of effort to a minimum and ensure the broadest diffusion of 
advances in information operations capabilities across the Department.


                      force structure/force sizing
    81. Senator Warner. General Shelton, in your view, does the 
emerging defense strategy solve this mismatch without significant 
additional risk to our Nation and its vital national interests?
    General Shelton. This question is being addressed as a part of the 
ongoing QDR. The strategy-resource mismatch was created because it was 
assumed that a two-MTW construct would allow us to handle all other 
types of force employments as lesser-included cases. In recent years 
however, as our force structure declined, the level of our military 
commitments increased. The resulting increased perstempo and optempo, 
combined with our shortages in strategic lift and high-demand/low-
density assets, caused the strategy-resource mismatch. As I've stated 
in the past, it is extremely important for the Armed Forces and our 
Nation that a situation in which we carry out too much strategy with 
too little force structure be avoided.
    Ultimately, a combination of actions can correct the strategy-
resource mismatch. Increased resources, reducing operations and 
maintenance requirements through another round of base closures, 
outsourcing services where possible, and/or appropriately adjusting the 
strategy based upon changes in the security environment can assist in 
correcting this mismatch.
    As required by the National Defense Authorization Act for Fiscal 
Year 2000, I will address political, strategic, and military risk in 
the mid-, near-, and long-term in the finalized QDR report. However, 
with the new national defense strategy and QDR ongoing, it is premature 
to assess whether there will be an increase in risk to our Nation.


    82. Senator Warner. General Shelton, in testimony before this 
committee last year, you acknowledged the strategy-resource mismatch in 
our current force structure. You further described increasing risk 
associated with a second MTW and recommended significant increases in 
defense spending.
    Are you satisfied that sufficient capabilities will be available to 
meet regional commanders' needs?
    General Shelton. This is an important question being addressed as a 
part of the Office of the Secretary of Defense ongoing QDR. The QDR is 
meant to be a broad examination of all aspects of U.S. defense 
strategy, current force structure, and risk. Its goal is to balance our 
defense strategy with an appropriate force structure capable of 
executing the strategy at low to moderate risk. We owe it to the 
Nation, as well as the men and women of our Total Force, to get the 
balance right and to provide the resources necessary to achieve and 
maintain that balance.
    The new national defense strategy is not finalized. The QDR is 
still ongoing. Consequently, it is premature for me to assess whether 
sufficient capabilities and resources will be available to execute the 
strategy. However, as required by the QDR legislation, my assessment 
will be included in the finalized QDR report.


                         joint experimentation
    83. Senator Warner. Secretary Rumsfeld and General Shelton, this 
committee has vigorously promoted the need for robust joint 
experimentation to develop new force concepts and capabilities.
    What role do you envision for joint experimentation in developing 
needed concepts for the future?
    Secretary Rumsfeld. Concept development is a vital first step that 
must precede any kind of experimentation, joint or otherwise. A 
coherent joint operational concept provides the intellectual ``glue'' 
that bonds together the disparate elements of the Joint Force and 
synchronizes the efforts of all the subordinate elements. Iterative 
experimentation helps refine concepts and determine their utility. Some 
elements of emerging operational concepts are already known but require 
refinement. That is where the Department's experimentation efforts--
particularly joint experimentation--provide the greatest utility. 
Experimentation is vital for determining what works well and what does 
not and, in general, how well future joint forces will work together. 
Thus, concept development and refinement is an inherent function of the 
joint experimentation program.
    General Shelton. Joint concept exploration is the basis for joint 
warfighting experimentation. U.S. Joint Forces Command (USJFCOM), as 
the Department of Defense Executive Agent for joint experimentation, 
will coordinate with the Services and combatant commands to explore, 
demonstrate, assess, refine, identify, and recommend to me the most 
promising joint concepts and capabilities. Joint experimentation will 
continue to provide the means for integrating the joint warfighters' 
critical issues into the Services' concept development and 
experimentation programs. This process will allow Service initiatives 
to be conducted in a joint environment thereby ensuring that things not 
only work, but work well together. In providing the Services a common 
operational and technical architecture, joint experimentation will 
convert redundancy into robustness.


    84. Senator Warner. Secretary Rumsfeld and General Shelton, this 
committee has vigorously promoted the need for robust joint 
experimentation to develop new force concepts and capabilities. Do you 
anticipate increased and sustained funding for joint experimentation?
    Secretary Rumsfeld. We have increased the resources allocated for 
joint experimentation in the fiscal year 2002 budget, and they appear 
adequate to support our agenda as it now stands. In particular, the 
Department very much appreciates this committee's recognition of our 
joint experimentation initiatives and support for alleviating funding 
shortfalls. I should note that experimentation is, to a great extent, a 
``voyage of discovery.'' Indeed, we pursue our experimentation agenda 
in anticipation of revealing new information about our capabilities. In 
this regard, there may be a requirement for additional funds to support 
joint experimentation beyond annually programmed levels should 
important opportunities arise.
    General Shelton. Joint experimentation will be reviewed as part of 
the Department's fiscal year 2003 program and budget building process. 
Its proper resourcing should be reflected in the President's fiscal 
year 2003 budget submission to Congress.


    85. Senator Warner. Secretary Rumsfeld and General Shelton, in your 
view, will force levels accommodate substantive experimentation without 
placing additional burdens on our force?
    Secretary Rumsfeld. We must be ever watchful when we task our 
forces to conduct exercises, training, and participate in 
experimentation venues. A fundamental goal of this administration is to 
better manage the operational tempo of our military forces. In 
achieving this goal, and in concert with the many associated ongoing 
activities, we must coordinate and plan our experimentation initiatives 
early, effectively manage these scheduled events, and when required, be 
prepared to remove less important events from our calendar. At the 
joint level, I believe we are doing just that. The Commander in Chief 
of United States Joint Forces Command, the Department's executive agent 
for joint concept development and experimentation, has established a 
series of experiments that achieves this balance. Starting in 2000, and 
continuing in the even-numbered years, the Department will be 
conducting scheduled major joint field experiments that we have coined 
``Millennium Challenge'' and ``Olympic Challenge.'' Supporting these 
major field experiments is a series of concept refinement experiments 
collectively known as ``Unified Vision'' events. These initiatives, 
scheduled in the odd-numbered years, are primarily modeling and 
simulation events which, by design, should have minimal impact on our 
forces. So, in general, I believe that our initiatives to date do not 
unnecessarily burden our operational forces.
    General Shelton. In executing joint experimentation, each of the 
Services has placed special emphasis on reducing the burden on our 
forces through substantial force scheduling and planning efforts.
    To accomplish this, we do everything possible to ensure experiments 
use units scheduled well in advance and with minimum required deployed 
and training time devoted to learning new systems and procedures to be 
used in the experiments. In most instances, participating units operate 
from home station or from familiar training ranges. These initiatives 
keep the burdens placed on our forces to minimum levels while still 
enabling a robust experimentation effort.
    An ancillary benefit of experimentation is the possibility of 
training benefits for participating units. Although secondary to 
experimental objectives, commanders typically seize training 
opportunities available in experiment participation where the 
opportunities do not detract from the goals of the experiment.


         future ship leap-ahead and transformation technologies
    86. Senator Warner. Secretary Rumsfeld, press reports have 
indicated that the recommendations coming from the various review 
panels focus on the importance of air power at the expense of naval 
contributions to future operational concepts. Those reports have 
specifically stated that the Navy's DD-21 future destroyer and the CVN-
X future aircraft carrier are not included in key review panels' 
recommendations. What is your personal view on the role of these Navy 
ships in our future military strategy?
    Secretary Rumsfeld. I established a number of review panels to 
provide ideas, suggest alternatives, and provide proposals for 
consideration in the strategy review. Their conclusions do not reflect 
my thinking, or that of the issue teams now conducting analysis and 
making recommendations in the QDR. We have yet to make decisions on 
these matters. I hope to come before the committee and discuss my views 
on these matters at a later date.


    87. Senator Warner. Secretary Rumsfeld and General Shelton, there 
have been a number of studies, working groups, and think tank 
discussions over the years regarding the operational flexibility, 
vulnerability, and versatility of large deck aircraft carriers. The 
discussions and, more importantly, the actual employment by the 
warfighting CINCs have reached the same conclusion: the carriers are 
indispensable military assets because they send a clear message of U.S. 
resolve by their mere presence and can strike out at an enemy rapidly 
and continually. The big deck versus small deck carrier and the U.S.-
based strike versus carrier issues have been evaluated numerous times, 
with the large deck carrier consistently emerging as the Nation's 
choice.
    What is your opinion of the future role of big deck carriers?
    Secretary Rumsfeld. I have yet to make any decisions regarding Navy 
carriers in the ongoing Quadrennial Defense Review process. I hope to 
come before the committee to discuss my views on the future role of 
these Navy ships in our defense strategy at a later date.
    General Shelton. I recognize and acknowledge the critical role that 
aircraft carriers play in our defense posture. These ships are 
unmatched in the ability to provide a forward presence, respond rapidly 
to crises, and provide sustained, lethal firepower when called upon. 
Our current fleet of 12 large deck carriers will form the core of naval 
aviation well into this century and we are making the investment to 
develop a new large deck, nuclear powered carrier design to carry us 
through this new century.
    Large deck nuclear powered carriers are among the most flexible and 
survivable ships in the fleet. Carrier battle groups possess layers of 
defense against all threats today and for the foreseeable future. They 
have unmatched mobility, providing an area of uncertainty of over 700 
square miles in just 30 minutes, which makes them a extraordinarily 
difficult target to detect, track, and engage.
    Large deck carriers will continue to:

        --provide a versatile, flexible forward presence as a deterrent 
        to hostile actions, and be a host for a broad spectrum of 
        military, diplomatic, and humanitarian missions;
        --respond rapidly to crises around the world; and
        --provide sustained, dominant strike and multi-mission aviation 
        support to operations from the sea.

    As the Armed Forces transform and improve their interoperability, 
the aircraft carrier will continue to be the enabling force and 
critical node for joint operations in the early stages of a major 
crisis.


                        missile defense/response
    88. Senator Warner. Secretary Rumsfeld, many critics have suggested 
that if the U.S. proceeds with plans to deploy missile defenses for the 
U.S. and its allies that a new arms race may ensue: China and Russia 
could respond with an expansion of offensive forces, to which other 
nations, such as India and Pakistan, might respond by building up their 
offensive arms. It is interesting to note, however, that the largest 
build-up of offensive nuclear weapons actually took place after the 
signing of the ABM Treaty. As we continue to debate this issue, rogue 
nations continue to develop missile capabilities in the absence of U.S. 
missile defenses.
    What connection, if any, do you see between deployment of U.S. 
missile defenses and the growth of offensive forces by other nations?
    Secretary Rumsfeld. You are correct--rogue nations continue to 
develop missile capabilities in the absence of U.S. missile defenses. 
Many other nations are also developing ballistic missiles.
    Missile defenses are a response to proliferation; they are not the 
cause of it. U.S. and allied vulnerability to ballistic missile attack 
serves as a strong incentive to proliferation. Missile defenses will 
help dissuade potentially adversarial nations from investing in 
ballistic missiles by devaluing their political and military utility.
    I do not believe the introduction of missile defenses will 
stimulate a new arms race with nations such as Russia and China. The 
U.S. intends to deploy limited defenses against handfuls of longer-
range missiles, not against hundreds of missiles or warheads. Those 
limited defenses will not threaten Russia's strategic deterrent, even 
under significantly reduced levels of forces. I believe China is likely 
to continue its nuclear modernization program regardless of what we do 
in the area of missile defense, as its modernization program started 
long before U.S. missile defense efforts. Nonetheless, we will continue 
to make clear to China (and others) that our limited missile defenses 
are intended to protect the U.S., our deployed forces, and our allies 
and our friends only from those who would seek to threaten or coerce 
us.


                        ballistic missile threat
    89. Senator Warner. Secretary Rumsfeld, the Commission to Assess 
the Ballistic Missile Threat to the United States, chaired by Secretary 
Rumsfeld, unanimously concluded in 1998 that ``the threat to the U.S. 
posed by these emerging capabilities is broader, more mature, and 
evolving more rapidly than has been reported in estimates and reports 
by the Intelligence Community.'' It also concluded that the warning 
time that our Nation might have for these emerging threats is 
decreasing.
    Do you believe that these conclusions have been corroborated by the 
events of the last several years? 
    Secretary Rumsfeld. Yes. The threat to the United States posed by 
emerging ballistic missile capabilities is broader and more mature, and 
is evolving more rapidly than previously estimated by the intelligence 
community.


    90. Senator Warner. Secretary Rumsfeld, deployment of missile 
defenses will require modification or withdrawal from the ABM Treaty. 
Critics of missile defense argue that undermining the treaty will lead 
to the demise of offensive arms control agreements. At the same time, 
the President has announced his intention to reduce U.S. nuclear 
weapons unilaterally to the lowest level consistent with U.S. security 
and to work toward a new strategic framework that relies on both 
offensive and defensive forces.
    What role will arms control and missile defense play in the 
administration's new military strategy?
    Secretary Rumsfeld. President Bush has made clear that we need a 
comprehensive strategy to counter the complex and dangerous challenge 
of proliferation of weapons of mass destruction and their means of 
delivery. This strategy must include strengthening nonproliferation 
measures (prevention), more robust counterproliferation capabilities 
(protection), and a new concept for deterring contemporary threats that 
includes both offenses and defenses. Thus, missile defense is a key 
part of our broader strategy for dealing with proliferation, an added 
dimension of contemporary deterrence, and one element of a strategy to 
dissuade and deter countries from acquiring or using weapons of mass 
destruction and ballistic missiles.
    With respect to arms control, the administration intends to 
construct a new strategic framework that reflects the realities of the 
post-Cold War world and not the Cold War adversarial relationship 
premised on distrust and mutual vulnerability. The exact nature of the 
new framework and whether it includes agreements, parallel or 
unilateral actions, or a combination thereof, is still something that 
is being developed.


                              space policy
    91. Senator Warner. Secretary Rumsfeld, currently, space is widely 
viewed as ``militarized'' (i.e. space assets can enhance military 
capabilities) but not ``weaponized.'' It is also widely recognized that 
adversaries can use land, sea, or air weapons to attack space assets, 
either on the ground (such as launch facilities or satellite control 
facilities) or in space. The Space Commission recommended that the 
United States ``develop, deploy, and maintain the means to deter attack 
on and to defend vulnerable space capabilities,'' including ``defense 
in space'' and ``power projection in, from and through space.'' Some 
Commission critics have suggested that Commission recommendations will 
lead to the weaponization of space.
    In your view, will a U.S. strategy that places an increased 
priority on space and the protection of U.S. space capabilities lead to 
the deployment of weapons in space?
    Secretary Rumsfeld. The security and well-being of the United 
States, our allies, and friends depend on our ability to operate in 
space. Our increasing dependence and the vulnerability it creates, 
however, require us to have the means to deter and dissuade threats to 
our national interests in space. The United States must have the 
capability to prevent potential adversaries from obtaining an 
asymmetric advantage by countering our space systems. The 1996 National 
Space Policy directs that ``consistent with treaty obligations, the 
United States will develop, operate and maintain space control 
capabilities to ensure freedom of action in space and, if directed, 
deny such freedom of action to adversaries. These capabilities may also 
be enhanced by diplomatic, legal or military measures to preclude an 
adversary's hostile use of space systems and services.'' A broad range 
of military capabilities will be required to implement this policy.


    92. Senator Warner. Secretary Rumsfeld, would the deployment of 
weapons in space change the strategic environment in any fundamental 
way?
    Secretary Rumsfeld. The security and well-being of the United 
States, our allies, and friends depend on our ability to operate in 
space. Our increasing dependence and the vulnerability it creates, 
however, require us to have the means to deter and dissuade threats to 
our national interests in space. Providing the defense capabilities 
necessary to deter attack upon and defend our interests in space thus 
could help to make the strategic environment more stable.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                       national security strategy
    93. Senator Thurmond. Secretary Rumsfeld, what National Security 
Strategy will your defense strategy support?
    Secretary Rumsfeld. I have been consulting closely with the White 
House as we have been developing our defense strategy. The new defense 
strategy will be consistent with, and supportive of, the new National 
Security Strategy.


                            interoperability
    94. Senator Thurmond. Secretary Rumsfeld, your review is focused on 
the improvement of our forces and the operations of the Department of 
Defense. Although these are essential, I am concerned that we are 
neglecting key lessons learned in the Balkan operations regarding 
interoperability with our allies. How does your strategic review 
address the issue of interoperability with our allies?
    Secretary Rumsfeld. We seek to enhance interoperability with our 
allies. Our aim is to ensure the maximum coordination and cooperation 
in peacetime for effective coalition operations. The review will 
address this critical issue.


                            force structure
    95. Senator Thurmond. Secretary Rumsfeld, if the ``win and hold'' 
strategy becomes the Nation's defense strategy, what do you anticipate 
will be the impact on the size of our force structure?
    Secretary Rumsfeld. We have not yet decided on a new strategy or 
force-sizing construct. We are exploring alternatives for force-sizing 
that reflect a broader range of contingencies than two MTWs. The 
implications of these options for force structure are under discussion. 
At this point in the review, I am not yet prepared to make a final 
recommendation.


                     role of the reserve components
    96. Senator Thurmond. Secretary Rumsfeld, under your most likely 
defense strategy, what warfighting role is envisioned for the Reserve 
components?
    Secretary Rumsfeld. The implications for the Reserve components of 
the new defense strategy currently under consideration are not yet 
determined. I expect, however, that the Reserve components will 
continue to play an important role in support of our defense strategy.


                      departmental reorganization
    97. Senator Thurmond. Secretary Rumsfeld, an article in the June 
2001 Proceedings insinuated that many of the Department's problems stem 
from its organizational structure. To quote the article: ``We have 
created little communications fiefdoms, logistic fiefdoms, intelligence 
fiefdoms, each with their own agenda and with decision makers who out 
rank the warfighters, and each little fiefdom creates its own political 
constituency, its own congressional sponsors, its own cadre of cottage 
industries, and its own soon-to-be-obsolete structures.'' How do you 
plan to address this significant issue?
    Secretary Rumsfeld. The Proceedings article, ``DOD's Tail is 
Wagging the Dog,'' states that defense agencies have easier access to 
the Secretary and a greater ability to influence defense spending. 
This--the article alleges--comes at the expense of the Services who are 
more sheltered from key decision-makers and have to operate within a 
budget topline. There is some validity in the article. Under 
Secretaries do take their pleas directly to the Comptroller for 
consideration during the budgeting process. Sometimes these 
requirements do require a Service offset, but frequently the 
Comptroller has unobligated funds from delinquent programs and fact-of-
life changes. The priorities of the individual Services must be 
balanced against the overarching priorities of the Department of 
Defense as a whole. During the program and budget review, a fine-tuning 
of priorities ensures the needs of all are met through responsible 
resource allocation.


                             infrastructure
    98. Senator Thurmond. Secretary Rumsfeld, what priority did the 
defense strategy review place on the adequacy of the Department's 
military installations and what were the key recommendations?
    Secretary Rumsfeld. The review placed a high priority on the 
adequacy of installations. The importance of installations is reflected 
in the amended budget, which includes a substantial increase in 
resources for installations and facilities. Key recommendations 
include:

    1. Installations must be adequately funded. Our installations have 
been underfunded for many years. We have been living off the 
substantial investments of the 1970s and the 1980s. Today shortfalls 
exist in a number of vital areas.
    2. Facilities must be sustained. We have not sustained facilities 
(including housing) adequately in the past, producing serious readiness 
deficiencies that will take years to overcome. Without proper 
sustainment, facilities cannot perform well over their expected life--
and the result is poor readiness, poor workplaces, and poor quality of 
life. We have fixed the worst sustainment shortfalls in fiscal year 
2002, though we are still short by about $750 million. We need to 
address this in fiscal year 2003.
    3. Facilities must be modernized. We need to plan for periodic 
recapitalization of installations. Obsolescence effects even well-
sustained facilities--they need to be adapted to new technologies, new 
weapon systems, and new standards--and some facilities simply wear out. 
Our goal is to recapitalize at a reasonable, yet conservative average 
rate of once every 67 years. In fiscal year 2002 we have cut the rate 
nearly in half, from almost 200 to 100 years. To get to 67 years in 
fiscal year 2002 would have required about $1.9 billion more for 
additional O&M-funded projects. We plan to do better in the fiscal year 
2003 budget.
    4. Facilities must be restored. We have a backlog of restoration 
requirements caused by insufficient sustainment and inadequate 
recapitalization funding in the past. Sixty-nine percent of our 
readiness ratings are C-3 or C-4--which means these facilities are not 
currently capable of adequate support to assigned missions. Proper 
sustainment and normal recapitalization schedules will solve this over 
the very long term in order to achieve our goal of 67 years. However, 
in the short term we need to accelerate the restoration of our military 
readiness through rapid improvement of these C-3 and C-4 ratings. The 
amended budget provides $2 billion as an emergency down payment, but we 
still have a long way to go.
    5. Installations must be streamlined and reconfigured. Changes over 
the last 10 years have left a mismatch between installations and 
forces. We have too much capacity at some locations and pockets of 
insufficient capacity at others. We propose to address this mismatch 
with an efficient facilities initiative and are extending our 
successful facilities demolition program.


                             future forces
    99. Senator Thurmond. General Shelton, if I understand the 
Secretary's views on the proposed make-up of our Armed Forces, they 
will be a smaller, more mobile force that employs the latest 
communications technologies together with long-range bombers and 
precision weaponry.
    Under this scenario what roles do you see for our heavy armor 
formations?
    General Shelton. As a part of the Office of the Secretary of 
Defense's Quadrennial Defense Review, the current and future roles of 
various parts of our force structure will be fully examined in light of 
changes to U.S. defense strategy, future threat assessments, and any 
transformation of our forces. Our heavy armor formations will be part 
of this review.


                         geographic force focus
    100. Senator Thurmond. General Shelton, does the new defense 
strategy suggest a focus of our military efforts toward Asia?
    General Shelton. The new defense strategy will emphasize that we 
will maintain our global commitments to our allies throughout the 
world. The security environment may dictate that our focus shift from 
one region to another because of the dynamic security environment. The 
defense strategy will not imply that we will abandon our commitments to 
our allies around the world. As mentioned previously, the new defense 
strategy is not finalized, so it is premature to be any more specific 
at this time.


    101. Senator Thurmond. General Shelton, what will be the greatest 
challenges to support this new focus?
    General Shelton. The United States has maintained a long-lasting 
focus on Asia. We have many political and economic ties as well as 
military friends and allies within the region. Whether our focus in 
Asia changes or not, the greatest military challenges will be in the 
areas of strategic lift and basing rights.


                                vieques
    102. Senator Thurmond. General Shelton, I want to join my 
colleagues in expressing my disappointment regarding the decision to 
cease operations on the Vieques Island range. We had been told 
repeatedly that Vieques is a one-of-a-kind facility that was critical 
to the readiness of our deployed forces. Yet almost overnight an issue 
that was thoughtfully considered and debated is reversed without a 
thought on its implication on the training or more important on the 
lives of our sailors or marines.
    Were you consulted on this decision before it was leaked to the 
press? If so, did you reverse your prior position on the critical need 
for the ranges on Vieques?
    General Shelton. While I was in on early discussions regarding 
Vieques, I was not consulted about the Navy's final decision. Training 
is a title 10 responsibility and the Secretary of the Navy made the 
final call himself.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                   prc military-to-military contacts
    103. Senator Smith. Secretary Rumsfeld, I was pleased when I heard 
that the Department intended to suspend military-to-military relations 
with China in the wake of the EP-3 seizure and illegal holding of the 
American crew--and disappointed when the suspension instead became a 
``case-by-case'' review of exchanges.
    Since the Peoples' Liberation Army (PLA) refused to return phone 
calls from former Admiral Prueher, then U.S. Ambassador to Beijing, and 
a major advocate for military-to-military contacts, when the crisis 
erupted, can you comment on how these exchanges have helped build 
bridges with the PLA?
    Secretary Rumsfeld. The communication problems following the EP-3 
incident reflect China's poor crisis management capability. When the 
collision occurred, the senior Chinese leadership was attending a tree-
planting ceremony outside Beijing. Ambassador Prueher, former U.S. 
Ambassador to China, placed several telephone calls to the Ministry of 
Foreign Affairs--his appropriate counterparts. What people were 
available to talk were waiting for the senior leadership to meet and 
decide what to do. The Chinese have told us that they are working to 
improve their ability to manage crises such as this--clearly they have 
a lot of work to do.
    With respect to communications and our military-to-military 
program, the Department's program for military-to-military relations 
with China is under review. As we work through this review we will be 
looking for ways to improve the program and ensure that it will support 
our overall policy of seeking a constructive relationship with China. 
An important area of concern for us in this regard will be to develop 
durable channels of communication to avoid misperceptions and 
miscalculations that could lead to unwanted consequences.


    104. Senator Smith. Secretary Rumsfeld, do you think it might be 
more helpful, rather than briefing the Chinese about joint warfighting, 
that the PLA be exposed to the same type of schooling that foreign 
officers now receive at Fort Benning--i.e. human rights, peacekeeping, 
codes of conduct for soldiers, the role of the military in a democratic 
society?
    Secretary Rumsfeld. Yes. In fact, we are already doing this. 
Section 1201 of the Fiscal Year 2000 National Defense Authorization Act 
prohibits ``inappropriate exposure'' of U.S. operational capabilities 
and technologies to Chinese visitors. The Department of Defense 
strictly complies with the requirements of this provision in our 
military-to-military engagement with the PRC.
    A number of programs organized and executed at Pacific Command 
highlight codes of conduct, the rule of law, and civilian leadership of 
the military. Many of U.S. Pacific Command's multilateral programs, 
which include the PLA, address other important, but non-sensitive 
issues such as military law, humanitarian assistance, and disaster 
relief. The programs at the Asia-Pacific Center for Security Studies 
also include soldiers' values and role in a democracy, and rule of law 
themes.


    105. Senator Smith. Secretary Rumsfeld, wouldn't this be more 
appropriate if we seek to transform China into a democratic society 
which respects civil rights?
    Secretary Rumsfeld. Our military-to-military relations with China 
support the overall U.S. policy which seeks a constructive relationship 
with China. We encourage PLA participation in DOD programs that feature 
the rule of law, humanitarian assistance, the role of the military in a 
democratic society, and other non-sensitive issues, as well as other 
high-level visits and confidence building measures, as they expose our 
Chinese counterparts to U.S. values and ideals while at the same time 
allowing us to gain insights on their institutions and views, and 
access to their sites and facilities.


                     electromagnetic pulse warheads
    106. Senator Smith. Secretary Rumsfeld, I want to ask you about 
electromagnetic pulse (EMP) warheads on Chinese missiles. This 
particular threat has not received due attention in terms of the 
Chinese military's ability to ``coerce'' Taiwan, Japan (and other U.S. 
allies coming into range of such weapons), and possibly intimidate 
vulnerable U.S. forces/assets in the Pacific. Most views of the threat 
from the Chinese missile build-up opposite Taiwan are limited to old 
``Cold War'' thinking, i.e. traditional use of conventional ballistic 
missiles. The other Taiwan-threat scenario is a ``blockade'' by China. 
These outdated scenarios tend to drive our view of the weapons Taiwan 
needs, and in my opinion, provide a distorted view of the time frame 
within which the Chinese military build-up can actually become a threat 
to Taiwan and U.S. interests in the region. Chinese deployment/use of 
non-nuclear EMP warheads vs. Taiwan would be more devastating than a 
cross-channel conventional ballistic barrage, an amphibious assault, or 
an economic blockade. Because there would be little or no loss of human 
life, or visible destruction of physical assets, it may be a more 
tempting ``bolt-out-of-the-blue'' scenario that the PLA would use to 
immobilize Taiwan. The growing technical cooperation between Russia and 
China can only aggravate this threat situation.
    Would you care to comment on this?
    Secretary Rumsfeld. I am aware of the discussion in progress in the 
open literature concerning China's interest in developing radio-
frequency weapons (RFW), to include non-nuclear EMP warheads on Chinese 
missiles. Ballistic missiles armed with conventional or WMD warheads 
currently pose a significant threat to both our allies and U.S. forces 
in a variety of regional scenarios. Development of an EMP warhead for 
use on ballistic missiles with the required accuracy would certainly 
present an adversary with greater capability and increased options, 
thus complicating the threat scenario that U.S. forces and allies must 
deal with. It is my opinion, however, that current technology does not 
support the immediate employment of RFW weapons in a scenario like the 
one outlined in your question. The QDR is assessing threats posed from 
a broad range of current and potential threat capabilities (including 
ballistic missiles) and our ability (including missile defense) to 
adequately address these threats. You also may be aware that a special 
DOD commission to evaluate the threat from EMP weapons is being formed 
as well.


                  russian-chinese military cooperation
    107. Senator Smith. Secretary Rumsfeld, there was an article in 
Jane's Defence Weekly which said that China's ongoing satellite effort 
is focused on ``co-orbital space weapons'' and a ``terrestrial laser'' 
to be used for blinding satellite optics. The article mentions that 
China is benefiting from the transfer of Cold War-era technology from 
Russia.
    Can you comment on Russo-China military cooperation, particularly 
as it applies to military space application?
    Secretary Rumsfeld. Since 1985, China has signed cooperative 
agreements and established long-term cooperative relations with a dozen 
countries--including France, Germany, Italy, Japan, Russia, Ukraine, 
the United Kingdom, and the United States--with the goal of enhancing 
its space programs and technology base. Chinese space cooperation with 
Russia is the most extensive and includes the exchange of technology, 
cooperative initiatives, and training of personnel. Major areas of 
dual-use space cooperation include the fledgling Chinese manned space 
effort, satellite launch vehicle engines, and a potential future effort 
with the GLONASS navigational satellite system. More troubling is the 
wide-ranging technology cooperation in areas that are directly 
applicable to China's growing military space and counterspace efforts. 
Examples of technology cooperation include satellite communications, 
remote sensing, microsatellites, and laser and other high-technology 
weapons.


                  submarines and aegis sales to taiwan
    108. Senator Smith. Secretary Rumsfeld, in yesterday's Early Bird 
there was an article that addressed a possible sale of Russian diesel 
submarine technology to Taiwan. The U.S. said it would sell diesel subs 
to Taiwan but was rebuffed by the Germans and Dutch on the kits needed 
to build them here.
    Should we revisit the potential sale of the Aegis destroyer to 
Taiwan since it appears that Taiwan will no longer require our support 
in the acquisition of the diesel electric submarines?
    Secretary Rumsfeld. We are continuing to examine a range of options 
to assist Taiwan in its acquisition of diesel electric submarines as 
one component of an integrated antisubmarine warfare architecture. At 
the same time, we are continuing to develop a viable approach to 
enhancing Taiwan's air defense system, to include the potential release 
of Aegis-equipped destroyers.


                              afghanistan
    109. Senator Smith. Secretary Rumsfeld, our counter-terrorism 
policy is constrained by an old (and I believe outdated) Executive 
Order which impedes our ability to retaliate against known terrorists. 
We are being forced to spend a small fortune--for force protection, for 
security upgrades--to defend against terrorists attacks. Aside from the 
fact that using the military as a tool for diplomacy in Yemen was 
highly dubious, last year's U.S.S. Cole disaster shows that despite 
large increases in the counter-terrorism budget, we remain vulnerable. 
There is a video in circulation--that appears to tie Osama bin Ladin to 
the attack on the U.S.S. Cole--and in it there is footage of Osama bin 
Ladin reciting a poem which commemorates the attack on the U.S.S. Cole.
    How can we be more proactive in our counter-terrorism policy and 
less reactive?
    Secretary Rumsfeld. The Department of Defense and other Federal 
agencies have undertaken a significant, integrated effort to develop 
effective policies on counter-terrorism and establish a variety of 
mechanisms that enable the United States to preempt and deter a wide 
range of terrorist threats against American citizens and U.S. interests 
around the world. Unfortunately, some terrorist incidents succeed in 
accomplishing their objective. However, even under those circumstances, 
the United States has been successful in ensuring that terrorists are 
brought to justice.


                                vieques
    110. Senator Smith. General Shelton, can you defend a continued 
presence on mainland Puerto Rico in the wake of a halt to training 
exercises on Vieques?
    General Shelton. Puerto Rico's Naval Station Roosevelt Roads 
architecture and structure have been built up over the years to support 
training in the Puerto Rico operating area. Without that training, 
coupled with the need to effectively use tight resources, whether the 
Navy will maintain a presence on mainland Puerto Rico and to what 
degree is a question that will require careful examination. The Chief 
of Naval Operations has stated that the Navy will conduct this 
examination during the course of resource decision-making.


    111. Senator Smith. Secretary Rumsfeld, can you promise me that you 
will give serious consideration to closing Fort Buchanan and Naval 
Station Roosevelt Roads if the only reason they exist is to support 
training exercises on Vieques?
    Secretary Rumsfeld. Should Congress authorize an Efficient 
Facilities Initiative round to rationalize our base infrastructure, the 
Department will evaluate all bases on an equal footing. During this 
analysis process, the Department will evaluate Fort Buchanan and Naval 
Station Roosevelt Roads against a common set of criteria, primary among 
which will be military necessity, and make its recommendations at that 
time. Serious considerations would be given to all factors that impact 
both operational and physical capacity. However, it should be noted 
that at this time both Fort Buchanan and Naval Station Roosevelt Roads 
support missions other than the training exercises on Vieques.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                            spectrum access
    112. Senator Inhofe. Secretary Rumsfeld, is the 1.7 GHz band, or 
access to a suitable alternative, important to DOD?
    Secretary Rumsfeld. DOD access to the 1.7 GHz band or a suitable 
alternative is vital to national security. The DOD operates thousands 
of pieces of equipment of over 100 different system types in the 1.7 
GHz band. The band is currently used for satellite control, tactical 
radio relay, aircrew combat training, control of precision guided 
munitions, and many other important functions. Loss of access to the 
band without provision of truly comparable spectrum, or without respect 
for the transition timelines we have established, would result in 
mission failure and increased casualties in future operations as well 
as loss of critical intelligence information. Suitable alternative 
spectrum has not been identified by U.S. spectrum regulatory 
authorities for most of the functions resident in this band. 
Furthermore, the Department's ability to meet our growing spectrum 
requirements in the future will be compromised if the band is 
reallocated.


    113. Senator Inhofe. Secretary Rumsfeld, if members of this 
committee once again work to protect DOD access to spectrum, including 
the 1.7GHz band, how can we be sure that the Department will not 
undermine our position like it did on Vieques?
    Secretary Rumsfeld. The DOD is very appreciative of the committee's 
support on past issues, including protection against spectrum 
encroachment. We will not agree to any solution for meeting commercial 
spectrum needs that compromises national security capabilities, and we 
ask for your continued support to protect those capabilities. It is 
especially important to preserve the legislative requirements that DOD 
be provided comparable spectrum and adequate financial compensation in 
the event of any reallocation of the band.


    114. Senator Inhofe. Secretary Rumsfeld, the commercial Global 
Positioning System (GPS) users, not the DOD, have been strong advocates 
for protecting the GPS L1 (1.5 GHz) and the L2 (1.2 GHz) bands from 
unlicensed use by commercial proponents of ultra-wide band (UWB) usage 
for wireless communications. It is well known in the scientific 
community that UWB increases the spectrum noise floor and thereby 
interferes with the performance of GPS.
    Why has the DOD taken a passive position on this important military 
spectrum issue?
    Secretary Rumsfeld. The DOD has not taken a passive position on 
this issue. The Chairman of the Joint Chiefs of Staff and other senior 
officers have testified to the importance of the 1.7 GHz band. A flag-
level spokesman for the Department has visited scores of members in the 
House and has briefed key staff members in the House and Senate. We are 
engaged on nearly a daily basis with the National Security Council and 
the Department of Commerce on this issue. Department spokesmen have 
also presented the DOD position in the media and in industry forums. 
Partly as a result of the success of these efforts, the proponents of 
reallocating the 1.7 GHz band have recognized that they cannot get a 
favorable decision by the planned July decision date and have asked for 
a deferral of the decision.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                                vieques
    115. Senator Santorum. Secretary Rumsfeld, last year the Navy and 
the Commonwealth of Puerto Rico negotiated an agreement concerning the 
Navy's use of the Atlantic Fleet Weapons Training Facility (AFWTF) at 
Vieques, Puerto Rico. A deal negotiated by President Clinton and 
Governor Rossello allowed for the Navy to resume training exercises 
with inert ordnance in exchange for an infusion of $40 million in 
economic development funds to the island and a promise for a referendum 
on a resumption of live fire training. If the residents of the island 
support a resumption of live fire testing, an additional $50 million 
will be provided by the U.S. government. If the residents of the island 
oppose a resumption of live fire testing, the Navy must leave by 2003.
    On Friday, Navy Secretary Gordon England announced that the 
Department of the Navy will seek legislative relief from the current 
requirement to conduct a referendum (set for November) on training at 
Vieques. In addition, Secretary England indicated the Navy is actively 
planning to discontinue training operations on the range on Vieques in 
May 2003. Finally, Secretary England announced that the Navy would set 
up a panel of experts to reinvigorate efforts to find effective 
alternatives to Vieques for training purposes.
    What role did you play in this decision?
    Secretary Rumsfeld. As Secretary of Defense, I am aware of a great 
number of matters of concern in the military Services, and the Vieques 
training range issue is no exception. The Secretary of the Navy made 
the decision and I support it.


    116. Senator Santorum. General Shelton, what was your role in this 
decision?
    General Shelton. The Secretary of the Navy, Chief of Naval 
Operations, and Commandant of the Marine Corps are charged with 
ensuring that sailors and marines are trained and fully ready to meet 
any contingency. My expectation is that theater CINCs will receive 
fully mission-ready forces, and I am certain the Department of the Navy 
will accomplish this regardless of training locations.
    I fully support the requirement to effectively train our men and 
women in uniform. I am very concerned that we have required training 
ranges, and the Secretary of the Navy and the Chief of Naval Operations 
have direct responsibility for training in the fleet.


    117. Senator Santorum. Secretary Rumsfeld and General Shelton, what 
are possible alternatives or substitutes to integrated, combined arms 
training at AFWTF?
    Secretary Rumsfeld. There are no current single alternatives to 
Vieques. Between now and May 2003, we are working to develop the best 
possible combination of methods and places to Vieques.
    General Shelton. Presently, there is currently no single 
alternative that replicates training on Vieques. The Secretary of the 
Navy has commissioned a panel of experts to produce a study to identify 
alternatives and technologies to replicate the level of training 
currently found at Vieques. The paramount issue is to ensure sailors 
and marines have the level of training necessary to respond to any 
contingency when forward deployed, and I have faith that the 
alternatives reached will ensure that level of readiness.


    118. Senator Santorum. General Shelton, to what extent will the 
Navy rely on modeling and simulation for training if it leaves AFWTF?
    General Shelton. Naval aviation already uses modeling and 
simulators in all phases of aviation training, from the training 
command through the fleet. For example, Navy pilots, naval flight 
officers, air crewmen, and maintenance personnel receive training on 
simulators or trainers of various types. Simulators support certain 
types of training and contribute to maintaining readiness but are not a 
replacement for actual flying, firing of weapons, or maintaining an 
aircraft. While the readiness gains provided by simulation have not yet 
been fully assessed and quantified, clearly high fidelity, realistic 
simulators contribute to operational readiness.
    Naval aviation continually strives to capitalize on new 
technologies in the simulation industry to enhance simulator or trainer 
capabilities. New simulating technologies offer the potential for 
increased capabilities in future simulators and trainers. As funding 
becomes available for new and improved simulators, training of Navy 
crews will be enhanced.
    A balanced approach to use of simulation in aviation is imperative 
to gain the maximum benefit from the devices, while not sacrificing the 
critical hands-on training. Simulators cannot replace the actual flying 
and maintaining of systems. Naval aviation's approach to simulation is 
to capitalize on all available simulation capabilities to enhance 
training and readiness. This complimentary approach of simulation and 
actual flying will continue to produce the best-trained, most combat 
ready crews possible.


    119. Senator Santorum. Secretary Rumsfeld or General Shelton, what 
is the cost associated with this decision to leave by 2003?
    General Shelton. The Navy has not yet determined the cost of 
closing and relocating the training capabilities at the Vieques range. 
An estimate of these costs should be available by March 2002, upon 
completion of the new Vieques options study directed by the Secretary 
of the Navy.


    120. Senator Santorum. Secretary Rumsfeld or General Shelton, what 
are the implications for the Navy's use of Naval Station Roosevelt 
Roads?
    Secretary Rumsfeld. Puerto Rico's Naval Station Roosevelt Roads 
architecture and structure has built up over the years principally to 
support training in the Puerto Rico operating area. Without that 
training, coupled with the need to effectively use tight fiscal 
resources, whether the Navy will maintain a presence on mainland Puerto 
Rico and to what degree is a question that will require careful 
examination. The Chief of Naval Operations has stated that the Navy 
will conduct this examination during the course of resource decision 
making.
    General Shelton. With respect to Naval Station Roosevelt Roads 
(NSRR), the mission of the base is to support training in the Puerto 
Rico operating area, to support U.S. Southern Command presence and 
outreach into South America, and support multi-agency drug interdiction 
efforts. Should training on the Vieques inner range cease, valuable 
training may continue to take place in the unencumbered sea and air 
space of the larger Puerto Rico operating area, in addition to 
continuation of the U.S. Southern Command and drug interdiction 
missions. The Chief of Naval Operations has stated that the Navy will 
conduct an examination to determine the extent of training to be 
performed in the Puerto Rico operating area and the required Navy 
support presence at NSRR.


    121. Senator Santorum. General Shelton, how will this decision 
impact doctrine governing training for combat?
    General Shelton. Our goal in training for combat is simple and time 
tested; ``Train the way we fight.'' This involves the use of live 
weapons by all combat platforms both singularly and in combined use. 
Conducting tactical operations with live weapons validates both 
training and tactics. We practice the concept of ``magazine to 
target.'' This involves the stowage, breakout, and build-up of all 
types of weapons from a ship's magazines. These weapons are transferred 
throughout the ship and loaded onto the  aircraft, ship's guns, or 
submarine torpedo tubes. Crews reach and acquire their objective and 
employ ordnance with precision while avoiding air and ground threats. 
The weapons' explosion on target validates the entire process.
    As Marines integrate into amphibious assault operations, they too 
break out equipment and move ashore from the sea and by air. They 
interact with a hostile environment with supporting live fire. Live, 
realistic training not only validates tactics and operations of 
equipment in the field but also allows the foot soldier to experience 
live fire and to acclimatize to the noise and shock of combined arms 
support live weapons exploding near them.
    As encroachment on ranges continues to grow in scope, our ability 
to conduct realistic training is hampered. Individually, encroachments 
can be managed with minimal impact. We have seen, however, that 
multiple encroachments have a cumulative effect on our ability to 
``train as we fight.'' When our ability to train is impaired, our 
sailors and marines assume increased risk when going in harm's way.


    122. Senator Santorum. Secretary Rumsfeld or General Shelton, what 
are the implications of this announced action for other U.S. training 
ranges that are opposed by nearby residents?
    General Shelton. Independent of any outcome on Vieques, a variety 
of factors are encroaching upon the Defense Department's ability to 
realistically train in a manner commensurate with how it may be called 
upon to fight in combat. Clearly, a careful balance must be struck 
between our stewardship responsibilities, responsibilities that extend 
to the environment and communities in which we operate, to the safety 
of our sailors and marines, and to the effectiveness of the Navy and 
Marine Corps.
    The political and operational factors that led to the recent 
decision to discontinue training operations on the Vieques range are 
unique to that place and time. However, there may be those who would 
try to build a precedent out of the Vieques case. We are prepared for 
that possibility as we continue to balance our stewardship 
responsibilities.


                        leap ahead technologies
    123. Senator Santorum. Secretary Rumsfeld, the President expressed 
a desire to pursue ``leap ahead'' technologies and has been supportive 
of ``skipping a generation'' in the weapon system acquisition process. 
The ability to realize these goals will largely be driven by our 
investment in our Department of Defense science and technology program. 
These budget accounts support research on many of the key technologies 
that will be necessary for the Army to transition to its Objective 
Force, for the Air Force and Navy to utilize UCAVs, and for many of our 
chemical and biological agent protection/detection capabilities.
    What do you believe is an appropriate level of investment in our 
6.1, 6.2, and 6.3 budget accounts to support ``leap ahead'' 
technologies?
    Secretary Rumsfeld. Determining a sufficient level of science and 
technology (S&T) investment is not a precise science, rather I believe 
it is a strategic decision. It has always been the Department's goal to 
fund S&T at a level adequate to ensure the technological superiority of 
our Armed Forces. A strong S&T program is required to provide options 
for responding to a full range of military challenges both today, and 
into the uncertain future. The Department's investment in S&T develops 
the technology foundation necessary for our modernization effort, and 
fosters the development of ``leap ahead'' technologies that produce 
revolutionary capabilities. DOD must continue to invest broadly in 
defense-relevant technologies because it is not possible to predict in 
which areas the next breakthroughs will occur. It is the Department's 
objective to grow the S&T budget to be 3 percent of the total DOD top-
line budget as soon as possible. This goal is consistent with the 
industrial model of investing 3 percent of a corporation's budget in 
research. However, we also need to ensure that the funding levels of 
the various components in the Department's total budget are balanced 
based on our assessment of the most urgent requirements at any given 
time.


                             basic research
    124. Senator Santorum. Secretary Rumsfeld, how much of a priority 
do you accord Department of Defense basic research?
    Secretary Rumsfeld. The DOD gives basic research a high priority. 
Basic research supplies new knowledge and understanding in science and 
engineering fields that underpin national defense. It thereby 
stimulates the development of new technologies, creating opportunities 
to enhance capabilities of future military systems and to make them 
easier and less expensive to manufacture, operate, and maintain. Due in 
no small part to DOD's prior investments in basic research, we today 
have the Global Positioning System, stealth, night vision, precision 
strike, and other military capabilities that help give us a decisive 
advantage over potential adversaries. As part of our legacy to our 
successors, it is incumbent on us to continue to invest in basic 
research to help meet future defense needs.


    125. Senator Santorum. Secretary Rumsfeld, can you discuss the 
relationship between basic research funding, American universities, and 
our next generation of engineers and scientists?
    Secretary Rumsfeld. The DOD Basic Research program relies greatly 
on universities as performers (other performers include DOD and other 
Federal laboratories, industry, and nonprofit institutions other than 
universities). Basic research is a core competency of the universities 
and they perform the largest share of the program, competitively 
receiving about 55 percent of the total funding. Investment in 
university-based research pays additional dividends through the 
associated training of scientists and engineers--graduate students 
employed as research assistants on DOD-supported projects receive 
training in research performance, satisfying requirements toward their 
degrees as an integral part of the work they perform on the projects. 
The basic research program also supports the National Defense Science 
and Engineering Graduate Fellowship Program, a way of honoring and 
encouraging the best and brightest students in defense-critical fields. 
Thus, university participation in the DOD Basic Research program 
supplies both high-quality defense research and training to help ensure 
the future availability of science and engineering talent for defense 
needs.


                joint transformation and experimentation
    126. Senator Santorum. General Shelton, as each of the Service's 
addresses transformation in its own context, have you seen any evidence 
of a joint transformation effort?
    General Shelton. We are making great strides in joint 
transformation. Each Service's strategic vision and doctrine are 
designed to complement joint vision and doctrine while leveraging 
individual Service core competencies. Consequently, as each Service 
replaces its Cold War legacy systems with future systems, it does so in 
a joint context, with the focus on providing the best possible 
capability to the joint warfighter. Combined with robust joint 
experimentation and joint exercises, individual Service transformation 
contributes greatly to the expanding joint transformation effort.


     127. Senator Santorum. General Shelton, do you view the joint 
experimentation arena as an appropriate exercise of service 
transformation efforts?
    General Shelton. Joint experimentation is an outstanding arena to 
evaluate and assess Service transformation efforts. The purpose of 
joint experimentation is to explore, demonstrate, and evaluate the most 
promising new joint warfighting concepts. Experimentation yields 
quantitative and qualitative recommendations for change that will drive 
the Armed Forces through transformation.
    Each of the Services' ongoing transformation efforts will benefit 
joint transformation, and each Service routinely conducts 
experimentation to ensure its changes will meet joint warfighting 
needs.
    All Services have participated in the planning of our next joint 
field experiment, Millennium Challenge 02, which will be conducted 
during July and August 2002. Millennium Challenge 02 is designed to 
examine some key operational capabilities of the Services and will 
provide the Services a joint operational-level context in which they 
can develop future core competencies. All Services are establishing 
their own specific experimentation objectives that complement the 
overall objectives of the joint experiment and leverage the joint 
context of the experiment.


                  information operations capabilities
    128. Senator Santorum. General Shelton, a consistent theme in the 
defense reviews is that enabling information technology and information 
operations will play a key role in the formulation of national military 
strategy. What recommendations would you make regarding an information 
organization to support the CINCs?
    General Shelton. One of the key shortfalls in our ability to employ 
information operations capabilities is the difficulty of developing 
sufficiently detailed targeting data. Without the requisite targeting 
detail, commanders are severely limited in their ability to exercise or 
plan for the use of many information operations capabilities. Whereas 
the Joint Warfighting Analysis Center excels at conducting analysis in 
support of conventional military capabilities, no similar organization 
exists for ``non-kinetic'' capabilities such as computer network 
attack, electronic attack, or psychological operations. We are 
currently developing a proposal to establish new analysis centers, 
similar to the Joint Warfighting Analysis Center, to support employment 
of electronic and perception-based capabilities, respectively. 
Concurrently, we are exploring the advantages of establishing a new 
third organization that would serve to integrate the analysis efforts 
of the other three centers in support of kinetic, electronic, and 
perception-based capabilities. We are also looking at building a 
strategic psychological operations organization designed to provide 
timely advice to the CINCs as well as other U.S. government agencies on 
themes, foreign audiences, and appropriate media forums to effectively 
achieve U.S. national objectives. By expanding our analysis and 
strategic influence capabilities beyond those associated with physical 
strike weapons, we will greatly enhance our ability to employ 
information operations capabilities with confidence that they will 
achieve the desired effects.


                    information warfare capabilities
    129. Senator Santorum. General Shelton, would you recommend 
reorganizing the Services to include information warfare 
responsibilities?
    General Shelton. Each of the Services and U.S. Special Operations 
Command have already taken steps to integrate information operations 
and information warfare capabilities and responsibilities, consistent 
with their authority to organize, train, and equip their forces. While 
each has approached information operations from the standpoint of their 
individual requirements, all recognize that information operations and 
information warfare capabilities are critical for our national 
security. As our understanding of military operations in the 
information age evolves, so too will our structures and organizations.


                protecting information technology assets
    130. Senator Santorum. Secretary Rumsfeld, advances in information 
technology have led to many breakthroughs in American industrial, 
commercial, and military capabilities. At the same time, our reliance 
on these assets means that a disruption or failure of these systems 
(either accidental or malicious) could compromise America's ability to 
prevail in a conflict or military crisis.
    What type of investments do you believe are necessary to safeguard 
or protect America's information technology assets and its access to 
this information?
    Secretary Rumsfeld. For those assets not owned or operated by the 
Department of Defense, but essential to national security, there are 
investments required by both the Department and the information owner. 
If the Department is dependent upon the information service, we must 
take appropriate steps for its assurance--to ensure availability, 
integrity, authenticity and, where required, confidentiality.
    The investment required by the private sector to safeguard their 
assets from disruptions or failures is substantial and in many ways 
similar to what the Department does to protect its systems. This is 
accomplished by implementing a layered defense, ensuring security is 
built into systems, and then monitoring those systems. The National 
Security Agency, in partnership with the National Institute for 
Standards and Technology, sponsors the National Information Assurance 
Partnership to promote the development and use of secure products. As 
this activity matures there will be a wider selection of proven 
security products available for use by both Government and the private 
sector to protect and safeguard information technology assets.


                    offensive information operations
    131. Senator Santorum. Secretary Rumsfeld, while there has been a 
great deal of discussion about threats to America's information 
technology assets, little has been said on America's ability to disrupt 
or cripple other countries' reliance on information technology.
    Has the President or Pentagon articulated a policy with respect to 
America's ability to wage an offensive attack on the information assets 
of our enemies?
    Secretary Rumsfeld. In support of the national military strategy, 
the Pentagon has articulated its policy with respect to America's 
ability to wage an offensive attack on the information assets of our 
enemies, in DOD Directive 3600.1 titled ``Information Operations.'' 
This guidance is further delineated in Joint/Service doctrine(s) and 
plans.


                           procurement plans
    132. Senator Santorum. Secretary Rumsfeld and General Shelton, 
current procurement plans call for the purchase of 339 F-22 Raptors, 
548 F/A-18E/F Super Hornets, and 2,852 Joint Strike Fighters (JSF). 
Cost estimates are that procurement of these aircraft in these 
quantities will cost approximately $340 billion (in 2000 dollars). In 
order to procure these platforms under the current plan, a significant 
increase in the defense top line or a major restructuring of 
procurement and/or R&D programs may be necessary.
    Most ``futurists'' cite concerns with asymmetrical threats and the 
urbanization of future warfare and peacekeeping missions.
    How should we view requirements for tactical aviation, the 
investment to field the next generation of aircraft, and our ability to 
deal with asymmetrical threats and urbanization?
    How do the Services establish the quantities of tactical aircraft 
that are required to support the National Military Strategy?
    Are they principally resource driven or are they developed in 
response to the threat? 
    Secretary Rumsfeld. The requirements process begins with the U.S. 
defense strategy and the National Military Strategy, which set the 
objectives for the military based on the priorities they outline and 
the anticipated threat. From this and the results of the Quadrennial 
Defense Review, the Secretary's Contingency Planning Guidance provides 
direction for the preparation of war plans reflecting projected force 
capabilities consistent with the national strategy and priorities. The 
CJCS Joint Strategic Capabilities Plan provides regional taskings and 
apportions resources to the CINCs based on military capabilities that 
result from completed program and budget actions. The Services' title 
10 responsibilities include equipping their forces as best they can 
within their budget topline to meet these CINC requirements.
    General Shelton. The requirements process begins with the U.S. 
defense strategy and the National Military Strategy, which set the 
objectives for the military based on the priorities they outline and 
the anticipated threat. From this and the results of the Quadrennial 
Defense Review, the Secretary's Contingency Planning Guidance provides 
direction for the preparation of war plans, reflecting projected force 
capabilities consistent with the national strategy and priorities. The 
Services' title 10 responsibilities include equipping forces within 
their budget top line to meet CINC requirements.
    In short, we look closely at what the Department needs to do to 
ensure the security of our Nation; at what people, aircraft, ships, and 
tanks we plan to have in the field; and from this analysis identify and 
prioritize the most pressing shortfalls. This analysis of what we have 
to do weighed against the people and equipment we have to do it with 
forms the basis of our prioritized requests, including tactical 
aircraft. While clearly the threat drives us to develop the solutions, 
the solutions are constrained by fiscal realities.


                          joint strike fighter
    133. Senator Santorum. Secretary Rumsfeld and General Shelton, do 
you believe the JSF should be accelerated given concerns with 
technological maturity?
    Secretary Rumsfeld and General Shelton. The JSF technology is 
sufficiently mature to proceed with the program as currently scheduled. 
Accelerating the program would dramatically increase concurrency and 
risk. The JSF program has improved maturity and reduced the risk of all 
critical technology areas to an acceptable level in preparation for 
successful transition to engineering and manufacturing development 
(EMD) this fall. Prototype mission avionics hardware and software were 
developed and integrated in a series of laboratory and component bench 
tests. Demonstration of the JSF mission systems concepts culminated 
with integrated tests in the contractors' flying laboratories. These 
flying testbeds brought together sensors, C\4\I links, and prototype 
software to demonstrate an integrated sensor system in an open system 
architecture--an unprecedented capability. The technology maturation 
program and flying laboratory results meet or exceed expectations as 
well as providing a sound foundation of hardware/software development 
to successfully transition to EMD. But, acceleration of the program 
would, in my opinion, and this view is shared by the JSF Program 
Office, dramatically increase risk. If Service needs dictate, the 
Department would carefully review these requests before accepting any 
additional or unwarranted risk.


                      unmanned combat air vehicles
    134. Senator Santorum. Secretary Rumsfeld and General Shelton, 
where do unmanned combat air vehicles (UCAVs) fit within the concept of 
tactical aviation?
    Secretary Rumsfeld and General Shelton. We support the development 
of unmanned combat system technologies primarily because they have the 
potential to perform exceedingly high-risk missions that currently put 
our aircrews and soldiers into harm's way. Although not yet proven, 
unmanned combat systems may deliver these new capabilities at lower 
total system cost (acquisition, operations, and support). UCAVs offer 
great potential but are early in the development cycle. The joint 
Defense Advanced Research Projects Agency (DARPA)/Air Force UCAV 
program will demonstrate first flight this fall, while the DARPA/Navy 
UCAV program will follow by at least 2 years.
    If UCAVs mature as expected, significant air-to-ground capability 
could be available by the end of this decade. Assuming UCAV performance 
and cost projections are correct, the quantity of manned tactical 
aircraft could be decreased. UCAV migration to other more demanding 
missions, including air-to-air, will require more sophisticated 
technology improvements in sensors, processing, maneuvering, targeting, 
and autonomous flight operations. However, these technologies are not 
likely to mature until well into the next decade.


                    joint command and control system
    135. Senator Santorum. General Shelton, several of the strategy 
panels have reported that there is currently no truly joint command and 
control system, as each service has optimized its systems for itself. 
The effect, they claim, is that our joint operations are coordinated 
instead of integrated.
    Do you agree with this assessment, and, if you do, what would you 
suggest as the best way to remedy the situation?
    General Shelton. The Global Command and Control System (GCCS) is 
the joint command and control system. It is an integrated, reliable, 
and secure system linking the National Command Authorities to the 
unified commands continuing down to the Joint Task Force and Service 
components. GCCS provides a robust capability to the joint warfighter 
and is an evolving system designed to grow to meet warfighter needs. 
There are, however, still many challenges ahead to achieve a seamless, 
agile command and control system capable of ensuring complete joint 
interoperability and the sharing of timely, tailored, and fused 
information sharing among interagency and multinational participants. 
To address these challenges, we have started a number of initiatives. 
For example, the Joint Requirements Oversight Council (JROC) has an 
ongoing study tasked to develop an operational concept, operational 
architecture, and implementation roadmap for Joint Task Force command 
and control for the future. This is the first step in developing a 
truly joint future command and control architecture. A concurrent 
effort is specifically looking at the technology barriers to a fully 
interoperable GCCS. Additionally, we have a number of promising joint 
command and control advanced concept technology demonstrations (ACTDs) 
in progress and an extensive joint experimentation process that will 
further enhance near-term joint command and control effectiveness.


                    army interim brigade combat team
    136. Senator Santorum. General Shelton, the Army's critical 
transformation path leads to the ``objective force'' that will provide 
a ground component rapid response capability. Until that capability is 
developed and fielded, however, the Army has designed the Interim 
Brigade Combat Team (IBCT) to bridge the capability gap between the 
objective force and its legacy forces.
    Do you view the IBCT as transformational, and will it meet the 
Department's needs for the ground force's rapid response capability?
    General Shelton. The Interim Force is a transition force that fills 
the strategic near-term capability gap that exists today--one that 
seeks the Objective Force to the maximum extent feasible, but leverages 
today's state-of-the-art technology together with modernized legacy 
forces as a bridge to the future. The Army's Interim Force will be made 
up of five to eight deployable Brigade Combat Teams that will be 
trained, organized, and equipped to conduct small-scale contingency 
operations. The IBCTs will be equipped with new vehicles that are 
expected to make the teams more lethal, mobile, and survivable than 
current light forces while continuing to maintain the current light 
force's responsiveness and deployability capabilities. However, during 
a major conflict the Army does not expect the IBCTs to directly replace 
heavy combat units for all missions but does intend to use the units to 
perform a broad range of missions suitable to their capabilities and 
characteristics. The IBCTs would supplement the specialized 
capabilities of heavy units with their own specialized features and 
assets when available.


    137. Senator Santorum. Secretary Rumsfeld, the current plan is for 
the Army to field six to eight IBCTs.
    Do you believe this is the right number of brigades, and will the 
Department fully resource this number of brigades?
    Secretary Rumsfeld. This issue is currently being examined 
carefully. Our ongoing strategy review and the Army's subsequent 
experimentation will play a substantial role in this analysis. While it 
is premature to say exactly how many of these brigades we will 
ultimately field, it is safe to say that we do need some of these 
brigades to experiment with. In doing so, we will learn a great deal 
about what they give us operationally, particularly with respect to 
strategic mobility and networked fighting organizations sharing a 
common operational picture. In this regard, recent Army experiments at 
the National Training Center have shown us some genuinely promising 
results regarding networked warfighting that we are eager to see 
translated into the IBCTs.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
                               macedonia
    138. Senator Allard. Secretary Rumsfeld, given the recent 
escalation of conflict in and around Macedonia, and talk of NATO 
intervention, can you explain what our national interests are in that 
region?
    Secretary Rumsfeld. U.S. security interests in Europe are 
fundamental. The transatlantic partnership is crucial to ensuring 
global peace and prosperity. One of the key challenges facing the 
Alliance is integrating Southeastern Europe into the whole of Europe. 
We are committed to face this challenge together with our European 
allies and partners. The President of Macedonia has requested NATO to 
be a part of the peaceful solution to the conflict there. Both we and 
our European partners know that we must do all we can to help the 
Macedonian people avoid the same tragedy of violence and warfare that 
has afflicted so many of their neighbors in Southeast Europe. The U.S. 
plans to contribute to the NATO operation by providing important 
support capabilities. That said, the U.S. will continue to push for the 
countries of the region to solve their differences within their own 
civil institutions or with the aid of multinational civilian 
institutions.


               intelligence and communications shortfalls
    139. Senator Allard. Secretary Rumsfeld, what are your most 
significant shortfalls in the intelligence and communications 
infrastructure? 
    Secretary Rumsfeld. In the intelligence domain, inadequate high 
demand/low density airborne collection platforms, signals intelligence 
(SIGINT), and lack of fully integrated ISR systems are the most 
pressing intelligence infrastructure shortfalls. In the near term, the 
Department is considering augmentation of the current RC-135 and EP-3 
fleets, and accelerating the delivery of advanced capabilities such as 
the Global Hawk Unmanned Aerial Vehicle (UAV) and Aerial Common Sensor 
to close the collection gap. In the long term, we are examining 
emerging concepts such as the Multi-Mission Aircraft and the Advanced 
Airborne Command and Control to address the high demand low-density 
shortages.
    Shortfalls in both our airborne and overhead SIGINT collectors, and 
their associated tasking, processing, exploitation, and dissemination 
infrastructures (TPED), are also significant. Modern technologies 
threaten to eclipse our ability to collect against new signals. We are 
pursuing modernization efforts for our airborne SIGINT assets through 
the joint SIGINT avionics family effort, and are working with the 
Director of Central Intelligence in support of the initiatives in the 
National Security Agency transformation.
    Full integration of intelligence, surveillance, and reconnaissance 
systems is a key  objective, and remains one of our greatest 
challenges. Our joint service Distributed Common Ground Systems (DCGS) 
architecture has made great progress, but much remains to be 
accomplished through integration of DCGS and national mission ground 
stations to meet the TPED requirements associated with our advanced 
tactical sensors and future overhead collectors.
    In the communications arena, the goal is to provide our forces with 
the ability to connect to a ubiquitous information grid, requiring only 
the correct communications equipment with the correct security 
capabilities. The most significant shortfalls in meeting this goal are 
in satellite communications (SATCOM) and terrestrial communications.
    SATCOM offers a unique capability for expeditionary forces by 
allowing reliable command and control connectivity from the National 
Command Authorities to the forces afield, independent of any 
infrastructure where forces are operating. Both spacecraft and 
connecting ground communications equipment procurements have lacked 
synchronization. These areas require improvement and are being 
scrutinized in the ongoing Quadrennial Defense Review.
    System replacement is the near term issue, and DOD has begun the 
planning and design activities required to execute the replacement of 
the existing Defense Satellite Communication, MILSTAR, and UHF follow-
on systems. Looking further into the future, technologies that will 
provide exponentially increases in throughput, security, and 
responsiveness are also being studied. The National Security Space 
Architect has been tasked to examine space assets, while another task 
group is developing an information superiority investment strategy. 
Both groups are reviewing the shortfalls and are providing the 
recommendations that span the DOD information handling enterprise.
    Terrestrial capabilities include: wireless radios; base 
infrastructures; connection points between SATCOM and terrestrial 
network nodes; and the wide and local area connectivity networks over 
which the multitude of applications and command and control networks 
traverse. We are experiencing shortfalls in the fielding of modern 
tactical and intelligence data link equipment into combat platforms, 
and recognize the need to accelerate these efforts. High priority is 
being placed on programs such as the Joint Tactical Radio System, the 
Navy-Marine Corps Intranet, DOD teleports, the Defense Information 
Systems Network, and a variety of programs to improve infrastructure 
and deployed network security.
    We are also studying the use of UAVs to mitigate the challenges to 
wireless systems caused by environmental effects and by international 
regulatory constraints. The use of UAVs as airborne communications 
nodes, to bridge the wireless gap between satellite and terrestrial 
communications systems, is being investigated carefully.
    MASINT is an important collection discipline that offers critical 
insight to adversary developments in science and technology, weapons of 
mass destruction, and other activities of military significance. New 
sensors and deployment schemes are being examined that could provide 
important intelligence information to military commanders on the 
battlefield as well as to decision-makers assessing foreign leadership 
intentions.
    HUMINT provides a unique collection capability and provides human 
insight where technical collect falls short. Enhanced HUMINT will 
further enable IMINT, MASINT, and SIGINT efforts against critical hard 
to access targets and will enhance support to military operations.
    Finally, intelligence analysis must transform from industrial age 
business processes to a global virtual work environment enabling 
greater analytic coverage. Key to this transformation is personnel with 
the right balance of technical and analytical skill-cross discipline 
accountability; analytic and visualization tools; threat modeling 
capabilities; and easily accessible data repositories and 
interoperability to allow rapid data sharing among intelligence 
producers and with consumers.


          satellite communications capability and intelligence
    140. Senator Allard. Secretary Rumsfeld, do you have sufficient 
satellite communications capability?
    Secretary Rumsfeld. The nine Unified Commanders have consistently 
reported significant shortfalls in both SATCOM and terrestrial 
capabilities to the Chairman of the Joint Chiefs of Staff via the Joint 
Monthly Readiness Review. The shortfalls, and recognition of the need 
to protect our critical infrastructures including critical information 
networks, prompted the issuance of Presidential Decision Directive 63 
in May 1998. The Department continues to work solutions to these 
shortfalls aggressively.
    Base communication infrastructures are being upgraded, keeping up 
with technology is presenting the Department with challenges. The 
transformed force structure is expected to be more reliant on the home 
garrison than in the past therefore the ability to reach back into the 
base infrastructure becomes more important to its responsiveness. We 
are looking at the effects that will have, not only in the capability 
to exchange information, but also in the area of protecting that 
segment of the information infrastructure against attack.


    141. Senator Allard. Secretary Rumsfeld, what must we do to ensure 
we have the capacity and flexibility to support our intelligence and 
communications requirements in the next 5 to 10 years?
    Secretary Rumsfeld. Evolution of a defense surveillance 
architecture of integrated surveillance platforms, networks, and 
databases is a top priority for meeting DOD requirements in the next 5 
to 10 years. The Department is currently implementing a surveillance 
integration initiative to integrate both airborne and space 
surveillance systems. We must add new collection capabilities, such as 
the proposed Space Based Radar system, and succeed in our plan to 
accelerate fielding of the Global Hawk UAV equipped with Multi-Platform 
Radar Technology Insertion Program capability. Non-technical 
integration must be included to capture sources of information such as 
HUMINT, open source intelligence, and counterintelligence systems.
    It is critical that we continue ongoing efforts to improve 
collection. This includes sensor developments such as hyperspectral 
imagery and chemical/biological ground sensors; and platform 
developments such as stealth and tactical UAVs. We must deliver the 
future communications architecture, which will allow individual 
collectors and ground processing elements, DCGS and MGSs to inter-
operate and relay data more efficiently and effectively.
    Finally we must concentrate on resolving shortfalls in skilled 
personnel. We need to hire, train, and retain personnel to enhance the 
intelligence community's depth and breadth--those people with the right 
balance of technical and analytical skills. The future workforce must 
be flexible and capable of working in the fast-paced virtual work 
environment as well as focusing on key challenges such as information 
operations, proliferation of weapons of mass destruction, and 
terrorism.
    Force transformation cannot occur without communication systems 
that enable superior situational awareness and support timely command 
and control of forces. In order to achieve that superiority, two 
changes in approach are essential: (1) we must treat information system 
capabilities as if they are weapons systems, rather than as ancillary 
support tools to warfighting; and (2) we must accept the fact that 
incremental enhancements will not deliver order of magnitude 
improvement in capability required.
    To meet our communications requirements in the next 5 to 10 years 
we must continue current efforts to develop an integrated architecture 
and achievable roadmap for the acquisition of communications 
satellites. Replacement of the existing communication satellite 
constellations, MILSTAR, UHF follow on, and the Defense Satellite 
Communication System must remain a priority. We must ensure, as we 
become increasingly reliant on a commercial communications market 
characterized by international partnerships and consortia, that we 
avoid denial of service issues that potentially arise in such 
arrangements.
    In concert with new platform acquisitions and expanded use of 
commercial communications, we must continue our dedicated efforts to 
deliver the Global Information Grid (GIG). The communication systems, 
computing systems and services, software applications, data, and 
security services comprising the GIG provide the force structure the 
ability to decisively maintain information superiority over real and 
perceived adversaries. 
    We must also continue crafting and enforcement of interoperability 
mandates within DOD. Interoperability efforts to date have dramatically 
improved cross service connectivity. Work must deliver on key 
interoperability initiatives such as the Global Command and Control 
System, the Defense Messaging System, and Cooperative Engagement 
Capability. We must also continue and strengthen interoperability 
efforts with alliance partners. The inclusion of allies in the annual 
Joint Warfighter Interoperability Demonstration events, the 
establishment of the Combined Federated Battle Lab Network, and the 
generation of coalition wide area networks are good beginnings, we 
recognize the need to foster similar efforts on a larger scale.


    142. Senator Allard. Secretary Rumsfeld, how should commercial 
imagery be incorporated into our national strategy?
    Secretary Rumsfeld. The National Commission for the Review of the 
National Reconnaissance Office, the Independent Commission on the 
National Imagery and Mapping Agency, and the Commission to Assess 
United States National Security Space Management and Organization 
recommended that the U.S. Government take a fresh look at its strategy 
for using the U.S. commercial remote sensing industry to satisfy some 
of its geospatial and imagery information requirements. The Director of 
Central Intelligence and I agree that an effective U.S. Government 
commercial imagery strategy is necessary and have initiated a thorough 
review of the strategy being developed by the Directors of the National 
Reconnaissance Office and the National Imagery and Mapping Agency. This 
review will be conducted with the advice of an outside panel and will 
include the government's future use of commercial imagery, how we 
acquire it, and how we should incorporate it into our intelligence 
products.


                              high optempo
    143. Senator Allard. Secretary Rumsfeld, how are you going to 
reduce the effects of a high optempo?
    Secretary Rumsfeld. We are taking initiatives to lessen the 
negative impacts of high individual optempo, for instance, providing 
predictability in deployments when possible, re-looking time required 
for pre-deployment training work-ups and post-deployment maintenance, 
and implementing organizational initiatives like the Air Force 
Aerospace Expeditionary Forces, and considerations for post-deployment 
assignments.


                            force structure
    144. Senator Allard. General Shelton, do we need an increase in 
force structure?
    General Shelton. U.S. military force structure should be shaped and 
sized so our forces can successfully execute the National Security 
Strategy. Sufficient force structure provides the National Command 
Authorities with the flexibility to employ military forces effectively 
as an instrument of national power. It also ensures that the men and 
women of our Total Force, both Active and Reserve, have the capacity, 
depth, and readiness to perform their required missions at acceptable 
levels of perstempo and optempo. A mismatch between strategy and force 
structure can result in excessive perstempo and optempo as well as 
rapidly aging equipment. In recent years we've had to monitor these 
metrics closely as force structure levels were reduced while the level 
of military commitments increased.
    Current force structure levels are a function of current and future 
threat assessments, our strategy, required capabilities, resource 
allocation, and risk analysis. These forces are vital to the success of 
our war plans. Changes to force structure can be driven by any number 
of circumstances, including changes in U.S. national interests, changes 
in strategy and future threat assessments, and changes in treaties or 
other types of security agreements. OSD's QDR is examining all aspects 
of U.S. defense strategy, current force structure, and risk, with a 
goal of balancing the strategy with the force structure required for 
its execution. QDR findings will drive any required force structure 
changes.
                                 ______
                                 
             Questions Submitted by Senator Tim Hutchinson
                                vieques
    145. Senator Hutchinson. Secretary Rumsfeld or General Shelton, 
last week, the Navy announced that they would stop using Vieques as a 
training range. The history of the ongoing dispute is long. This 
subject came before the committee last year when Secretary Cohen 
testified.
    While testifying before the Seapower Subcommittee on this issue, 
Vice Admiral Daniel Murphy delivered what I believe to be the most 
compelling testimony that this committee has heard regarding Vieques.
    When asked to describe in practical terms what effect the loss of 
Vieques will have on our deploying Navy and Marine Corps forces, the 
Admiral replied: ``Sir, it is going to cost American lives. That has to 
be understood from the outset . . . Whatever the other merits to the 
two sides of the argument, I would just ask that the parties keep in 
mind that the consequences ultimately is placing our airmen, our 
marines in a higher risk than is necessary. It is going to cost 
American lives.''
    Is this still the case?
    General Shelton. The real issue is effective training for our men 
and women in uniform. If we do not have available the training 
capabilities Vieques now provides and don't replace it, then we will be 
putting sailors and marines at risk. With the innovative use of new 
methods, places, and technology, it is my sense we should be able to 
find ways to provide the required training. It may cost more and take 
longer, but we are committed to ensuring that our forces are 
effectively trained.


    146. Senator Hutchinson. Secretary Rumsfeld or General Shelton, is 
losing Vieques as a training range going to increase the risk to our 
men and women in uniform?
    General Shelton. We must continue to use Vieques until we have 
identified and established appropriate training alternatives. The need 
to prepare our men and women properly for success in combat and to 
reduce risk is a primary responsibility of military and civilian 
leadership in the Department of Defense.


             quality of life in the defense strategy review
    147. Senator Hutchinson. Secretary Rumsfeld, have you included 
quality of life needs (pay, housing, healthcare, and infrastructure) in 
the defense strategy review?
    Secretary Rumsfeld. We have included each of these areas in our 
review as well as other areas that also have an impact on our people's 
lives. Areas such as improved access to education for both members and 
their families, increased childcare and spouse employment 
opportunities, and reduced family separation are just a few areas being 
examined.


    148. Senator Hutchinson. Secretary Rumsfeld, what are your 
conclusions concerning the quality of life requirements for our 
military?
    Secretary Rumsfeld. Surveys tell us that military members and their 
families expect a quality of life comparable to that enjoyed by other 
individuals in America. The President's commitment to improvement in 
compensation, housing, and health care will correct some long-standing 
deficits which will assist our retention efforts. In addition to these 
much needed improvements we are taking a hard look at the entire 
quality of life area in our ongoing review. We realize that individuals 
in today's society--those we enlist--have higher aspirations and have 
other career choices given the robust U.S. economy. Our transformation 
efforts will have to recognize this, and provide our future military a 
quality of life environment that recognizes individual and family 
needs, engenders personal growth, and allows our members a degree of 
predictability over their lives.


              vaccine production and the biological threat
    149. Senator Hutchinson. Secretary Rumsfeld, does the defense 
review consider the biological threat and the need for a vaccine 
production capability?
    Secretary Rumsfeld. Yes, the defense review considered the 
biological threat in its entirety and there is a total of $386 million 
in the milcon defense budget (fiscal year 2002-2007) for construction 
of a government-owned/contractor-operated (GOCO) vaccine production 
facility.


    150. Senator Hutchinson. Secretary Rumsfeld, do you foresee a 
solution to development and testing of new vaccines to meet the 
requirements of the future?
    Secretary Rumsfeld. The process for research, development, and 
testing of a new vaccine takes an average of 10-20 years depending on 
the technological challenges posed by a particular biological threat 
agent. Of this total time period, the Food and Drug Administration 
(FDA) portion of the approval process accounts for a significant 
portion of this total time period. New and continued evolving 
requirements in the FDA approval process have lengthened the total time 
required for licensure. Such requirements include development of 
surrogate animal markers as a substitute for human efficacy, and 
increased numbers of test subjects required for phase one and two 
clinical trials to demonstrate safety and immunogenicity of the 
vaccine.


                          health care proposal
    151. Senator Hutchinson. General Shelton, there have been many 
changes to TRICARE. Last year we were able to pass legislation to 
provide health care earned by our military retirees.
    How is implementation of TRICARE-for-Life progressing?
    General Shelton. The National Defense Authorization Act for Fiscal 
Year 2001 directed sweeping changes for the military health system. 
Congress has provided for a comprehensive health benefit. Overall the 
new pharmacy program which began April 1, 2001 is extremely successful. 
The program added 1.5 million new beneficiaries to the TRICARE system 
overnight and, by all accounts, went off without a hitch. The response 
from beneficiaries 65 and older has been overwhelmingly positive. The 
Assistant Secretary of Defense for Health Affairs (ASDHA) has worked 
very hard to lesson the impact of implementation of this new benefit. 
ASDHA has formed a Health Issues Team (HIT) comprised of 
representatives from the Military Coalition and the National Military 
and Veterans Alliance to ensure implementation of these new initiatives 
goes as smoothly as possible.
    These are historic and great times for military medicine. Medicare-
eligible uniformed Service retirees, age 65 and older, will soon have 
one of the best health care benefits in the world.


    152. Senator Hutchinson. General Shelton, there have been many 
changes to TRICARE. Last year we were able to pass legislation to 
provide healthcare earned by our military retirees. Is TRICARE-for-Life 
impacting services to other recipients of TRICARE?
    General Shelton. I really think that it is too early to determine 
the impact on services to other beneficiaries TRICARE-for-Life will 
have. As you are probably aware, many military treatment facilities 
(MTFs) are already operating at maximum capacity serving active duty 
members and their families. The Assistant Secretary of Defense (Health 
Affairs) has formed two new TRICARE for Life panels, one senior and one 
working level, to meet regularly with Health Affairs and TRICARE 
Management Agency leadership to address issues such as this. Until DOD 
makes a decision about extending TRICARE Prime to beneficiaries 65 and 
older, the beneficiaries may continue to use MTFs on a space-available 
basis.
                                 ______
                                 
               Questions Submitted by Senator Jim Bunning
                     kosovo peacekeeping activities
    153. Senator Bunning. Secretary Rumsfeld, early in this 
administration, support was expressed for ending our involvement in 
Kosovo and bringing our troops home. Several months ago, I had the 
opportunity to visit some of the soldiers from the 101st Airborne at 
Fort Campbell. They expressed hesitation about their pending deployment 
to Kosovo and their morale was low. They asked why they were being 
deployed for peacekeeping activities. They did not believe that was 
their mission. I plan on visiting the 101st in August. What do I tell 
them when they ask me when they will be able to come home and when our 
peacekeeping activities will end?
    Secretary Rumsfeld. As part of NATO, we are committed to 
maintaining a safe and secure environment within Kosovo. This is 
crucial to the stability of the European region. The NATO coalition is 
making significant advancements to restoring the stability in the 
region through force presence and leadership. U.S. troops in Kovoso are 
integral to achieving a lasting peace in the region. Our men and women 
are doing an excellent job and are highly respected by the local 
population and their NATO counterparts. We are very proud of the work 
they are doing and we hope to reach a point where all NATO forces can 
go home.


                use of combat forces for civil missions
    154. Senator Bunning. Secretary Rumsfeld, since the end of the Cold 
War we have seen a stark increase in deployments for humanitarian 
purposes. This often involves deploying our highly-trained combat 
forces overseas to dispense food and medicine and perform police 
functions. Is it wise to use combat forces for civil missions?
    Secretary Rumsfeld. There are both positive and negative results 
from using combat forces for civil missions. Depending on the mission, 
the positive results include deployment training, training in small 
unit leadership skills, access to countries previously denied DOD 
presence, or foreign internal defense training. The negative results 
include the impact on unit readiness and the turbulence created by 
short notice, non-combat-related missions.


         specialized forces for humanitarian/democracy missions
    155. Senator Bunning. Secretary Rumsfeld, what plans, if any, do 
you have to create specialized forces for humanitarian and democracy-
building missions?
    Secretary Rumsfeld. We currently have no plans to create 
specialized forces for humanitarian and democracy-building or 
peacekeeping missions. Once U.S. troops are selected for a peacekeeping 
operation, they receive training in peacekeeping-specific skills 
immediately prior to deployment, to supplement their basic combat 
skills (which are a core competency for all troops in peacekeeping 
missions).


                      nato and the european union
    156. Senator Bunning. Secretary Rumsfeld, in 1999, the 15 European 
Union member states agreed at a summit to set up a force that would be 
able to deploy 60,000 troops within 60 days notice for peacekeeping, 
crisis management, and humanitarian aid operations lasting up to a 
year. Can you share with us your discussions with European nations on 
this issue?
    Secretary Rumsfeld. I have stated to my European colleagues that 
NATO will continue to be the indispensable anchor of American 
engagement in European security matters and the foundation for assuring 
the collective defense of Alliance members. I am inclined to support 
any serious effort to enhance European military capabilities in a 
manner that complements and reinforces those of the NATO Alliance, 
embeds EU defense planning within NATO, ensures transparency, and 
provides a right of first refusal for NATO. All 23 NATO and EU nations 
must concentrate on getting the details of this nascent relationship 
right.


    157. Senator Bunning. Secretary Rumsfeld, would this be a kind of 
Euro-army?
    Secretary Rumsfeld. No, the European Union's goal is to establish 
the autonomous capacity to launch and conduct EU-led military 
operations, where NATO as a whole is not engaged. This goal is a 
capability, not a standing army. Moreover, no European nation has the 
financial resources to have one set of forces for the EU and another 
for NATO; most forces pledged toward the EU goal are dual-hatted for 
NATO and the EU.


    158. Senator Bunning. Secretary Rumsfeld, do you see this as 
undermining NATO in any way?
    Secretary Rumsfeld. Not if it is done right. NATO will continue to 
be the indispensable anchor of American engagement in European security 
matters and the foundation for assuring the collective defense of 
Alliance members. The EU has explicitly stated that it has no 
aspirations for providing collective defense; rather, the EU focuses on 
a range of crisis response operations.
    Therefore, NATO and EU efforts can complement each other. The 
President and his administration support the European Security and 
Defense Policy as long as it adds capabilities to NATO, embeds EU 
defense planning within NATO, ensures transparency, and provides a 
right of first refusal for NATO. In fact, there is no a priori reason 
why NATO and the EU cannot work cooperatively to build capabilities, 
maintain operational military effectiveness, and avoid squandering 
scarce defense resources. Much hard work lies ahead to ensure we make 
real progress on these three fronts while avoiding an unnecessary and 
destructive competition between these two distinctive pillars of our 
transatlantic community.


                      base realignment and closure
    159. Senator Bunning. Secretary Rumsfeld, the last time we went 
through a major strategy review, we closed many military installations. 
Do you believe it is necessary or wise for another round of base 
closures?
    Secretary Rumsfeld. Yes. It is necessary for our total 
infrastructure to reflect military necessity and efficiently and 
effectively support our operational requirements. Force structure 
decisions, changing military missions, and other business improvement 
initiatives are identifying new requirements and new ways of doing the 
business of national defense. These changes highlight the need to 
relocate forces, consolidate missions, and reshape and modernize our 
infrastructure. While cost savings are important, we will focus on 
rationalizing our total infrastructure to promote operational readiness 
and support the force structure and mission requirements resulting from 
the Department's defense strategy review.


    160. Senator Bunning. Secretary Rumsfeld, if so, what kind of 
timetable do you see for another BRAC?
    Secretary Rumsfeld. The Department intends to forward proposed 
legislative language, for inclusion in the Fiscal Year 2002 National 
Defense Authorization bill, that would request authorization for one 
round of base realignment and closures in 2003, our Efficient 
Facilities Initiative.


                         rapid response forces
    161. Senator Bunning. Secretary Rumsfeld, with a new defense 
strategy it is obvious that new tactics and tools will be needed. The 
ability for a rapid response is certainly one of the most important 
goals of any new strategy. Will the need for rapid response forces 
increase the stationing of our forces overseas?
    Secretary Rumsfeld. We have not yet made any decisions on changes 
to the capabilities and posture of our forces. Among the options we 
have discussed, however, is the creation of rapidly deployable standing 
joint forces, for forward presence in peacetime and to permit and 
sustain operations across the spectrum of military missions. The 
implications of these options for stationing our forces overseas are 
under discussion. At this point in the review, I am not yet prepared to 
make a final recommendation.


                           expansion of nato
    162. Senator Bunning. Secretary Rumsfeld, last week President Bush 
said he wants to expand NATO and allow in more European nations in the 
near future.
    What kinds of support can we rely upon these and other European 
nations for in dealing with conflicts or incidents that arise in their 
backyard?
    Secretary Rumsfeld. New members of NATO must be prepared to make 
serious commitments, to include:

        <bullet> Accepting the responsibilities that come with NATO, 
        including possible participation in an Article 5 defense of 
        another ally.
        <bullet> The ability to add military value to the Alliance 
        commensurate with each member's size, including the necessary 
        investments in their militaries.
        <bullet> The ability for all facets of their units committed to 
        NATO operations to be interoperable with allied forces.

    It is important to note that European forces represent the lion's 
share of NATO-led missions in the Balkans. For example, of the 
approximately 44,000 troops in KFOR, NATO's European and Canadian 
allies contribute nearly 70 percent, partners contribute over 9 
percent, and the U.S. contributes approximately 15 percent. Of the 
approximately 18,000 troops in SFOR, the Europeans contribute over 80 
percent.


                             energy costs 
    163. Senator Bunning. Secretary Rumsfeld, the military is suffering 
from the same increase in energy costs as a lot of us. What option have 
you explored for leveraging the purchasing power of the Department to 
reduce costs?
    Secretary Rumsfeld. The Department takes advantage of its 
purchasing power and buys energy commodities in bulk whenever and 
wherever possible. For instance, the military Services aggregate 
electricity loads where feasible and have entered into long-term fixed 
power purchase agreements to obtain better and more stable rates. Our 
ability to use these vehicles varies across the Nation because Section 
8093 of the 1988 Defense Appropriations Act requires DOD to purchase 
electricity in a manner that is consistent with state law. In states 
that have not restructured their electricity markets this usually means 
we must purchase from the local utility at the tariff rate. In 
deregulated states such as California, however, we have more 
flexibility. For example, because electricity rates in southern 
California had fluctuated greatly over the last year, the Navy Public 
Works Center in San Diego recently entered into a multiyear contract 
with the Western Area Power Administration to purchase a fixed amount 
of power at preset rates. Additionally, the military Services have 
partnered with the Defense Energy Support Center on multiple occasions 
to aggregate electricity load in states with restructured electricity 
markets, with multiyear fixed price contracts awarded recently in 
Maryland and the District of Columbia.

    [Whereupon, at 11:25 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
